    THE IMPLEMENTATION OF THE
COMMUNICATIONS ASSISTANCE FOR LAW
         ENFORCEMENT ACT


        U.S. Department of Justice
      Office of the Inspector General
               Audit Division
           Audit Report 06-13
              March 2006
   THE IMPLEMENTATION OF THE COMMUNICATIONS
                                         *
      ASSISTANCE FOR LAW ENFORCEMENT ACT

                        EXECUTIVE SUMMARY

       Criminal organizations and individuals frequently use the
telecommunications systems of the United States to further serious
violent crimes, including terrorism, kidnapping, extortion, organized
crime, drug trafficking, and public corruption. One of the most
effective tools law enforcement uses to investigate these crimes is
court-authorized electronic surveillance. However, continuing
advances in telecommunications technology have impaired and in
some instances prevented telecommunications carriers from assisting
law enforcement in conducting court-authorized electronic surveillance.

      In the early 1990s, the Federal Bureau of Investigation (FBI)
asked Congress for legislation to assist law enforcement agencies to
conduct electronic surveillance. The FBI argued that advances in the
telecommunications industry such as cellular telephones, call
forwarding, and speed dialing challenged the ability of law
enforcement agencies to fully perform electronic surveillance. In
response, Congress passed the Communications Assistance for Law
Enforcement Act (CALEA) in 1994 to enable law enforcement to
conduct electronic surveillance despite the deployment of new
technologies and wireless services that have altered the character of
electronic surveillance. In short, CALEA requires telecommunications
carriers (carriers) to modify the design of their equipment, facilities,
and services to ensure that law enforcement can perform electronic
surveillance (for purposes of this report, the term electronic
surveillance is used only in the sense of the real-time interception of
information). To facilitate CALEA implementation, Congress
appropriated $500 million to reimburse carriers for the direct costs of
modifying systems installed or deployed on or before January 1, 1995.




       * THE FULL VERSION OF THIS REPORT INCLUDED INFORMATION THAT THE FBI
CONSIDERED TO BE LAW ENFORCEMENT SENSITIVE. TO CREATE THIS PUBLIC VERSION OF
THE REPORT, THE OIG REDACTED (DELETED) THE SENSITIVE PORTIONS AND NOTED THAT THE
INFORMATION DELETED IS LAW ENFORCEMENT SENSITIVE.
      Effective implementation of CALEA relies heavily on the shared
responsibilities of the FBI, the Federal Communications Commission
(FCC), telecommunications carriers, and telecommunications
equipment manufacturers. CALEA also required the Department of
Justice (DOJ) Office of the Inspector General (OIG) to conduct biennial
audits of the progress of CALEA implementation. 1

Audit Approach

      The OIG initiated this audit to: (1) review CALEA
implementation costs and progress; (2) review the impediments to
CALEA implementation, including the effects of emerging technologies;
and (3) determine how the implementation of CALEA, or lack thereof,
impacts federal, state, and local law enforcement in its ability to
conduct electronic surveillance.

       As part of our audit, we interviewed officials within the FBI and
the DOJ who have CALEA implementation responsibilities, as well as
representatives from telecommunications service providers, the FCC,
advocacy groups, and federal, state, and local law enforcement. We
reviewed the FBI's 2004 Threat Assessment Report, the FBI
Investigative Technology Division CALEA Law Enforcement Case
Examples, and other documents to gain an understanding of issues
encountered by law enforcement while conducting electronic
surveillance. We also mailed a survey to a statistical sample of 1,396
federal, state, and local law enforcement officials to identify issues that
affect law enforcement’s ability to conduct electronic surveillance.
Appendix I contains more information about the objectives, scope, and
methodology of this audit.

CALEA Implementation Costs and Progress

      After 10 years and over $450 million, the FBI estimates that only
10 to 20 percent of the wireline switches, and approximately 50
percent of the pre-1995 and 90 percent of the post-1995 wireless
switches, respectively, have CALEA software activated and thus are
considered CALEA-compliant. 2 Although we acknowledge that the FBI
bases its estimates on the best available data, we could not provide
assurance on the accuracy of these estimates. Neither the FBI nor the
FCC know the actual rate of CALEA compliance because there is no

      1
          See Appendix V for a summary of the prior OIG audits.
      2
        A switch is a telephone company device which “makes the connection”
when a call is placed. Modern switches are specialized computers.


                                         ii
requirement for carriers to report the number of switches that are
compliant. During the past 10 years, the FBI has spent about
$400 million to reimburse manufacturers for their purchase of CALEA-
compliant software licenses (Right-to-Use or RTU licenses). These
software licensing agreements allowed the carriers to meet CALEA
intercept requirements by collecting and delivering to law enforcement
pertinent call-identifying information, call content, or both.

     Through extensive negotiations, the FBI negotiated substantially
reduced costs for the RTU licenses compared to the initial cost
proposals as shown in the following chart.


                                          Results of RTU Negotiations

                      AGCS
   Manufacturer




                  Siemens
                                                                                     Final Price
                  Motorola
                                                                                     Initial Offer
                      Nortel

                   Lucent

                               $0   $50     $100     $150       $200   $250   $300
                                               Millions of Dollars

                  Source: Determination and Findings Regarding the Implementation of the
                  Communications Assistance for Law Enforcement Act (1999)

       The FBI also entered into additional RTU license agreements
totaling $50 million to reimburse carriers for the purchase of RTU
Enhanced Dial-Out software licenses. The “dial-out” software takes
advantage of the Public Switched Telephone Network (PSTN) already
in place between carrier equipment performing an intercept and a law
enforcement collection site. 3

      Although the FBI was able to negotiate substantially reduced
costs for the RTU license agreements compared to the carriers’ initial
cost proposals, as reported in previous OIG audits, the cost
information given to us by the FBI did not provide a basis to determine
the reasonableness of the RTU licenses’ costs. Accordingly, our prior
                  3
          The PSTN refers to the publicly available dial-up telephone network. It is
an interconnection of switching centers and connections to customers that offers
voice dial-up between customers connected to the PSTN.



                                                         iii
reports offered no opinion.

Benefits of CALEA

       For the switches with activated CALEA software, we found that
CALEA has provided federal, state, and local law enforcement with
beneficial features to conduct electronic surveillance. 4 The law
enforcement officials we interviewed said that electronic surveillance is
a vital investigative tool and that the CALEA features are extremely
beneficial. In addition, of the 82 agencies that responded to our
survey stating that they performed electronic surveillance, the
following chart shows a breakdown of law enforcement’s use of the
CALEA features:


                                       Law Enforcement Use of CALEA Features

                       Cell Site Location

                  Dialed Digit Extraction
                                                                                        FBI
                      Timing Information
  Feature




                                                                                        DEA
                       Ring/Busy Signal                                                 Sheriff/County Police
            Dialing/Signaling Information                                               Police Department
                                                                                        Attorneys
                         Multi-Party Call

                     Conference Calling

                                            0   10    20       30        40   50   60
                                                           Times Cited

  Source: Law enforcement responses to the OIG survey

      Law enforcement officials also stated that CALEA has greatly
reduced the amount of time it takes carriers to initiate a wiretap. Prior
to CALEA, both the carrier and law enforcement had to be physically
present at the switch location during the electronic surveillance. With
CALEA, provisioning, or the providing of electronic surveillance service
by the carrier, is completed remotely from a central location for all
electronic surveillance in a carrier’s network. According to carrier and
law enforcement officials, this process has significantly reduced carrier
and law enforcement travel costs and time.




             4
        A list of these features, known as “punchlist” items, is described in
Appendix IX.


                                                     iv
Impediments to Implementing CALEA

     Despite these successes, the FBI has encountered significant
impediments in implementing CALEA. These impediments included the
contentious standard-development process, carrier requests for
extensions and enforcement orders for non-compliance, and the
extended negotiations with carriers over software activation
agreements.

Developing Technical Standards

      Electronic surveillance standards provide the basis for the
development and deployment of technology to permit carriers to assist
law enforcement in conducting electronic surveillance. In accordance
with CALEA, the FBI consults with telecommunication carriers and
manufacturers to determine what capabilities will be included in the
CALEA standards. Developing electronic surveillance standards is a
lengthy process. For example, the initial CALEA standards took 10
years to develop and implement because of protracted litigation over
law enforcement wiretapping requirements. These delays are the
primary reason CALEA implementation continues on wireline systems.

      CALEA gives the lead role in setting electronic surveillance
standards to the telecommunications industry and this delegation has
created considerable tension between the FBI and the
telecommunications industry throughout the standards development
process. According to the FBI, CALEA allows the telecommunications
industry to decide what law enforcement needs to accomplish effective
electronic surveillance. If the FBI believes a standard is deficient, it
must challenge the standard by filing a deficiency petition with the
FCC. Instead of having to explain why law enforcement needs a
particular feature or service, the FBI’s preference would be to place
the onus on the telecommunications industry to explain why a feature
or service law enforcement wants is not technically feasible.

Carrier Extensions and Enforcement Orders for Non-Compliance

      Under CALEA, the FCC has the power to grant carriers time
extensions for complying with the statute. The FCC granted hundreds
of extensions in conjunction with the FBI’s flexible deployment




                                   v
initiatives. 5 These extensions are now a source of contention between
the FBI and the telecommunications industry because carriers have
delayed the implementation process by continuing to seek extensions
from the FCC. For example, the FCC issued extensions to many
wireline and wireless carriers for complying with CALEA until June 30,
2002, and then to June 30, 2004. Furthermore, in 2004 carriers filed
for time extensions for complying with CALEA until June 30, 2006.

       Carrier officials we interviewed have argued that the extensions
are warranted. A telecommunications industry representative noted
that while the FBI blames the FCC for granting carriers repeated
extensions, the extensions were approved in conjunction with the FBI’s
flexible deployment initiatives.

       Until this point, the FBI’s pursuit of legal remedies for carrier
non-compliance with CALEA has not included filing enforcement
actions. 6 The FBI explained that it has not sought enforcement orders
for two reasons: (1) pre-1995 equipment is deemed CALEA-compliant
until the FBI agrees to reimburse carriers for their deployment costs,
and (2) post-1995 equipment has been covered under FCC time
extensions. FBI officials summarized the current status of this issue
by saying that it cannot file suit to enforce CALEA because the carriers
currently do not have to comply with the statute.

      Telecommunications industry representatives cited law
enforcement’s failure to file enforcement actions as evidence that
carrier non-compliance is not a real concern. A representative
indicated that carriers were not protected from enforcement actions
because the FCC has not ruled on the latest extension requests.
However, several state and local law enforcement agencies we
       5
           Since 2000, the FBI has offered carriers the opportunity to participate in
four flexible deployment initiatives. Under these initiatives, the FBI supported a
carrier’s petition to the FCC for a time extension for complying with a CALEA deadline
if the carrier provided the FBI with: (1) its projected CALEA deployment schedules
for all switches in its network, and (2) information pertaining to recent electronic
surveillance activity. In addition, the FBI supported a carrier’s petition if its
projected compliance schedules did not delay the implementation of CALEA solutions
in areas with high electronic surveillance activity.
       6
          Under Section 108 of CALEA, an order enforcing CALEA may be issued by
the court that approved the electronic surveillance order with which the carrier failed
to comply or upon the application of the Attorney General through a civil action. A
court issuing an enforcement order must allow reasonable time for compliance and
may impose a civil penalty not to exceed $10,000 per day for each day of violation of
the enforcement order.



                                          vi
interviewed said their failure to file CALEA enforcement actions was a
matter of practicality. If they already know a carrier does not have
the ability to conduct the electronic surveillance, they will not bother
going through the trouble and expense of obtaining an enforcement
order. In addition, one local law enforcement official noted that
although a local judge might be willing to issue an Order to Show
Cause against a carrier, the agency would have to wait three months
for a hearing. Given that the wiretap is needed immediately, the
official said the law enforcement agency instead will pursue a
traditional wiretap, which does not provide the CALEA features. 7

Activation Negotiations on Pre-1995 Equipment

      Although the FBI has spent over $450 million on RTU licenses
since 1994, entering into these agreements did not guarantee that
CALEA-compliant software solutions were operable. The agreements
provided the carriers with the CALEA-compliant software solutions.
However, the agreements did not include the activation costs.
Software must be activated; engineering and provisioning practices
developed; security policies implemented; and in a handful of cases,
external hardware deployed, prior to a carrier facilitating surveillance
that utilizes the software.

        At the time of this audit, the FBI was negotiating reimbursement
agreements with four wireline carriers regarding deploying CALEA
solutions on pre-1995 wireline equipment. 8 According to the FBI, it
concluded negotiations with two carriers in September 2005 for a total
cost of $4.5 million. FBI officials said substantial personnel turnover at
the third carrier made negotiations difficult, and the FBI said it is
postponing further discussions with this carrier until the agreements
with the first two carriers are finalized. The FBI also temporarily
discontinued negotiations with the fourth carrier because the carrier’s
initial proposal of $170 million far exceeded the amount of remaining
funds.




       7
        CALEA offers additional features not available through a traditional wiretap.
These additional features are the “punchlist” features described in Appendix IX.
       8
         The FBI estimates that entering into software activation agreements with
these four carriers would make about 90 percent of the wireline switches CALEA-
compliant.



                                         vii
Effects of Delayed Implementation on Wireline Systems

      We found that the beneficial features CALEA provided generally
have not been realized on wireline systems. However, we believe the
following factors mitigate the effects of the delayed implementation:
(1) the growing popularity of Internet telephony, (2) the limited
number of wireline wiretaps, (3) the apparent limited effect on criminal
investigations, and (4) emerging technologies.

Growing Popularity of Internet Telephony

       Internet telephony and Internet telephony service providers
represent a growing portion of the telecommunications industry. 9 An
April 2005 report from research firm International Data Corporation
(IDC) predicts that U.S. residential Internet telephony customers will
grow from 3 million in 2005 to 27 million by the end of 2009. In
addition, a carrier representative we interviewed reiterated a widely
held belief that the Internet will swallow up the conventional telephone
network, essentially replacing traditional telephone services in the near
future.

Limited Number of Wireline Intercepts

      According to the April 2005 Report of the Director of the
Administrative Office of the United States Courts on Applications for
Orders Authorizing or Approving the Interception of Wire, Oral, or
Electronic Communications, the most common location specified in
wiretap applications authorized in 2004 was “portable device, carried
by/on individual.” 10 According to the report, 88 percent of all wiretaps
authorized involved portable devices such as portable digital pagers
and cellular telephones. The report noted that since 2000 – the first
year that the “portable device, carried by/on individual” category was

       9
          Unlike a traditional telephone service, Internet telephone service allows the
routing of voice conversations over the Internet by converting the sound into packets
of data, sending it across the Internet, and reassembling it into sound on the other
end.
       10
           The Omnibus Crime Control and Safe Street Act of 1968 required the
Administrative Office of the United States Courts (AO) to report to Congress the
number and nature of federal and state applications for orders authorizing or
approving the interception of wire, oral, or electronic communications. The statute
requires that specific information be provided to the AO, including the offense(s)
under investigation; the location of the intercept; the cost of the surveillance; and
the number of arrests, trials, and convictions that directly result from the
surveillance.


                                          viii
used – “the proportion of wiretaps involving fixed locations has
declined as the use of mobile communications devices has become
more prevalent.” According to the report, only 5 percent of all
intercept devices were authorized for personal residences, and 2
percent were authorized for business establishments such as offices,
restaurants, and hotels.

       Furthermore, our discussions with four wireline carriers in areas
of the country with high electronic surveillance activity revealed a
limited number of court orders for intercepts requiring CALEA features.
For example, a wireline carrier reported that from 2002 to 2004, less
than one percent of the court orders it received for intercepts required
CALEA features. According to the federal, state, and local law
enforcement officials we interviewed and surveyed, their agencies do
not request intercepts requiring CALEA features for several reasons
(e.g., the high cost charged by carriers, carrier noncompliance, or the
investigation only required a traditional wiretap).

The Apparent Limited Effect on Criminal Investigations

      The FBI measures the impact of CALEA and identifies federal,
state, and local law enforcement concerns through distribution of
Threat Assessment Surveys and by maintaining a help desk that law
enforcement officials can contact when they have difficulty conducting
electronic surveillance or if they have questions. 11 Our review of the
FBI’s Threat Assessment Surveys revealed that the law enforcement
community is less concerned over the ability to perform electronic
surveillance on wireline equipment, and more concerned over new and
emerging technologies. As shown in the following chart, 49 percent of
those surveyed believed that criminals evaded surveillance using
wireless phones, and 42 percent believed the use of the Internet
allowed criminal evasion of electronic surveillance.




       11
          The FBI developed the Threat Assessment Survey to better understand
and anticipate future electronic surveillance threats to law enforcement. The surveys
were conducted from November 2003 through September 2004 at the national and
regional meetings of the National Technical Investigator Association, and at various
DEA and FBI training sessions.


                                         ix
                    TECHNOLOGY CURRENTLY USED TO EVADE
                         ELECTRONIC SURVEILLANCE


                       NOT SURE       5%

                   PUSH-TO-TALK     3%

                       INTERNET                                        42%

               NEXTEL TO NEXTEL                            26%

             PAGERS/BLACKBERRY                        23%

               WIRELESS PHONES                                                 49%


    TELEPHONE COMPANY FEATURES                       21%

                               0%        10%   20%         30%   40%         50%     60%

Source: OIG analysis of 120 FBI Threat Assessment Surveys

     As shown in the following chart, law enforcement officers who
completed the survey expected that pre-paid cell phones, telephony
over broadband, and voice or text over the Internet would have the
greatest impact on their agency’s electronic surveillance activities
within the next two years.




                                     x
             TECHNOLOGIES HAVING GREATEST IMPACT ON ELECTRONIC SURVEILLANCE
                               WITHIN THE NEXT TWO YEARS

                                  NEXTEL TO NEXTEL                              28%

                                   TWO-WAY PAGING                         23%

                          VOICE/TEXT OVER INTERNET                                                  53%

 DIGITAL ENHANCED SPECIALIZED MOBILE RADIO (ESMR)             10%

            TELEPHONY OVER BROADBAND (CABLE, DSL)                                              49%

                               PACKET DATA SERVICE                              30%

                               NEXTEL PUSH-TO-TALK                                      38%

                              PRE-PAID CELL PHONES                                              50%

              ANALOG SPECIALIZED MOBILE RADIO (SMR)      6%

                                      WIRELESS PDA                              28%

                                                    0%   10%        20%     30%       40%     50%     60%

   Source: OIG analysis of 120 FBI Threat Assessment Surveys

       In our interviews with FBI officials, we requested specific
examples that illustrate existing intercept problems. The FBI provided
a document entitled FBI Investigative Technology Division CALEA Law
Enforcement Case Examples dated October 29, 2004. The document
contained 23 examples of unsuccessful intercepts, none of which
involved electronic surveillance problems for wireline intercepts. The
23 examples involved either wireless or Voice over Internet Protocol
(VoIP), which seems to be law enforcement’s primary concern since a
low percentage of wireline intercepts are conducted. 12 In addition, we
believe these examples are not necessarily indicative of technology
that is negatively impacting law enforcement’s ability to conduct
electronic surveillance because the carriers identified in these
examples have either implemented CALEA solutions or contracted with
a trusted third party to administer its CALEA responsibilities.



       12
          Unlike a traditional telephone service, Internet telephone service or Voice
over Internet Protocol allows the routing of voice conversations over the Internet by
converting the sound of a voice into packets of data, sending it across the Internet,
and reassembling it into sound on the other end of a call.



                                               xi
Emerging Technologies

     According to law enforcement officials, [LAW ENFORCEMENT
SENSITIVE INFORMATION REDACTED].

       Similarly, officials surveyed by the OIG identified pre-paid calling
cards and pre-paid cell phones as the top two threats affecting their
ability to conduct electronic surveillance. Of the 82 affirmative
responses to our survey, law enforcement officials indicated that the
following emerging technologies negatively affect their agencies' ability
to conduct electronic surveillance:


                                            Technologies Impacting Law Enforcement

                     Camera Phones
                         Push-to-Talk
                               PDAs                                                       FBI
  Technology




                      Text Messaging                                                      DEA
                                                                                          Sheriff/County Police
                  Broadband (Cable)
                                                                                          Police Department
               Pre-Paid Calling Cards                                                     Attorneys
                Pre-Paid Cell Phones
                                VoIP

                                        0        10     20         30      40   50   60
                                                             Times Cited

 Source: Law enforcement responses to the OIG survey

FBI Plans for Remaining CALEA Funding

      As of November 2005, about $45 million in CALEA funds remain
for the implementation of carrier technical solutions. As previously
discussed, the FBI is in various stages of negotiating reimbursements
to four carriers for the cost of deploying CALEA solutions on their pre-
1995 wireline equipment. The FBI said that it plans to use any
remaining funds to reimburse second-tier carriers for their
implementation of CALEA solutions on pre-1995 wireline equipment.

      We are concerned about how the FBI plans to use the remaining
$45 million in CALEA funding. We recognize that CALEA allows the FBI
to reimburse carriers for all reasonable costs associated with bringing
pre-1995 wireline equipment, facilities, and services into compliance.


                                                             xii
Nevertheless, because telecommunications technology has significantly
advanced from the time of CALEA’s enactment, and because of the
increasing use of these new technologies by subjects of electronic
surveillance, we believe the FBI should reexamine the future benefits
of implementing CALEA on wireline systems.

Issues Requiring Resolution

      The development, deployment, and maintenance costs
associated with implementing CALEA and the related question of who
should bear those costs continue to be controversial issues. In
addition to cost issues, we found that carrier’s limited customer service
for law enforcement officials attempting to conduct electronic
surveillance and the FBI’s limited support provided to state and local
law enforcement will also affect the future implementation of CALEA.

Costs Incurred by Carriers

      Officials from the 10 carriers we interviewed indicated that they
were committed to complying with CALEA and that they had, or were
actively engaged in deploying CALEA solutions on their networks.
However, these same officials advised us that the significant costs
associated with making their networks CALEA compliant will hinder full
CALEA implementation. Carrier representatives stated that the cost to
develop, deploy, and maintain electronic surveillance capabilities has
been significant, and that these costs are expected to increase as
technology accelerates. For example, one carrier said that it spent
about $40 million to make its network CALEA-compliant. 13

Costs Incurred by Law Enforcement

     From a law enforcement perspective, carrier wiretap fees,
equipment costs, and delivery costs contribute to the high cost of
conducting electronic surveillance.

      Wiretap Fees. A traditional wiretap costs law enforcement about
$250. However, while we found that fees vary widely, a wiretap with
CALEA features costs law enforcement approximately $2,200,
according to law enforcement officials and carrier representatives we
interviewed. A law enforcement official noted that, “[w]ith CALEA, the


       13
          This information was provided by carrier representatives and was not
audited. Further, the reported carrier costs are not comparable because carrier
networks vary greatly in size and switch type.


                                        xiii
carriers do less work but it costs approximately 10 times as much to
do a CALEA-compliant tap versus a traditional tap.” While many law
enforcement officials we interviewed agreed that the features provided
by CALEA are valuable, we found that some law enforcement agencies
said they cannot afford to conduct the number of CALEA wiretaps they
would like to support their investigations. Instead, we found these
agencies often conduct traditional wiretaps to avoid the high carrier
fees associated with a CALEA wiretap.

      Equipment Costs. In order to conduct CALEA intercepts, law
enforcement must maintain or have access to a wireroom. A wireroom
consists of a computerized system that intercepts, decodes, records,
and plays back telephone communications. Law enforcement agencies
across the country have spent between hundreds of thousands to
several million dollars to equip their wirerooms. The equipment costs
depend upon the desired capacity of simultaneous wiretaps and the
need to accommodate carriers’ various delivery methods. In addition
to the initial purchase of wireroom equipment, some law enforcement
agencies pay about $30,000 per year to equipment vendors to
maintain their equipment. Further, law enforcement agencies said
they spend additional funds to acquire hardware and software
upgrades just to keep current with emerging technological
improvements.

      Delivery Methods. Many law enforcement officials noted that
CALEA addresses what carriers need to provide law enforcement
agencies without addressing how the data is to be delivered. Due to
the potential delivery methods, law enforcement agencies must
purchase additional equipment to receive the intercepted data from a
carrier.

      The four delivery methods are dial-out, virtual private network
(VPN), frame relay, and T-1 lines. While dial-out and VPN are
increasingly popular and favored among law enforcement agencies,
some carriers only deliver data via a T-1 line which we found to be the
most expensive delivery method. Using a T-1 line costs law
enforcement agencies approximately $1,300 for each switch, and can
take up to two months to install. One law enforcement official told us
that his agency pays approximately $20,000 per month to carriers to
maintain T-1 line connections.

      However, for some law enforcement agencies delivery of wireline
CALEA intercept data by T-1 line is impractical because of the number
of T-1 lines required. Law enforcement officials in California and


                                  xiv
Florida, for example, stated that carriers required T-1 lines to each
switch in order to deliver CALEA features. These law enforcement
officials explained that this concept is cost prohibitive considering the
number of switches. Therefore the California and Florida law
enforcement officials we interviewed said they conduct traditional
intercepts on wireline switches rather than intercepts with CALEA
features.

Limited Carrier Customer Service

       Several law enforcement officials stated that they received poor
customer service from the carriers when dealing with electronic
surveillance issues, and believed some carrier employees lack CALEA
training. In particular, carriers were criticized for interrupting wiretaps
by upgrading switches without notifying law enforcement. In addition,
law enforcement officials on the west coast stated that carriers on the
east coast do not provide customer service after 5:00 p.m. EST.
Another law enforcement official cited an example of when a carrier’s
switches were able to conduct the wiretaps but the carrier’s technician
did not know how to activate the switches. However, one carrier
representative told us that his company investigated such law
enforcement complaints and found that about half of the problems
stem from law enforcement’s lack of technical expertise in operating
the collection equipment and not the carrier’s lack of customer service.

FBI Support of State and Local Law Enforcement

       State and local law enforcement officials stated that they feel
unsupported by the FBI on electronic surveillance issues. These
officials said a lack of FBI-provided CALEA training has negatively
affected the quality of CALEA implementation. The law enforcement
officials stated that the FBI should provide basic “hands-on” training
for law enforcement agents and technical personnel on CALEA
wiretaps.

       In addition, law enforcement officials who attend FBI-sponsored
Law Enforcement Technical Forums noted that the number of forums
has declined over the last few years. Additionally, we were told that
forums have become one-sided with the FBI simply presenting
information, instead of an exchange of ideas between the FBI and law
enforcement officials. Law enforcement officials also noted that the
FBI should provide an opportunity and venue for vendors to showcase
their equipment and analytical programs, and for meetings with
carriers to voice their concerns.


                                    xv
Controversy over Technologies Covered by CALEA

      In March 2004, the DOJ attempted to resolve many of the
electronic surveillance problems faced by law enforcement officials
with new technologies by filing a Joint Petition for Expedited
Rulemaking with the FCC. The Joint Petition also sought to address
longstanding implementation issues such as carrier extensions of time
for complying with CALEA, enforcement for noncompliance, and fees
charged by carriers. In response to the Joint Petition, on August 5,
2005, the FCC ruled that providers of facilities-based broadband
Internet access service and interconnected (managed) VoIP services
must be prepared to accommodate electronic surveillance within the
scope of CALEA. 14 According to the FCC, these services essentially
replace conventional telecommunications services currently subject to
CALEA. 15 The FCC also found that the definition of “telecommunications
carrier” encompasses providers of services that are not classified as
telecommunications services under the Communications Act of 1934.
The FCC stated that it is taking a two-step approach to focus debate
on the implementation rather than the applicability of CALEA to
providers of broadband Internet access services and VoIP services.




       14
           The FBI describes “managed VoIP services” as those that offer voice
communications calling capability where the VoIP provider acts as a mediator to
manage the communication between end points and to provide call set-up,
connection, termination, and party-identification features, often generating or
modifying dialing, signaling, switching, addressing, or routing functions for the user.
The FBI distinguishes managed communications from “non-managed” or “peer-to-
peer” communications where people can communicate directly without going through
a central telephone company.
       15
           The Substantial Replacement Provision of CALEA allows the FCC to classify
a person or entity as a telecommunication carrier if the FCC finds that it is providing
a communication service that is a replacement for a substantial portion of the local
telephone exchange service, and if it is in the public interest to deem the person or
entity to be a telecommunication carrier (47 U.S.C. § 1001(8)(B)(ii)).


                                          xvi
Conclusion

       Ten years after its enactment, the FBI continues to encounter
significant challenges in implementing CALEA. According to law
enforcement officials we interviewed and surveyed, law enforcement
has been significantly handicapped in its efforts to conduct electronic
surveillance by a variety of technological innovations that have taken
place in the telecommunications field, including the emergence and
widespread availability of broadband Internet access services and VoIP
services. Other impediments have included a contentious process of
developing technical standards, continuous carrier requests for
extensions, and extended negotiations with carriers over software
activation agreements. In light of the FCC’s August 2005 ruling,
absent some change in existing CALEA requirements and
corresponding changes in how the FBI exercises its responsibilities in
overseeing CALEA implementation, the goals envisioned when CALEA
was enacted will not be realized fully.

Recommendations

      As a result of our review, we offer six recommendations for the
FBI to consider in fulfilling its CALEA implementation responsibilities.
The recommendations include improving liaison between law
enforcement officials and carrier and manufacturer representatives;
improving the methodology for gathering examples of criminal
investigations that have been adversely impacted because of a
carrier’s inability to provide CALEA-compliant wiretaps; and revisiting
the FBI’s plans to spend the remaining $45 million in CALEA funds. In
addition, we will continue to monitor recommendations made in prior
OIG reports on CALEA, specifically that the FBI should collect and
maintain data on the number of carrier switches that are CALEA-
compliant, and submit to Congress legislative changes necessary to
ensure that electronic surveillance is achieved in the face of rapid
technological change.




                                  xvii
  THE IMPLEMENTATION OF THE COMMUNICATIONS
  ASSISTANCE FOR LAW ENFORCEMENT ACT (CALEA)


                              TABLE OF CONTENTS

                                                                                            Page
INTRODUCTION........................................................................ 1
  What Is Electronic Surveillance? ....................................................1
  Changing Technology Challenges Law Enforcement ........................2
  The Communications Assistance for Law Enforcement Act ..............4
  Controversy Over Technologies Covered by CALEA .........................7
FINDINGS AND RECOMMENDATIONS ..................................... 13
I. CALEA IMPLEMENTATION COSTS AND PROGRESS ............... 13
  CALEA Implementation Costs ....................................................... 13
  Estimates of CALEA-Compliance Progress..................................... 17
  Conclusion ................................................................................... 22
II. IMPEDIMENTS TO IMPLEMENTING CALEA .......................... 23
  Developing Technical Standards ................................................... 23
  Carrier Extensions and Enforcement Orders for Non-Compliance .. 32
  Activation Negotiations on Pre-1995 Equipment........................... 37
  Conclusion ................................................................................... 38
  Recommendation ......................................................................... 38
III.EFFECTS OF DELAYED CALEA IMPLEMENTATION............... 39
  Methodology for Measuring CALEA’s Impact ................................. 39
  Benefits of CALEA......................................................................... 41
  Mitigating Factors ........................................................................ 43
  FBI’s Plans for Remaining CALEA Funding .................................... 51
  Conclusion ................................................................................... 52
  Recommendations........................................................................ 53
IV. ISSUES REQUIRING RESOLUTION..................................... 54
  Costs Incurred by Carriers............................................................ 54
  Costs Incurred by Law Enforcement ............................................. 56
  Law Enforcement Assistance Concerns ......................................... 65
  Conclusion ................................................................................... 69
  Recommendations........................................................................ 69
STATEMENT ON INTERNAL CONTROLS.................................... 70
STATEMENT ON COMPLIANCE WITH LAWS AND
  REGULATIONS ..................................................................... 71
SCHEDULE OF DOLLAR-RELATED FINDINGS ........................... 72
Appendix I – OBJECTIVES, SCOPE, AND METHODOLOGY ........ 73
Appendix II – DESCRIPTION OF TECHNOLOGY-BASED
 PROBLEMS ENCOUNTERED BY LAW ENFORCEMENT ............. 80
Appendix III – CALEA LEGAL PROVISIONS............................. 81
Appendix IV – FEDERAL COMMUNICATIONS COMMISSION
 ACTIONS RELATED TO CALEA .............................................. 84
Appendix V – PRIOR OIG REPORTS ........................................ 97
Appendix VI – UNSUCCESSFUL PROPOSED CALEA
 AMENDMENTS ..................................................................... 99
Appendix VII – SUMMARY OF COMMENTS TO THE NOTICE OF
 PROPOSED RULEMAKING .................................................. 101
Appendix VIII – FBI AD HOC SOLUTIONS............................. 107
Appendix IX – CALEA PUNCHLIST ITEMS.............................. 108
Appendix X – OIG SURVEY TO LAW ENFORCEMENT .............. 109
Appendix XI- FBI RESPONSE TO THE DRAFT AUDIT
REPORT.................................................................................112
Appendix XII- OIG ANALYSIS AND SUMMARY OF ACTIONS
NECESSARY TO CLOSE REPORT…………………………………...…..118
                                INTRODUCTION

      Criminal organizations and individuals frequently use telephones
and other electronic communications devices to carry out criminal and
terrorist acts. To combat and deter this activity, law enforcement and
other authorized government agencies use court-authorized electronic
surveillance for collecting information to investigate and prosecute
criminals. According to the Federal Bureau of Investigation (FBI),
electronic surveillance is a critical tool needed to meet its law
enforcement, counterterrorism, and intelligence-collecting mandates.

What Is Electronic Surveillance?

       Electronic surveillance consists of the acquisition of call-
identifying information and the interception of communications
content. Call-identifying information is defined as dialed number
information that identifies the origin, direction, destination, or
termination of any communication generated or received by a subject
of surveillance. Normally, call-identifying information is collected via
“pen registers” and “traps and traces.” 16 Content is defined as the
substance or meaning of a communication and is obtained by a
wiretap. 17 For purposes of this report, the term electronic surveillance
is used only in the sense of the real-time interception of information.

       The use of electronic surveillance is strictly limited by law. Title
III of the Omnibus Crime Control and Safe Street Act of 1968, as
amended (Title III), 18 and portions of the Electronic Communications
Privacy Act (ECPA), 19 as amended, serve as the primary laws

       16
           Pen registers are surveillance devices that capture the phone numbers
dialed on outgoing telephone calls, whereas trap and trace devices capture the
numbers identifying incoming calls. These two devices are not supposed to reveal
the content of communications, identify the parties to a communication, or whether
a call was connected. Rather, they only convey that one particular phone dialed
another phone. A pen register and trap and trace, which can be obtained separately
or together, provide real-time call-identifying information.
       17
            A wiretap provides real-time call-identifying and content information.
       18
          Title III contains the procedures law enforcement must follow to obtain the
necessary judicial authorization to conduct electronic surveillance. Congress
subsequently amended the statute to confirm the government’s authority to require
providers of communications services to provide law enforcement with the
“…technical assistance necessary to accomplish the interception….”
       19
         The ECPA extended Title III coverage to the contents of electronic
messages, such as e-mail, and to data transmissions from facsimiles and pagers.


                                        -1-
governing electronic surveillance of criminal investigations. Rules
regarding electronic surveillance conducted for foreign intelligence,
counterintelligence, and terrorism investigations are derived from the
Foreign Intelligence Surveillance Act (FISA), as amended. 20

Changing Technology Challenges Law Enforcement

      In the early 1990s, technology advances in the
telecommunications industry began challenging the ability of law
enforcement agencies to fully implement electronic surveillance. In
March 1994, the FBI Director testified that an informal FBI survey of
federal, state, and local law enforcement agencies identified 91
examples where technological impediments precluded full
implementation of court orders for electronic surveillance. According
to the FBI, the survey results revealed that 33 percent of the examples
involved cellular systems (of which 11 percent were related to the
limited capacity of cellular systems to accommodate a large number of
simultaneous intercepts), and 32 percent involved custom-calling
features like call forwarding, call waiting, and speed dialing. 21

      Subsequent to the hearing, the FBI worked with law enforcement
agencies to identify further examples of such technological
impediments. In April 1994, the FBI presented to the House and
Senate Judiciary Committees details of 183 instances (including the
original 91 examples) where the FBI, state, or local law enforcement
agencies encountered problems with electronic surveillance, as shown
in the following chart:




       20
           FISA requires carriers to furnish “…all information, facilities, or technical
assistance necessary to accomplish the electronic surveillance in such a manner as
will protect its secrecy and produce a minimum of interference…” with the services of
the target of electronic surveillance.
       21
           Capacity is defined as the number of simultaneous call-content
interceptions, pen registers, and trap and traces that law enforcement can conduct in
a given geographical area.


                                       -2-
            TECHNOLOGY-BASED PROBLEMS ENCOUNTERED
                     BY LAW ENFORCEMENT
                       (as of April 1994) 22
      60
                54

      50
                                                                                                                                                             42
      40
                                   33
      30

                                                    20
      20
                                                                                                                                 12
                                                                                               10
      10
                                                                           4                                        4                              4

       0




                                                                                                                                                             Oth er
                                                                                                                                 V oice M ail
             C ellu lar Port




                               D ig it C ap tu re




                                                                        Lon g D istan ce




                                                                                                                                                C en trex
                                                                                             F orw ard in g
                                                    S p eed D ialin g




                                                                                                              D irect In w ard




                                                                                                                                                 D ig ital
                                 A u d io D ial
               C ap acity




                                                                                                 C all




                                                                                                                    D ial




   Source: U.S. House of Representatives Report No. 103-827, October 4, 1994

        By the mid 1990s, what was once a relatively simple matter of
initiating a wiretap by attaching wires to terminal posts now required
the expert assistance and cooperation of a telecommunications
carrier. 23




       22
            Each technology-based problem is described in Appendix II.
       23
           CALEA defines “telecommunications carrier” as a person or entity engaged
in the transmission of communications as a common carrier for hire. It includes a
person or entity engaged in providing communication services to the extent that the
Federal Communications Commission (FCC) finds that such service is a replacement
for a substantial portion of the local telephone exchange service and that it is in the
public interest to deem such a person or entity to be a telecommunications carrier.
According to CALEA, the phrase “telecommunications carrier” does not include
persons or entities insofar as they are engaged in providing information services, and
any class or category of telecommunications carrier that the FCC exempts by rule
after consultation with the Attorney General.



                                                                                           -3-
The Communications Assistance for Law Enforcement Act

      To address law enforcement's difficulty in performing electronic
surveillance in the face of new telecommunications and computer
features, Congress passed the Communications Assistance for Law
Enforcement Act (CALEA) in 1994. The purpose of CALEA was to
ensure that telecommunications carriers had the necessary technical
capability and capacity to fulfill their Title III and FISA obligations in
order to assist law enforcement in conducting electronic surveillance.

       CALEA required that telecommunications carriers ensure that
their equipment, facilities, or services provided the following four
capabilities (assistance capability requirements):

      1. expeditiously isolate the content of targeted communications
         transmitted within the carrier's service area;

      2. expeditiously identify information regarding the originating
         and destination numbers of targeted communications, but not
         the physical location of the targets, except as could be
         determined by the phone number;

      3. transmit to law enforcement intercepted communications and
         call-identifying information to a location away from the
         carrier's premises; and

      4. carry out intercepts unobtrusively, so that targets of
         electronic surveillance were not made aware of the
         interception and in a manner that did not compromise the
         privacy and security of other communications. 24

      According to the FBI, CALEA was intended to bring about a
fundamental shift in how the telecommunications industry viewed its
electronic surveillance responsibilities. Although Title III and FISA
required telecommunications carriers to provide any assistance
necessary to accomplish an electronic interception, the question of
whether telecommunications carriers had an obligation to design
networks that facilitated an authorized interception had not been
decided. In short, CALEA sought to ensure that the
telecommunications industry considered law enforcement’s need and



      24
           A description of the CALEA statute by section can be found in Appendix III.



                                       -4-
authority to conduct electronic surveillance as a basic element in
developing its telecommunications products and in providing service.

      Consequentially, CALEA assigned certain responsibilities to the
Attorney General, the Federal Communications Commission (FCC),
telecommunications carriers, telecommunications equipment
manufacturers, and the Department of Justice (DOJ) Office of the
Inspector General (OIG). In February 1995, the Attorney General
delegated CALEA management to the FBI. The following table outlines
the entities with CALEA responsibilities.




                               -5-
            STATUATORY RESPONSIBILITIES UNDER CALEA
        Entity                                    Responsibility
Federal                    Ensures the industry-wide implementation of the assistance
Bureau of                  capability requirements.
Investigation              Consults with state and local law enforcement agencies.
                           Provides estimates to various telecommunications industry
                           organizations on the number of interceptions, pen registers,
                           and trap and traces devices that government agencies may
                           need to conduct.
                           Consults with the FCC regarding carrier petitions that seek
                           a determination that compliance with the assistance
                           capability requirements is not reasonably achievable.
                           Establishes rules to facilitate carrier reimbursements.
                           Allocates appropriated funds to carriers in a manner
                           consistent with law enforcement priorities.
                           Annually reports to Congress the amount of carrier
                           payments during the preceding year and the projected
                           payments for the current year.
Federal                    Determines which entities are telecommunications carriers
Communications             and may exempt any entity class or category as a
Commission 25              telecommunications carrier by rulemaking and consulting
                           with the FBI.
                           Establishes technical standards for compliance with
                           assistance capability requirements if industry associations
                           fail to issue technical standards, or if a government agency
                           or any other person believes that industry-adopted
                           standards are deficient.
                           Reviews petitions for extensions.
Telecommunications         Ensures that equipment, facilities, or services that provide
Carriers (service          customers the ability to originate, terminate, or direct
providers) 26              communications meet the CALEA assistance capability
                           requirements.
Equipment                  Makes available all features or modifications necessary to
Manufacturers              meet assistance capability requirements, including
                           consulting with carriers over current and planned
                           equipment.
Office of the              Reports to Congress biennially on (1) CALEA-compliant
Inspector General 27       equipment, facilities, and services; (2) analysis of
                           payments to carriers for CALEA-compliant modifications;
                           and (3) future-cost projections for assistance capability
                           requirement modifications.


       25
            A summary of FCC actions related to CALEA can be found in Appendix IV.
       26
           To meet their responsibilities under CALEA, some carriers have chosen to
contract with trusted third parties. A trusted third party is a private company whose
services include providing reviews of a carrier’s CALEA-compliance, managing the
intercept function, and serving as the custodian of record for the intercept
information.
       27
            See Appendix V for a summary of prior OIG audits.


                                       -6-
       In summary, effective implementation of CALEA’s provisions
relies on the shared responsibilities of the government agencies and
the service providers and manufacturers subject to the law’s
requirements.
Controversy Over Technologies Covered by CALEA

      Since CALEA’s enactment in 1994, the telecommunications
industry has lobbied Congress to change certain provisions of the law.
Appendix VI presents a summary of these efforts. While the FBI has
been successful in blocking these efforts, CALEA remains controversial.

      According to its legislative history, CALEA was supposed to strike
a balance between three competing national priorities: preserving law
enforcement’s ability to conduct electronic surveillance; protecting
privacy; and promoting innovation. However, controversy surrounds
these three priorities as discussed below:

       •    Preserving law enforcement’s ability to conduct electronic
            surveillance. CALEA was an attempt by Congress to stop
            electronic surveillance from becoming obsolete. Law
            enforcement hoped that CALEA would preserve its ability to
            access evidence against suspected terrorists and criminals.

       •    Protecting privacy. Intercepted communications were
            required to be conducted in such a way as to “minimize the
            interception of communications not otherwise subject to
            interception.” These communications included unrelated,
            irrelevant, and non-criminal communications not specifically
            covered in the court order. Furthermore, advances such as
            “packet-mode” technology of Internet telephone service, also
            known as Voice over Internet Protocol (VoIP), confronted law
            enforcement with new surveillance challenges. 28 The packet-
            mode technology of Internet telephony is more difficult to
            intercept than traditional circuit-mode communications
            because the data packets are not readily identifiable. 29
            Therefore, law enforcement may intercept packets of data


       28
           Unlike a traditional telephone service, Internet telephone service allows
the routing of voice conversations over the Internet by converting the sound of a
voice into packets of data, sending it across the Internet, and reassembling it into
sound on the other end of a call.
       29
        Circuit-mode communications refers to the routing of voice
communications through a traditional telephone service.


                                       -7-
            from subscribers who are not the subject of electronic
            surveillance.

       •    Promoting innovation. According to representatives from the
            Center for Democracy and Technology, applying CALEA to
            Internet telephone services would cause irreparable harm to
            the Internet by increasing consumer costs, impairing and
            delaying innovation and new services, and forcing
            telecommunications providers to develop Internet innovations
            outside of the United States. 30 These representatives
            explained that even if the FCC finds that Internet telephone
            services fall under CALEA, the statute would only apply to
            U.S. providers. This would place U.S. telecommunications
            providers at a competitive disadvantage because they are
            directly competing with foreign-based providers. Officials
            from telecommunications carriers we interviewed also raised
            these issues.

       The collision of these national priorities created controversy. At
the time of its passage, it was clear that CALEA covered wireline and
cellular communications; network-based services such as call-
forwarding and conference calling; and technologies such as pagers
and satellite phones. However, CALEA does not cover “information
services,” and this exclusion has proven to be a major source of
controversy. 31 According to the FBI, at the time of CALEA’s enactment
consumers used the Internet to obtain information, not as a
telecommunications service. However, with the recent growth of
Internet telephony, the question of whether CALEA applies to Internet
Service Providers (ISP) or other VoIP providers continues to be widely
debated.

      An example of the controversy involves VoIP provider Vonage.
In 2003, the Minnesota Public Utility Commission (MPUC) ruled that
Vonage was a telephone service provider under Minnesota state law.
As a result, Vonage was subject to certain state regulations, including
those governing 911 emergency calling services. In September 2003,


       30
           The Center for Democracy and Technology identifies itself as a public
interest organization dedicated to promoting civil liberties and democratic values for
the new digital communications media.
       31
            According to CALEA, “information services” means the offering of a
capability for generating, acquiring, storing, transforming, processing, retrieving,
utilizing, or making available information via telecommunications.




                                       -8-
Vonage petitioned both the U.S. District Court in Minnesota for
injunctive relief and the FCC for pre-emption of all state regulation on
the grounds that Vonage is an ISP rather than a telephone service
provider. In October 2003, the U.S. District Court in Minnesota ruled
in favor of Vonage, concluding that Vonage is an ISP. The Minnesota
Attorney General appealed on behalf of the MPUC. In December 2004,
the U.S. Court of Appeals for the Eighth Circuit upheld the district
court ruling that the MPUC may not regulate calls made through the
Internet as it does calls made through traditional phone lines.

       Meanwhile, the FCC sought comments on Vonage’s petition. The
FBI filed comments stating that Vonage could not qualify for relief
because its VoIP service is a telecommunications service instead of an
information service. In November 2004, the FCC issued its decision
ruling that Internet phone services should not be governed by the
same state regulations as traditional telephone companies. As a
result, whether CALEA applied to Vonage and other Internet phone
services remained controversial.

Joint Petition for Expedited Rulemaking

       In March 2004, the DOJ, the FBI, and the Drug Enforcement
Administration (DEA) attempted to resolve problems faced by law
enforcement with these new technologies by filing a Joint Petition for
Expedited Rulemaking with the FCC. The Joint Petition also sought
resolution on issues pertaining to carrier extensions for complying with
CALEA, enforcement for noncompliance, and carrier fees. 32 In the Joint
Petition, the DOJ and other groups asked the FCC to:

       1) identify both the types of services and entities that are
          subject to CALEA, as well as services that are considered
          “packet-mode services”;

       2) issue an initial Declaratory Ruling or other formal FCC
          statement, and ultimately adopt final rules that compel
          broadband access and telephony services be subject to
          CALEA;

       3) reaffirm that push-to-talk service is subject to CALEA;



       32
          We discuss extensions and enforcement in Finding II, and carrier fees in
Finding IV.




                                      -9-
       4) adopt rules that provide for the easy and rapid identification
          of future CALEA-covered services and entities;

       5) establish rules, benchmarks and deadlines for CALEA
          compliance with packet-mode and other future CALEA-
          covered technologies.

       The FCC declined to issue a declaratory ruling, finding instead
that it was necessary to compile a complete record on the factual and
legal issues. Therefore, on August 4, 2004, the FCC issued a Notice of
Proposed Rulemaking (NPRM) in response to the DOJ petition and
sought comments on its tentative conclusions. 33 The comment period
on the NPRM closed in December 2004. In response to the NPRM,
interested parties filed about 650 comments with the FCC. Among the
parties were DOJ; the carriers Verizon, Sprint, Bell South, and SBC;
VoIP provider Vonage; ISP Earthlink; and “trusted third party”
Verisign. 34

      In the opinion of carrier representatives with whom we spoke,
the NPRM issues are, for the most part, already outdated. Carrier
representatives stated that as technological change continues to
accelerate, law enforcement agencies will have a harder time keeping
up and electronic surveillance may suffer.

FCC Ruling

      On August 5, 2005, the FCC ruled on the Joint Petition. The FCC
stated that providers of facilities-based broadband Internet access
service and interconnected (managed) VoIP services must be prepared
to accommodate electronic surveillance within the scope of CALEA. 35

       33
           For additional information on the NPRM, see Appendix IV, August 4, 2004,
Notice of Proposed Rulemaking and Declaratory Ruling.

       34
            Appendix VII contains a summary of these comments.

       35
            The FBI describes “managed VoIP services” as those that offer voice
communications calling capability where the VoIP provider acts as a mediator to
manage the communication between end points and to provide call set-up,
connection, termination, and party-identification features, often generating or
modifying dialing, signaling, switching, addressing, or routing functions for the user.
The FBI distinguishes managed communications from “non-managed” or “peer-to-
peer” communications where people can communicate directly without going through
a central telephone company. The FCC requested comments on the appropriateness
of this distinction between managed and non-managed VoIP communications for
purposes of CALEA.


                                      - 10 -
According to the FCC, these services essentially replace conventional
telecommunications services currently subject to CALEA. 36 The ruling
stated that the FCC’s determination is limited to facilities-based
broadband Internet access service providers and VoIP providers
offering services that permit users to receive calls from, and place calls
to, the public switched telephone network or PSTN, the publicly
available dial-up telephone network. 37

      The FCC also found that the definition of “telecommunications
carrier” encompasses providers of services that are not classified as
telecommunications services under the Communications Act of 1934.
With respect to a deadline for compliance, the FCC reasoned that
because newly covered providers need a reasonable amount of time to
come into compliance with all relevant CALEA requirements, a deadline
of 18 months from the effective date of the FCC’s Order would be
appropriate.

      In addition to ruling that certain broadband and managed VoIP
services fall within the scope of coverage, the FCC adopted a Further
NPRM seeking more information about whether certain classes or
categories of facilities-based broadband Internet access providers (i.e.,
small and rural providers and providers of broadband networks for
educational and research institutions) should be exempt from CALEA.


       36
           The Substantial Replacement Provision of CALEA allows the FCC to classify
a person or entity as a telecommunication carrier if the FCC finds that it is providing
a communication service that is a replacement for a substantial portion of the local
telephone exchange service, and if it is in the public interest to deem the person or
entity to be a telecommunication carrier (47 U.S.C. § 1001(8)(B)(ii)). The FCC’s
Deputy Chief, Office of Engineering and Technology, testified before the House of
Representatives Subcommittee on Telecommunications and the Internet
September 8, 2004, that an “irreconcilable tension” could exist for service providers
that find themselves at the same time subject to CALEA under the Substantial
Replacement Provision and exempted from it by virtue of the information services
exclusion.
       37
           With this determination, the FCC confirmed its February 12, 2004,
Memorandum Opinion and Order (see Appendix IV) wherein the FCC considered a
peer-to-peer VoIP provider an “information service” and therefore exempt from
CALEA. The decision to exempt peer-to-peer VoIP from CALEA is a source of
contention within the industry as summarized in some of the comments to the NPRM
in Appendix VII. Although the effect of this decision is too early to determine, in the
opinion of a carrier representative to whom we spoke, peer-to-peer VoIP is the wave
of the future, and these decentralized communications systems may present a
challenge to law enforcement. [LAW ENFORCEMENT SENSTIVE INFORMATION
REDACTED].



                                      - 11 -
       The FCC’s ruling, however, does not address any of the other
issues raised in the March 10, 2004, Joint Petition (e.g., cost of
compliance to be borne by industry for post-January 1, 1995,
equipment; extensions of the compliance date; enforcement; and the
identification of future services). The FCC is expected to provide a
final ruling on these issues in the near future.

       In October 2005, telecommunications firms, nonprofit
organizations, and educators challenged the FCC’s August 5, 2005,
ruling in the U.S. Court of Appeals in Washington, D.C. These groups
are challenging the rules on both privacy grounds, and because they
claim implementing the rules will be too expensive. In the OIG’s April
2004 report, we recommended that the FBI submit to Congress
legislative changes to CALEA it believed necessary to ensure that
electronic surveillance is achieved expeditiously in light of rapid
technological changes. 38 Despite the FCC’s ruling, we continue to
believe that legislative clarification of CALEA’s intent is necessary. 39 As
discussed in Finding II of this report, previous litigation over what
should be required for law enforcement’s wiretapping capabilities
substantially delayed CALEA implementation, and we are concerned
that this current litigation will delay CALEA implementation as it
applies to new technologies.




       38
         Department of Justice, Office of the Inspector General Audit Report
Number 04-19, The Implementation of the Communications Assistance for Law
Enforcement Act by the Federal Bureau of Investigation, April 2004.
       39
           Although we do not repeat our previous recommendation in this report, we
will continue to monitor the FBI’s progress in pursuing legislative clarification through
our audit follow-up process.


                                       - 12 -
                  FINDINGS AND RECOMMENDATIONS

I.     CALEA IMPLEMENTATION COSTS AND PROGRESS

       After 10 years and the expenditure of over $450 million, the FBI
       estimates that only 10 to 20 percent of the wireline switches,
       and approximately 50 percent of the pre-1995 and 90 percent of
       the post-1995 wireless switches, respectively, have CALEA
       software activated and thus are considered CALEA-compliant. 40
       The FBI’s strategy for spending these funds focused on
       identifying switches in locations of high-priority to law
       enforcement and first ensuring the CALEA-compliance of those
       switches. While the number of CALEA-compliant switches is
       based on the best available data, we cannot provide assurance
       on the accuracy of these estimates. Neither the FBI nor the FCC
       know the actual percentages of CALEA-compliance because the
       universe of carriers is unknown. In addition, as reported in
       previous OIG audits, the cost information provided to us by the
       FBI did not provide a basis to determine the reasonableness of
       the costs the FBI incurred.

CALEA Implementation Costs

      To facilitate CALEA implementation, Congress authorized the
appropriation of $500 million to reimburse carriers for the direct costs
of modifying systems installed or deployed on or before
January 1, 1995. 41 In general, costs for achieving compliance for
equipment installed after January 1, 1995, were to be incurred by the
telecommunications carriers. However, the legislation permitted the
FBI, on application of a carrier, to pay that carrier for the additional
reasonable costs of making equipment deployed after January 1, 1995,
       40
         A switch is a telephone company device which “makes the connection”
when a call is placed. Modern switches are specialized computers.

       41
           According to the U.S. Congress, Office of Technology Assessment,
Electronic Surveillance in a Digital Age, the costs of the legislation and differences of
opinion about who should bear those costs were highly controversial issues during
the time leading up to passage of CALEA. The $500 million figure was a compromise
among widely ranging estimates from the telecommunications industry and law
enforcement agencies as to the costs of modifying a carrier’s equipment and
technology to make it CALEA-compliant. Both the telecommunications industry and
law enforcement’s estimates were based on assumptions about costs for modifying
existing equipment and deploying the technology, but the estimates were generally
not based on formal engineering cost analysis.



                                       - 13 -
compliant with the assistance capability requirements. However, this
applied only if the carrier’s compliance could not be reasonably
achieved if no payment occurred.

      On September 30, 1996, the Omnibus Consolidated
Appropriations Act of 1997 amended CALEA by adding Title IV which
created the Telecommunications Carrier Compliance Fund (TCCF) and
appropriated $60 million in initial funding. This fund is available
without fiscal year limitation to the Attorney General for making
payments to telecommunications carriers, equipment manufacturers,
and providers of telecommunications support services. Additionally,
CALEA authorized agencies with law enforcement and intelligence
responsibilities to transfer unobligated balances into the TCCF, subject
to applicable congressional reprogramming requirements.

     The following table illustrates the dollar amounts and timing of
congressional appropriations and fund transfers from authorized
agencies with law enforcement and intelligence responsibilities.

Telecommunications Carrier Compliance Fund Activity
                          Activity                              Amount
FY   1997   Direct Appropriations                               $60,000,000
FY   1997   Department of Justice Working Capital Fund          $40,000,000
FY   1997   U.S. Postal Inspection Service Transfer              $1,000,000
FY   1997   U.S. Customs Service Transfer                        $1,580,270
FY   2000   Direct Appropriations                               $15,000,000
FY   2000   Supplemental Appropriations                        $181,000,000
FY   2001   Direct Appropriations                              $200,976,876
                                         Total Deposits       $499,557,146
Source: FBI, Communications Assistance for Law Enforcement Act (CALEA) Ninth
Annual Report to Congress

      Since 1994, the FBI has spent approximately $450 million to
reimburse carriers for their purchase of CALEA-compliant software
licenses (referred to throughout this report as Right-to-Use or RTU
licenses). The software licensing agreements allowed the software to




                                  - 14 -
be installed and activated on both pre- or post-1995 wireline and
wireless equipment. 42

Right-to-Use (RTU) Software Licenses

       An important aspect of the FBI’s implementation of CALEA was
its nationwide buyout of RTU software licenses. The software allows
carriers to meet CALEA intercept requirements by collecting and
delivering to law enforcement pertinent call-identifying information,
content, or both. The FBI negotiated with carrier and manufacturing
representatives to determine the most appropriate way to arrange for
carriers to obtain and deploy their CALEA-capability requirements. The
FBI concluded that rather than reimbursing each carrier individually for
the cost of the RTU licenses, entering into RTU software licenses with
equipment manufacturers and their carrier partners would be the best
utilization of the appropriated funds. The FBI reasoned that if carriers
did not have to pay manufacturers individually for the software
licenses, volume discounts could be achieved, thereby reducing
deployment costs. This approach allowed carriers to receive, at no
charge, CALEA electronic surveillance software.

       After extensive negotiations, the FBI entered into several RTU
license agreements to reimburse carriers for the purchase of RTU
software licenses from certain manufacturers. The agreements were
negotiated between February 1998 and April 2003 and allowed carriers
to install and activate the CALEA software on either pre-1995 or post-
1995 wireline and wireless equipment. By the time these agreements
were completed, the FBI had paid approximately $400 million for the
purchase of these licenses from various manufacturers, including
Nortel, Lucent, Motorola, Siemens, and AG Communications. 43
Through its negotiations, the FBI negotiated substantially reduced

       42
            In addition, the FBI incurred costs of about $93 million to administer the
CALEA program. This included over $77 million in contract costs for the
telecommunications technical expertise necessary to administer the program. These
administrative costs do not include the significant costs incurred by the FBI to
develop “ad hoc solutions” that are used to conduct electronic surveillance on
switches where the carrier has not developed CALEA solutions. According to FBI
officials, the cost of these ad hoc solutions, which are described in Appendix VIII,
exceeded $40 million.
       43
           These manufacturers account for over 90 percent of telecommunications
equipment lines in the United States. The RTU license agreements specified that the
software must pass FBI inspection before being disseminated to carriers. In this
regard, the payments and obligations mentioned above include more than $500,000
for carrier assistance in testing the manufacturer’s software.


                                      - 15 -
costs for the RTU licenses compared to the initial cost proposals as
shown in the following chart:


                                        Results of RTU Negotiations

                    AGCS
   Manufacturer




                  Siemens
                                                                                   Final Price
                  Motorola
                                                                                   Initial Offer
                    Nortel

                   Lucent

                             $0   $50     $100     $150       $200   $250   $300
                                             Millions of Dollars

                  Source: Determination and Findings Regarding the Implementation of the
                          Communications Assistance for Law Enforcement Act (1999)

       The FBI also entered into additional RTU license agreements,
totaling $50 million, to reimburse carriers for the purchase of RTU
Enhanced Dial-Out software licenses from Siemens, Lucent, and Nortel
for $19.8 million, $19.6 million, and $10.7 million, respectively. 44 The
FBI determined that these RTU license agreements were the most
cost-effective vehicles to reimburse the carriers for the use of the
manufacturers’ software.

      As reported in previous OIG audits (see Appendix V), the cost
information given to us by the FBI did not provide a basis to determine
the reasonableness of the RTU licenses’ costs. Accordingly, we offered
no opinion.

                  44
           According to the FBI, technical electronic surveillance solutions developed
by the telecommunications industry provided a limited set of options regarding
transporting intercepted information to law enforcement. Technical electronic
surveillance solutions required law enforcement to have in place necessary
equipment, facilities, and services to transport intercepted information from a
carrier’s switching (or delivery) equipment to a collection site. The installation of
these facilities (wirerooms) is both time-consuming (if not already in place, they
must be ordered weeks or months in advance) and expensive. A “dial-out” solution
takes advantage of the PSTN already in place between carrier equipment performing
an intercept and a law enforcement collection site, and represented a dramatic
departure from then-existing delivery mechanisms. However, as discussed in
Finding IV of this report, delivery mechanisms remain an impediment for law
enforcement to conducting CALEA wiretaps.



                                                  - 16 -
Estimates of CALEA-Compliance Progress

      After 10 years and the expenditure of over $450 million, the FBI
estimates that only 10 to 20 percent of the wireline switches, and
approximately 50 percent of the pre-1995 and 90 percent of the post-
1995 wireless switches, respectively, have the CALEA software
activated and thus are considered CALEA-compliant. 45 The basis of the
FBI’s estimates on CALEA-compliant switches is its analysis of
information provided by carriers that participated in the FBI’s flexible
deployment initiatives.

The FBI’s Flexible Deployment Initiatives

        Since 2000, the FBI has offered carriers the opportunity to
participate in four flexible deployment initiatives that were designed to
provide cost savings and operational flexibility to carriers while
ensuring that deployment of CALEA solutions would occur. This
approach resulted from recognition by the FBI of the challenges facing
carriers and represented an attempt to minimize the costs and
operational impact of CALEA-compliance on all carriers.

       A carrier’s participation in the flexible deployment initiatives
allowed it to deploy its CALEA solution in accordance with its normal
software upgrade cycle. Under the flexible deployment initiatives, the
FBI supported a carrier’s petition to the FCC for a time extension for
complying with a CALEA deadline if the carrier provided the FBI with
its projected CALEA deployment schedules for all switches in its
network, as well as information pertaining to any recent electronic
surveillance activity. The FBI supported the carriers’ projected
compliance schedules as long as the schedules did not delay the
implementation of CALEA solutions in areas of high priority to law
enforcement. 46 Carrier extensions have become a source of contention
between the FBI and telecommunications industry, and this issue is
discussed further in the Carrier Extensions and Enforcement Orders for

       45
           A carrier’s CALEA compliance is not demonstrated simply by installing the
CALEA software on a switch. The software must be activated, engineering and
provisioning practices developed, security policies implemented, and in some cases,
external hardware must be deployed prior to a carrier being able to facilitate
surveillance that utilizes the software.
       46
           The FBI considers areas with the highest amount of switch intercept
activity as high priority. As part of the flexible deployment initiatives, the FBI
developed a system to rank the carriers’ switches from highest to lowest priority to
ensure that the CALEA-compliance of high-priority switches was addressed first.



                                     - 17 -
      Non-Compliance section of Finding II.

              The chart below details how the four flexible deployment
      initiatives the FBI offered carriers addressed different FCC deadlines
      for CALEA-compliance. In addition, the chart details the number of
      carriers that filed extensions and the number of switches affected
      under each flexible deployment initiative:

                                                                 Seeking
                                                                              No. of
                      Type of       Opening       Closing        CALEA-
                                                                             Carriers      No. of
                    Technology      Date to       Date to      Compliance
  Flexible                                                                    Filing      Switches
                    Addressed      Participate   Participate    Extension
Deployment                                                                  Extensions
                                                                  Until
 Initiatives
                    wireline/                                  June 30,
FlexD I                            Jan. 2000     June 2000                    1,400        10,784
                    wireless                                   2002

                    packet-                                    Nov. 19,
FlexD II                           Aug. 2001     Nov. 2001                  Canceled 47   Canceled
                    mode                                       2003

                    wireline/                                  June 30,
FlexD III 48                       May 2002      June 2002                     607         7,317
                    wireless                                   2004

                    wireline/                                  June 30,
FlexD IV 49                        May 2004      June 2004                     400         1,287
                    wireless                                   2006
      Source: Federal Bureau of Investigation




               47
                  The FBI discontinued FlexD II because of the scarcity of technical
      standards for packet-mode systems. Technical standards are discussed in more
      detail in the Developing Technical Standards section of Finding II.

               48
                As discussed in the Carrier Extensions and Enforcement Orders for Non-
      Compliance section of Finding II, the FBI advised Verizon, BellSouth, and SBC that it
      would not support their petitions to the FCC under FlexD III because of their refusal
      to accommodate law enforcement’s high-priority electronic surveillance needs.

               49
                The FCC has not ruled on these petitions, even though the FlexD III
      extensions expired in June 2004.


                                                 - 18 -
       The FBI estimated that as of June 2000 about 1,400 carriers
filed for 2-year extensions with the FCC under FlexD I. These
extensions exempted carriers from complying with CALEA during the
2-year period of the extension. Later, carriers filed for additional time
extensions under FlexD III and FlexD IV. As part of FlexD IV, only
about 400 carriers – as opposed to the original 1,400 carriers who
participated in FlexD I – filed for a time extension with the FCC.
Therefore, the FBI concluded that the 1,000 carriers who did not
participate in FlexD IV must now be CALEA-compliant since they no
longer filed for a time extension.

      Further, the FBI used the Local Exchange Routing Guide
prepared by the telecommunications industry to estimate the universe
of wireline switches for the flexible deployment initiatives. Based on
the FBI’s review of the Routing Guide, it concluded that 80 to 85
percent of the wireline switches were included in the flexible
deployment initiatives. According to the FBI, since all switches must
be CALEA-compliant, and the carriers for the remaining 15 to 20
percent of the switches did not petition the FCC for an extension, the
FBI concluded that those switches are CALEA-compliant.

       As straightforward as this methodology sounds, we cannot
provide assurance that it provides an accurate estimate for measuring
CALEA compliance. We discussed the extent of CALEA compliance with
FCC representatives, who stated that the universe of carriers is
unknown, even to the FCC. Telecommunications carriers are licensed
by states, not the federal government, and the FCC said that state
records are not necessarily up-to-date. Therefore, the universe of
carriers may not have been fully represented in the FBI’s flexible
deployment initiatives. In addition, an accurate estimate of the
number of carriers participating in the flexible deployment initiatives is
difficult to calculate based on FBI data. In particular, the 400 carriers
that participated in FlexD IV were not necessarily a subset of the
1,400 that participated in FlexD I.

      According to the FCC, some carriers, like Verizon, indicated that
they conducted hundreds of wiretaps for the government and always
responded to law enforcement’s requests. Other carriers indicated
that they never conducted wiretaps even though they were capable of
doing so because they did not receive any requests. While CALEA
directed carriers to become compliant, it did not require them to
substantiate their compliance. Therefore, the FCC did not know if
carriers were compliant, or whether they were taking a risk that they
would not be called upon to respond to a wiretap request.


                                - 19 -
          Therefore, although we acknowledge that the FBI bases its
    estimates on the best available data, neither the FBI nor the FCC know
    the actual percentages of CALEA-compliance because there is no
    requirement for carriers to report the number of switches that are
    compliant.

    Carrier Information on Compliance

           During our interviews with carrier representatives, we requested
    information regarding the number of switches maintained by the
    carriers and the CALEA-compliance of those switches. 50 The five
    wireline carriers we interviewed provided the following data regarding
    the CALEA-compliance of their pre- and post-1995 switches:

    Carrier Estimates of CALEA-Compliance for Wireline Switches
                                Number      Percentage      Post-        Number         Percentage
                  Pre-1995
  Carrier                       CALEA-        CALEA-        1995         CALEA-           CALEA-
                  Switches
                               compliant     compliant     Switches     compliant        compliant

Wireline A            1,900             0             0%          300             300        100%
Wireline B              634          634          100%            113             113        100%
Wireline C                 -            -              -        *270              270        100%
Wireline D            1,311          989        75.44%            380             380        100%
Wireline E              290             1        0.34%            222             222        100%
TOTAL            4,135        1,624        39.27%          1,285       1,285           100%
   Source: Carrier representatives
   * Wireline C representatives stated that some of its 270 switches may be pre-1995,
   but, because many of these switches were inherited from other carriers, it is not sure
   how many.

           Specifically, all of the wireline carriers stated that 100 percent of
    their post-1995 switches were CALEA-compliant, but only one wireline
    carrier stated that 100 percent of its pre-1995 switches were
    CALEA-compliant. The other carriers explained that they were
    awaiting reimbursement from the FBI to begin or complete activation
    of the CALEA software on their pre-1995 equipment.

          We also interviewed representatives from three wireless carriers
    about the CALEA-compliance of their switches. These carriers
    maintain only post-1995 switches. All three wireless carriers stated
    that 100 percent of their switches were CALEA-compliant, as follows:


             50
                  Carrier names are omitted to protect proprietary information.


                                             - 20 -
  Carrier Estimates of CALEA-Compliance for Wireless Switches
                                                   Number           Percentage
                                 Post-1995
            Carrier                                CALEA-             CALEA-
                                  Switches
                                                  compliant          compliant

  Wireless A/B 51                         535              535               100%
  Wireless F                              174              174               100%
  Wireless H                              163              163               100%
  TOTAL                                   872              872              100%
  Source: Carrier representatives

      Some wireless carriers acknowledged that push-to-talk (PTT)
service had been introduced without a CALEA solution and that as a
result carriers were unable to perform electronic surveillance in some
instances. These carrier officials advised that a PTT CALEA solution
had recently been deployed in concert with vendors and law
enforcement. The FBI, however, considers this to be an interim
solution rather than permanent CALEA solution.

      Providers of VoIP service stated that they had not received any
request to conduct electronic surveillance on VoIP. One VoIP provider
we interviewed was actively developing a CALEA solution. Other
carrier representatives stated that an electronic surveillance capability
that met both the “J-Standard and punchlist” requirements had been
developed for their VoIP services. 52

Prior OIG Audit Report

       In our April 2004 report, we recommended that the FBI collect
and maintain data on the number of carrier switches that are and are
not CALEA-compliant. In response to the recommendation, the FBI
noted that absent a regulatory or contractual requirement to submit
such data, carriers are under no obligation to provide such
information. As part of its Joint Petition, DOJ requested that the FCC
establish rules to permit the FCC to request information regarding
CALEA-compliance. As of November 2005, the FCC had not ruled on
this issue.


       51
         These wireless carriers merged; therefore, this table presents their
combined results.
       52
           The J-Standard is the industry published standard to meet the electronic
surveillance capability requirements of CALEA. It is discussed in detail in the
Developing Technical Standards section of Finding II.


                                     - 21 -
       In addition, the FBI developed a carrier survey to collect CALEA-
compliance information from carriers on a voluntary basis from
carriers. According to the FBI, the information collected in the survey
will be used to evaluate the effectiveness of FBI programs for
implementing CALEA solutions. Affected telecommunications providers
will be asked to identify the extent to which they are CALEA-compliant,
or the date when full CALEA-compliance will be achieved if they are
not compliant. According to the FBI, the survey was mailed to
telecommunications providers during November 2005 and requested
responses within 60 days.

Conclusion

      The FBI’s strategy for spending the $500 million in CALEA
funding focused on identifying switches in locations of
high-priority to law enforcement and first ensuring the CALEA-
compliance of those switches. According to FBI officials, its CALEA
software deployment estimates are based on carrier participation in
the FBI's flexible deployment initiatives. However, we cannot provide
assurance that the FBI’s methodology provides an accurate estimate
for measuring compliance because, according to FCC representatives,
the universe of carriers is unknown.

      The FBI’s estimate that only 10 to 20 percent of the wireline
switches had the CALEA software activated is troubling because the
technology surrounding the PSTN has been used for over 100 years.
However, the FBI has encountered significant challenges in
implementing CALEA as discussed in Finding II. As a result of the
delayed implementation on wireline switches, the law enforcement
community may be limited in the type of information it can gather
through electronic surveillance. As discussed in Finding III, switches
with activated CALEA software have provided federal, state, and local
law enforcement with beneficial features to conduct electronic
surveillance. However, these features generally have been realized on
wireless rather than wireline systems.




                               - 22 -
II.    IMPEDIMENTS TO IMPLEMENTING CALEA

       The FBI has encountered significant impediments in
       implementing CALEA. These impediments included a contentious
       process of developing technical standards, continuous carrier
       requests for extensions and enforcement orders for non-
       compliance, and extended negotiations with carriers over
       software activation agreements.

Developing Technical Standards

       Electronic surveillance standards provide the basis for the
development and deployment of technology to permit carriers to assist
law enforcement in conducting electronic surveillance. In accordance
with CALEA, the FBI consults with carriers and manufacturers to
determine what capabilities will be included in the CALEA standards.
Developing electronic surveillance standards and obtaining agreement
on their content by law enforcement, telecommunications carriers, and
equipment manufacturers has been a lengthy process and is the
primary reason that CALEA implementation has yet to be completed on
wireline equipment.

“Punchlist” Litigation

       In June 1996, the FBI issued the Electronic Surveillance
Interface (ESI) Document. The ESI set forth law enforcement
surveillance capabilities, which were developed in consultation with law
enforcement officials and representatives from the telecommunications
industry. 53

      In December 1997, an industry standards-setting group
published Interim Standard J-STD-025 (J-Standard) to meet the
electronic surveillance capability requirements of CALEA. The
J-Standard incorporated many of the requirements set forth in the ESI,
but excluded several electronic surveillance capabilities deemed




       53
           Prior to issuance of the ESI, the FBI had issued electronic surveillance
capabilities in both 1994 (prior to the enactment of CALEA) and 1995. These
documents contained the punchlist capabilities.



                                      - 23 -
necessary by law enforcement. 54 As a result, DOJ filed a deficiency
petition with the FCC in March 1998 because the J-Standard did not
meet the nine capabilities (punchlist) that law enforcement was
seeking (see Appendix IV - Public Notice dated April 20, 1998). 55

      In September 1998, the FCC granted an extension to carriers for
complying with CALEA capability requirements (see Appendix IV -
Memorandum Opinion and Order dated September 10, 1998). For
equipment installed or deployed after January 1, 1995, the FCC
extended the deadline from October 28, 1998, to June 30, 2000. The
FCC granted this extension because no technology available permitted
carriers to deploy the minimum industry-developed J-Standard.
According to CALEA, carriers are deemed to be CALEA-compliant with
respect to equipment installed or deployed on or before January 1,
1995, unless the FBI agrees to reimburse carriers for all reasonable
costs necessary to bring such equipment into compliance.




       54
          According to the June 13, 2002, Petition for Further Extensions of Time of
CALEA Deadlines filed on behalf of Qwest Corporation; Malheur Home Telephone
Company; Qwest Wireless, LLC; and TW Wireless, LLC; the “core” J-Standard
provided law enforcement approximately 95 percent of the capabilities required by
CALEA.
       55
           The nine punchlist capabilities are to: (1) provide the content of
subject-initiated conference calls supported by the subject’s service, (2) identify the
active parties of a multi-party call, (3) provide access to all dialing and signaling
information available from the subject including a subject’s use of features (e.g., the
use of flash-hook and other feature keys), (4) notify the law enforcement agency
when a subject’s service sends a tone or other network message to the subject or
associate (e.g., notification that a line is ringing or busy), (5) provide timing
information to correlate call-identifying information with the call content of a
communications interception, (6) provide digits dialed by the subject after the initial
call “cut-through” is completed to another carrier, (7) send a message to a law
enforcement agency that an interception is still functioning on a subject, (8) alert the
law enforcement agency via electronic continuity-check tone if the facility used for
delivery of call content has failed or lost continuity, and (9) notify the law
enforcement agency if the subject modifies his subscribed features.




                                      - 24 -
      In August 1999, the FCC ruled that carriers must comply with six
of the nine punchlist requirements sought by the FBI and not included
in the J-Standard (see Appendix IV – Third Report and Order dated
August 26, 1999). 56 The FCC also mandated that carriers provide the
capability to intercept packet-mode communications by September 30,
2001. The telecommunications industry appealed the FCC’s decision
to the U.S. Court of Appeals for the District of Columbia Circuit.

       On August 21, 2000, the Court of Appeals remanded four of the
challenged punchlist features to the FCC for further proceedings. In an
April 11, 2002, Order on Remand, the FCC reiterated its August 1999
decision that all six punchlist capabilities were required under CALEA
and must be provided by wireline, wireless, and broadband carriers by
June 30, 2002.

Current Standard-Setting Efforts

      To ensure that carriers meet their CALEA responsibilities and to
promote effective liaison with the telecommunications industry, the
FBI participates in several domestic and international standards-
setting groups. As part of these groups, the FBI educates carriers and
manufacturers about law enforcement’s technical assistance capability
requirements, and informs the carriers and manufacturers of their
CALEA responsibilities with regards to emerging technologies.

     The FBI has been, or is currently, involved in several domestic
standards-setting groups, including:




       56
            The FCC ruled that carriers must comply with punchlist items 1 through 6
identified in footnote 55 and described in more detail in Appendix IX.



                                     - 25 -
                                  Service
       Standards Group                                   Type of Technology
                                   Type

                                              Wireline
                                  Voice
                                              Universal Mobile Telecommunications
                                              System/General Packet Radio Service

Alliance for Telecommunications               Wireline
Industry Solutions                Data
                                  Access      Universal Mobile Telecommunications
                                              System/General Packet Radio Service

                                  Push-       Universal Mobile Telecommunications
                                  to-talk     System/General Packet Radio Service

                                              Wireline/Wireless
                                  Voice
                                              Code Division Multiple Access 2000
Telecommunications Industry
Association                       Data
                                              Code Division Multiple Access 2000
                                  Access
                                  Push-
                                              Code Division Multiple Access 2000
                                  to-talk
American Association of Paging                Traditional Paging, Advanced Messaging,
                                  Paging
Carriers                                      and Ancillary Services

American Mobile                   Push-
                                              Enhanced Specialized Mobile Radio
Telecommunications Association    to-talk
Source: The Federal Bureau of Investigation

      In addition, the FBI has been involved with international
standards groups, including the European Telecommunications
Standards Institute, the International Softswitch Consortium, and the
Third Generation Partnership Project. An FBI official explained that the
FBI participates in these groups because many of the equipment
manufacturers are based in countries other than the United States.
The FBI focuses its involvement in standards groups for technologies in
which law enforcement has encountered problems. For example, the
FBI does not participate in a standards group addressing satellite
telephony because law enforcement has not reported electronic
surveillance difficulty with this technology.

      Due to the rapid emergence of packet-mode technology and the
associated introduction of VoIP and broadband services to the public,
the FBI is primarily devoting its resources to setting electronic
surveillance standards for packet-mode technologies. As part of this
approach, beginning in 2001 the FBI issued three documents setting
forth some of law enforcement’s needs with regard to electronic
surveillance in a packet mode environment: Packet Surveillance


                                   - 26 -
Fundamental Needs (PSFN), Carrier Grade Voice over Packet (CGVoP),
and Public Internet Protocol Network Access Services (PIPNAS). The
PSFN was issued in October 2001 to define the general requirements
necessary for the effective delivery of both call-identifying and content
data. 57 The CGVoP was issued in January 2003 to define what call-
identifying and content data requirements are needed by law
enforcement. 58 The PIPNAS was issued in September 2003 to set forth
law enforcement needs for access to public Internet Protocol (IP)
networks and the necessary infrastructure support services. 59

       Work on a packet-mode electronic surveillance standard,
J-STD-025B (25B standard) began in October 2001. The 25B standard
is only for wireless broadband data access service and was prepared
by the Telecommunications Industry Association’s (TIA) TR45 Lawfully
Authorized Electronic Surveillance Ad Hoc Group. The FBI initially
participated in the 25B standard setting effort, but withdrew in
February 2003 from active participation in this process. According to
FBI officials, their opinion of a proposed standard only counts as one
vote at these standard-setting groups, and their contributions to the
process were rejected several times. The FBI is considering filing a
deficiency petition with the FCC over this standard, as well as for
wireline VoIP, wireless VoIP, and wireless broadband access, due to

       57
           According to the FBI, the PSFN document neither addressed any
procedures for enabling access to a subject’s communications nor requirements for
how call-identifying information is accessed in a service provider’s network. Rather,
the document provided a set of high-level needs considered necessary by law
enforcement regardless of the service being offered by the provider over a
packet-based network. The PSFN Document did recognize that each packet-based
service would require a more detailed set of needs based on the specifics of the
service and architecture.
       58
            According to the FBI, this document defined what
communications-identifying information and communications content are needed by
law enforcement to conduct electronic surveillance, but did not define how a service
provider should access that information. CGVoP service can be defined as the
utilization of packet technology to offer voice services that parallel the services
provided through the PSTN and that strive to achieve quality, reliability, security,
and connectivity comparable to the PSTN.

       59
           Personal communication has traditionally been carried via wireline circuits.
Advances in computer hardware and software technology have enabled personal
communications to be carried via data packets over a network. This method of
communication requires both access to a public IP network (e.g., the Internet) and
accompanying network infrastructure support services. Network access can be
attained from a PIPNAS provider and the necessary network support services can be
provided by a PIPNAS provider, application service provider, local exchange carrier,
wireless service provider, or some combination thereof.


                                      - 27 -
the standards groups’ failure to develop a CALEA standard for these
technologies that is acceptable to law enforcement. Despite the FBI’s
belief that the 25B standard is deficient, some carriers we spoke with
noted that it is the only official packet-mode standard available and
therefore they are upgrading their systems to comply with the 25B
standard.

       Carrier Representatives

     Carrier representatives noted the following problems with the
standards development process:

       •    Slow Vendor Development Time. According to one carrier,
            CALEA software solutions development time is generally 18 to
            24 months. Therefore, the sooner law enforcement
            requirements are defined, the sooner CALEA electronic
            surveillance capabilities can be developed and deployed.
            Some carrier officials expressed frustration with what they
            viewed as the slow development of law enforcement
            requirements. One carrier official stated that the FBI should
            focus its efforts more on the development of law enforcement
            requirements and less on the development of ad hoc
            solutions. An FBI official noted that it is important for the FBI
            to focus its efforts in both areas because, in some instances,
            there are no alternative carrier or manufacturer solutions
            available to conduct the requested electronic surveillance.
            According to state and local law enforcement officials, the
            development of ad hoc solutions primarily benefits federal law
            enforcement because the FBI is not always able to share its
            technology with state and local law enforcement. 60 Officials
            representing a wireless carrier viewed the FBI’s development
            of ad hoc solutions as a hindrance to the development of
            CALEA solutions because carriers and manufacturers do not
            always have access to these solutions to understand what
            hardware and software is needed.



       60
           Attorney General Order 1945-95 states in part: “It is the policy of the
Department of Justice that the loans of electronic surveillance equipment to state
and local law enforcement agencies are generally to be discouraged. . . .” The order
also states that a “State agency receiving loaned equipment may not disclose the
existence or use of such equipment without authority of the FBI Director. . . .”
 According to the FBI, state and local recipients of FBI ad hoc solutions cannot
always protect the details of this sensitive law-enforcement technique against
subsequent criminal discovery.


                                     - 28 -
       •    Lack of an Adequate Forum. Carrier officials explained that
            there was not an adequate forum available for law
            enforcement, carrier, and manufacturer representatives to
            meet and discuss mutual concerns. (Law enforcement
            personnel we interviewed also shared these concerns, which
            we discuss in Finding IV.) One carrier official noted that
            carrier and manufacturer’s technical staff need to hear law
            enforcements’ concerns firsthand to understand how new
            technologies impact investigations. The underlying problem
            often is not understood by the technicians and the result is
            often that law enforcement needs are viewed as
            overreaching. Another carrier official stated that current
            industry standards groups are too technically oriented for law
            enforcement.

       •    Flawed CALEA Solutions. Carrier officials stated that in the
            past, manufacturers provided flawed CALEA solutions that a
            carrier had to fix later at significant expense. Carrier officials
            suggested that the federal government provide a facility for
            manufacturers to test CALEA solutions prior to dissemination
            to carriers. 61 These officials believe that current standard-
            setting bodies are not good vehicles for this process because
            they are primarily concerned with standards for commercial
            applications for the telecommunications industry. Carrier
            officials said that CALEA is not a high-priority to standard-
            setting groups and carriers are dependent on the equipment
            vendors to deliver CALEA-compliant solutions each time a
            new feature or service is offered. They also stated that only
            the federal government has the clout to ensure that vendor-
            developed equipment and software meet CALEA
            requirements.




       61
           CALEA solutions are developed by engineers who rely on
telecommunications industry published standards to guide them. According to an
FBI official, “[s]ince CALEA standards are intentionally broad, this causes software
developers to sometimes incorrectly assume the intent of the standard.”
Complicating the development process is the fact that a different CALEA solution is
needed for every combination of carrier and manufacturer in the telecommunications
industry, and that some carriers use different manufacturers for the same equipment
in different parts of the country.


                                     - 29 -
     •   Acceptance of Standards. Representatives from one
         carrier noted that the FBI appears to oppose the
         acceptance of standards until all of its requirements are
         accepted, and this ultimately slows progress. According
         to these representatives, the FBI may benefit more if it
         progressed slowly through the standards process
         instead of requesting “everything” in the beginning
         which some manufacturers and carriers may oppose.
         For example, one representative stated that the FBI
         should start with base requirements, get them
         approved, and then move to addendums that add more
         requirements and capabilities.

     FBI Response to Carriers’ Comments

      The FBI concurred that the standards development process is
slow, and offered comments in the following areas:

     •   Industry Controls the Standards-Development Process. The
         FBI agreed that the standards development process is slow
         and contentious. According to the FBI, law enforcement’s
         electronic surveillance needs are known to industry standards
         groups and only change to reflect the changes made in
         services offered by providers. For example, law
         enforcement's need for location information is non-existent in
         a wireline environment but paramount for a wireless service.
         As a service provider offers more features, a provider's ability
         to furnish information regarding those features may need to
         increase. However, CALEA gives the lead role in setting
         electronic surveillance standards to the telecommunications
         industry. This delegation has created considerable tension
         between the FBI and the telecommunications industry
         throughout the standards development process. In its CALEA
         Implementation Plan of August 2003, the FBI discusses
         providing greater authority to law enforcement for
         determining technical requirements. According to the FBI,
         CALEA allows the telecommunications industry to decide what
         law enforcement needs. If the FBI believes a standard is
         deficient, it has to challenge the standard by filing a
         deficiency petition with the FCC. Instead of having to explain
         why law enforcement needs a particular feature or service,
         the FBI’s preference would be to place the onus on the
         telecommunications industry to explain why a feature or
         service that law enforcement wants is not feasible.


                                - 30 -
       •    Forum for Discussing Law Enforcement Requirements. The
            FBI said that the current state of interaction between the
            telecommunications industry and the FBI is the result of
            continuous evolution. Over the last decade, various forums
            have been held regarding the CALEA required capabilities
            such as telecommunications industry sponsored legal
            summits, the FBI sponsored Service Specific Document
            Summits, and conferences and summits held by various
            organizations (industry and privacy groups). These meetings
            have allowed participants to express their views – often
            contentious and contradictory to each other.

       •    Testing CALEA Solutions. An FBI official believes that the FBI
            is best suited to test technical solutions from a law
            enforcement perspective. If, however, the FBI agrees to the
            carriers’ suggestion that it oversee testing, then it is
            important to define the nature of that testing. Testing for all
            permutations of the effects of manufacturers' solutions within
            all providers' networks would impose an enormous burden.
            Also, it is important to consider how testing is conducted for
            other services and features made available by equipment
            manufacturers. For example, large carriers such as Verizon
            have staffs devoted to extensive testing of the effects of
            manufacturer-supplied software. For smaller carriers or
            members of the cable industry, testing has been conducted
            by the telecommunications industry on a consortium basis.
            For example, the telecommunications industry often used
            Telcordia Technologies, Inc. to conduct testing on
            manufacturer software, and the cable industry used
            CableLabs to test equipment and software. 62

            The FBI stated that the question of adequate testing may best
            be answered by government-sponsored testing using existing
            industry mechanisms. For example, FBI-facilitated testing
            would provide key benefits such as learning how each solution
            works and the impact solutions have on law-enforcement



       62
           Telcordia Technologies, Inc. is a provider of telecommunications network
software and services for IP, wireline, wireless, and cable companies. CableLabs is a
research and development consortium of cable television system operators that
conducts and funds research and development projects to help cable companies plan
for the future and apply technology to meet consumers’ needs.




                                     - 31 -
            collection equipment. 63 Unfortunately, CALEA does not provide
            funding for such testing. In addition, the FBI believes that
            certain legal issues may need to be addressed before such
            testing could occur. The FBI stated that most carriers test
            solutions on their own networks or on test networks
            populated with stored data. In the past, proposals for FBI
            participation in testing have raised concerns that such
            participation could be characterized as involving the
            interception of either real-time or stored communications of a
            carrier's subscriber. Although not problematic for the carrier
            who has broad interception authority if necessarily incident to
            the rendition of a service, there is no statutory exemption in
            Title III that authorizes law enforcement to conduct, or
            participate in, intercept testing that involves real-time or
            stored subscriber communications. Therefore, it is unclear
            whether a statutory amendment would be required in order to
            provide the FBI with authority to conduct, or participate in,
            CALEA testing that involves real-time or stored subscriber
            communications.

       •    Success with Individual Telecommunications Providers.
            Although the CALEA standard development process has been
            slow and contentious, the FBI believes that it has been
            successful in discussions with individual providers and
            manufacturers. This is because of the inherent desire on the
            part of these companies to keep proprietary equipment and
            network information closely held. For example, an ISP
            representative noted that his company was launching a VoIP
            service that was in testing at the time of our audit. According
            to this representative, his company worked closely with the
            FBI to ensure that VoIP-CALEA requirements were integrated
            into its service.

Carrier Extensions and Enforcement Orders for Non-Compliance

      Two controversial issues regarding CALEA implementation are
carrier extensions and enforcement orders for not complying with
CALEA.



       63
          The FBI funded testing of solutions only in connection with the nationwide
RTU licenses as a contractual condition and not as a part of a comprehensive testing
regimen.



                                     - 32 -
Carrier Extensions

       Under CALEA, the FCC has the power to grant carriers
extensions for complying with the CALEA capability requirements.
Section 107 of CALEA provides for time extensions for complying with
the statute for up to two years if the FCC determines that compliance
is not reasonably achievable through available technology. Under
Section 109, if the FCC finds that compliance is not reasonably
achievable, the Attorney General may, upon petition of the carrier,
agree to pay the carrier to make the modifications in order to make
compliance reasonably achievable. If the Attorney General does not
agree to pay these costs, the carrier will be deemed in compliance with
the capability requirements. 64 Unlike Section 107, there is no
maximum time limit on Section 109 extensions. Since June 2000, the
FCC has granted hundreds of Section 107 extensions in conjunction
with the FBI’s flexible deployment initiatives, but never has granted a
Section 109 extension.

      The Section 107 extensions that were granted to carriers by the
FCC are a source of contention between the FBI and the
telecommunications industry. According to the FBI, carriers can delay
the implementation process by continuing to seek extensions from the
FCC. The FCC first issued extensions to wireline and wireless carriers
for complying with CALEA until June 30, 2002, and then to June 30,
2004. Furthermore, in 2004 carriers began filing for time extensions
for complying with CALEA until June 30, 2006.

     Despite the FBI’s concerns, carriers argued that extensions were
warranted. For example, SBC noted in one of its petitions for an
extension that:




       64
           In granting a Section 109 extension, the FCC also considers the following
factors: (1) the effect on public safety and national security; (2) the effect on rates
for basic residential telephone service; (3) the need to protect the privacy and
security of communications not authorized to be intercepted; (4) the need to achieve
the capability assistance requirements of Section 1002 of this title by cost-effective
methods; (5) the effect on the nature and cost of the equipment, facility, or service
at issue; (6) the effect on the operation of the equipment, facility, or service at
issue; (7) the policy of the United States to encourage the provision of new
technologies and services to the public; (8) the financial resources of the
telecommunications carrier; (9) the effect on competition in the provision of
telecommunications services; (10) the extent to which the design and development
of the equipment, facility, or service was initiated before January 1, 1995; and
(11) such other factors as the Commission determines are appropriate.


                                      - 33 -
      In conversations with the FBI, SBC has been led to believe
      that the FBI will assert that there are no technical reasons
      why the Siemens Plan C solution cannot be accepted and
      deployed by SBC. SBC strongly disagrees, and submits
      that its technical experts are better suited to judge the
      compatibility of any proposed CALEA solution with SBC’s
      network. It is SBC’s understanding that the FBI’s opinion
      is based on testing conducted with a small rural carrier,
      whose network architecture, personnel, maintenance, and
      security concerns are vastly different in nature and scope
      than those faced by SBC. SBC also respectfully suggests
      that CALEA itself prohibits the FBI or any other
      government agency from dictating SBC’s network
      architecture, and that forcing adoption of a solution
      deemed currently unacceptable by SBC’s network experts
      would amount to exactly that. 65 SBC has worked in good
      faith with all concerned parties for over a year in an
      attempt to make the Siemens solution viable for SBC’s
      network, and will continue to do so. Nevertheless,
      because significant issues remain untested at this time,
      compliance with CALEA’s requirements in SBC’s Siemens
      switches by June 30, 2002 is not reasonably achievable.

        A telecommunications industry representative noted that while
the FBI blames the FCC for granting carriers repeated extensions, the
FBI approached the FCC and suggested the flexible deployment
initiatives. He also noted that the extensions were approved in
conjunction with the FBI’s flexible deployment initiatives, and that an
implementation strategy that included hundreds of extensions was
“good enough at the time” for the FBI.

      In response to the requests for Section 107 extensions, DOJ
requested in its Joint Petition that the FCC outline criteria for granting
both Section 107 and Section 109 extensions for future covered
technologies. In response to DOJ’s request, the FCC in its Notice of
Proposed Rulemaking (NPRM) proposed limiting the availability of time
extensions by:

      •      Restricting the availability of compliance extensions under
             Section 107, particularly in connection with packet-mode
             requirements.


      65
           47 U.S.C. § 1002(b).


                                  - 34 -
      •   Seeking comments regarding supporting information and
          documentation that should accompany Section 107 petitions
          if carriers are not participating in the flexible deployment
          initiatives, if the FBI opposes the petition of a carrier
          participating in the program, or if the FBI were to terminate
          the flexible deployment initiatives.

      •   Tentatively concluding that the requirements of Section 109
          would not be met by a petitioning carrier that merely
          asserted that CALEA standards had not been developed, or
          that solutions were not readily available from
          manufacturers. The FCC noted that if standards or solutions
          do not exist, the petitioning carriers would still need to
          demonstrate why they could not negotiate system-specific
          CALEA solutions with manufacturers or with third-party
          CALEA service providers.

      •   Tentatively concluding that carriers may not assert the lack
          of available standards or solutions to support a showing
          under Section 109. Instead, carriers filing Section 109
          petitions will be expected to demonstrate active and
          sustained efforts at developing and implementing CALEA
          solutions for their operations. In addition, the FCC
          tentatively concluded that it should require Section 109
          petitioners to submit detailed information about discussions
          and negotiations with switch manufacturers, other
          equipment manufacturers, and third-party CALEA service
          providers, both before and after the FBI announced the
          termination of the flexible deployment initiatives in
          connection with packet-mode technology. Furthermore, the
          FCC tentatively concluded that unless it was persuaded that
          petitioners have engaged in sustained and systematic
          negotiations with manufacturers and third-party providers to
          design, develop, and implement CALEA solutions, it should
          reject the submitted petitions.

Enforcement Orders for Non-Compliance

      Until this point, the FBI’s pursuit of legal remedies for carrier
non-compliance with CALEA has not included filing enforcement
actions. Under Section 108 of CALEA, an order enforcing CALEA may
be issued by the court that approved the electronic surveillance order
with which the carrier failed to comply or upon the application of the
Attorney General through a civil action. Enforcement orders may only


                               - 35 -
be issued if a court finds that: (1) another carrier’s facilities are not
reasonably available to conduct the authorized electronic surveillance,
and (2) the electronic surveillance is reasonably achievable with
available technology. 66 A court issuing an enforcement order must
allow reasonable time for compliance and may impose a civil penalty
not to exceed $10,000 per day for each day of violation of the
enforcement order.

       The FBI explained that it has not sought enforcement orders for
two reasons: (1) pre-1995 equipment is deemed CALEA-compliant
until the FBI agrees to reimburse carriers for their deployment costs,
and (2) post-1995 equipment has been covered under FCC time
extensions that were granted because CALEA-compliance was not
reasonably achievable through existing technology. FBI officials
summed up the current status by saying that it cannot file suit to
enforce CALEA because the carriers currently do not have to comply
with the law given the extensions. Instead, the FBI is asking the FCC
to use the enforcement powers it has been granted under the
Communications Act of 1934 to compel carriers to comply with the
FCC-imposed deadlines. According to FBI personnel, the FCC has used
these enforcement powers over carriers for other purposes, such as
enforcing local number portability and enhanced 911 service.

      Telecommunications industry representatives cited law
enforcement’s failure to file these enforcement actions as evidence
that carrier non-compliance is not a concern. Specifically, one industry
representative noted that:

       [d]espite the crisis atmosphere fostered by the
       government, the Justice Department and law enforcement
       have never once used the enforcement powers that CALEA
       gives them. The only logical conclusion is that there has
       never been a single case – not one, not anywhere in the
       country, and not at any time in the last decade – in which
       the Justice Department thought it could prove that a
       carrier had failed to meet its CALEA obligation and that
       important evidence was being lost as a result.




       66
          A carrier could defend itself by showing that full wiretap capability was not
reasonably achievable in its system, or that law enforcement could obtain the same
information elsewhere.


                                      - 36 -
       This representative also indicated that carriers were not
protected from enforcement action because the FCC had not ruled on
the latest extension requests. However, several state and local law
enforcement agencies said their failure to file CALEA enforcement
actions was a matter of practicality. If they already know a carrier
does not have the ability to conduct the electronic surveillance, the
agency does not bother going through the trouble and expense of
obtaining the court order. In addition, one local law enforcement
official noted that although a local judge would be willing to issue an
Order to Show Cause against a carrier, the agency would have to wait
three months for a hearing. Given that the intercept is needed
immediately, the official said the law enforcement agency instead will
often pursue a traditional wiretap. 67

       Accordingly, in its Joint Petition, DOJ requested that the FCC
establish procedures for FCC enforcement actions against entities that
do not comply with their CALEA obligations. In the proposed
rulemaking, the FCC sought comment from interested parties on how
it could enforce the CALEA assistance capability requirements. In
addition, the FCC sought comment on whether its general enforcement
procedures were sufficient for purposes of CALEA enforcement.

Activation Negotiations on Pre-1995 Equipment

      As noted in Finding I, entering into the RTU agreements did not
guarantee that CALEA-compliant solutions were made operable and
available for use by law enforcement. The agreements only ensured
that the RTU licenses for CALEA software were made available to
carriers; additional monies are needed to fully deploy the solutions. 68
While some wireline carriers stated that the RTU software had been
activated on pre-1995 equipment in whole or in part, other carriers
explained that they were awaiting reimbursement from the FBI to
begin or complete activation of the RTU software on their pre-1995
equipment. During mid-2003, the FBI began negotiating
reimbursement agreements with four carriers for the cost of deploying

       67
          CALEA offers additional features not available through a traditional
wiretap. These additional features are the “punchlist” features described in Appendix
IX.
       68
           CALEA software is considered deployed when it is activated, engineering
and provisioning practices developed, security policies implemented, and in some
cases, external hardware is deployed prior to a carrier being able to facilitate
surveillance that utilizes the software.




                                     - 37 -
CALEA solutions on their pre-1995 equipment. 69

      According to the FBI, it concluded negotiations with two carriers
in September 2005 for a total cost of $4.5 million. The first carrier
agreed to the FBI’s counter-offer of $2.9 million to cover 1,158
switches (including dial-out solution software) for an average per
switch price of $2,530. The second carrier agreed to the FBI’s
counter-offer of $1.6 million for 667 switches (including dial-out
solution software) for an average switch price of $2,410.

       The FBI temporarily discontinued negotiations with the two other
carriers. According to the FBI, substantial personnel turnover at the
third carrier has made negotiations difficult and discussions were
postponed. The negotiation process recently resumed with this
carrier. The FBI has also discontinued negotiations with the fourth
carrier because they said the carrier’s initial proposal of $170 million
appears to be completely unjustified and it far exceeded the amount of
the remaining CALEA funding.

Conclusion

       The FBI has encountered significant challenges in implementing
CALEA. Although new technologies that blur the historical boundaries
of telecommunications have emerged, the FBI continues to implement
CALEA on wireline systems. The development and implementation of
the initial standards, which was slowed significantly by litigation, is the
primary reason implementation has been delayed. In addition,
repeated requests from carriers for time extensions has been a
controversial issue to CALEA implementation. As further discussed in
Finding III, the anticipated benefits of CALEA on wireline systems have
not materialized.

Recommendation

We recommend that the FBI:

   1. Coordinate with the DOJ and the telecommunications industry to
      determine the legality and feasibility of FBI-sponsored
      development and testing of manufacturers’ CALEA solutions prior
      to their dissemination to carriers.


       69
          The FBI estimates that entering into software activation agreements with
these four carriers would make about 90 percent of the wireline switches CALEA-
compliant.


                                    - 38 -
III. EFFECTS OF DELAYED CALEA IMPLEMENTATION

     CALEA has provided the law enforcement community with
     beneficial features to conduct electronic surveillance, and has
     greatly reduced the amount of time it takes to initiate a wiretap.
     However, these features generally have been realized on
     wireless rather than wireline systems. Nevertheless, we believe
     the following factors mitigate the effects of the slow
     implementation on wireline systems: (1) the growing popularity
     of Internet telephony, (2) the limited number of wireline
     intercepts, (3) the apparent limited effect on criminal
     investigations, and (4) emerging technologies. With the
     remaining $45 million in CALEA funding, the FBI plans to
     reimburse major wireline carriers for activating the CALEA
     solution software on their systems. However, considering the
     changing dynamics of the telecommunications industry and the
     fact that almost 90 percent of intercepts are conducted on
     wireless systems, we believe the FBI should reexamine the
     future benefits of activating CALEA software solutions on wireline
     systems before expending any additional funding in that effort.

Methodology for Measuring CALEA’s Impact

       We reviewed the FBI’s methodology for measuring CALEA’s
impact and identifying issues and concerns that affect law
enforcement’s ability to conduct electronic surveillance. In addition,
we interviewed federal, state, and local law enforcement officials from
five states who had switches that were identified as high-priority by
the FBI, and who were provided coverage by a different carrier in each
state. We also prepared a written survey that was mailed to 1,396
federal, state, and local law enforcement officials regarding their
electronic surveillance activity and use of CALEA features (see
Appendix X for a copy of the survey). Of the 723 responses we
received to our survey, 82 agencies from 38 states indicated they
conduct electronic surveillance. The following chart illustrates the
affirmative responses by agency:




                               - 39 -
                       AFFIRMATIVE RESPONSES BY AGENCY




                        Police Dept - 24
                                                                             FBI - 36




               Sheriff/Co Police -
                       11
                                     Attorneys - 2         DEA - 9




       Source: Law enforcement responses to the OIG survey

            Of the 723 responses received, 641 (89 percent) agencies said
      they did not conduct electronic surveillance in 2004. The agencies
      indicated that they did not conduct electronic surveillance for the
      reasons illustrated below:


                                       NEGATIVE RESPONSES

                                REASON DID NOT CONDUCT ELECTRONIC SURVEILLANCE
                                                     COULD        CARRIER     DON'T KNOW
              NEGATIVE            NOT                  NOT       UNABLE TO      HOW TO
 AGENCY      RESPONSES         NECESSARY             AFFORD       CONDUCT      CONDUCT        OTHER

FBI               0                    0               0             0              0           0
DEA               0                    0               0             0              0           0
ATTORNEYS         87                   80              7             0              11          0
SHERIFF/CO
POLICE            107                  83              32            1              17          0
POLICE
DEPT              447                 363             107            7              65     2 (MANPOWER)
TOTAL           641          526          146          8                           93      2 (MANPOWER)
    %                      82.06%       22.78%      1.25%                        14.51%         0.31%
      Source: Law enforcement responses to the OIG survey




                                                     - 40 -
      As shown above, FBI and DEA officials responding to the survey
indicated that they conducted electronic surveillance in 2004 while
responses from 82 percent of the state and local officials indicated that
electronic surveillance was not necessary in their cases. Additionally,
23 percent of the state and local agencies responding to the survey
indicated that electronic surveillance was not affordable.

Benefits of CALEA

      For the switches with activated CALEA software, we found that
CALEA has provided federal, state, and local law enforcement with
beneficial features to conduct electronic surveillance, and has greatly
reduced the amount of time it takes to initiate a wiretap.

CALEA Punchlist Features

       As discussed in Finding II, the primary reason for the delayed
implementation of CALEA was the litigation over the punchlist features.
As noted in Qwest’s June 13, 2002, Petition for Further Extensions of
Time of CALEA Deadlines, the punchlist features represented 5 percent
of the capabilities required by law enforcement. We surveyed law
enforcement to determine the extent various CALEA features are
utilized. 70 Of the 82 agencies that responded that they performed
electronic surveillance, the following chart shows a breakdown of law
enforcement’s use of the CALEA features:




      70
           For a description of the CALEA punchlist features, see Appendix IX.


                                      - 41 -
                                           Law Enforcement Use of CALEA Features

                           Cell Site Location

                      Dialed Digit Extraction
                                                                                            FBI
                          Timing Information
                                                                                            DEA
  F ea tu r e




                           Ring/Busy Signal                                                 Sheriff/County Police
                Dialing/Signaling Information                                               Police Department
                                                                                            Attorneys
                             Multi-Party Call

                         Conference Calling

                                                0   10    20       30        40   50   60
                                                               Times Cited

                   Source: Law enforcement responses to the OIG survey

Timeliness of Electronic Surveillance

       Law enforcement officials stated that CALEA greatly reduced the
amount of time it took carriers to initiate a wiretap once a court order
was accepted by the carrier. For example, a New York law
enforcement official noted that his agency can now initiate a wiretap
on a wireless phone within a day. He also said that the carriers have
greater capacity to conduct more wiretaps simultaneously. This was
reiterated by one carrier official, who noted that prior to deployment of
the CALEA solution, provisioning (the providing of electronic
surveillance service by the carrier) of electronic surveillance was time-
consuming and expensive. In addition, both carrier and law
enforcement officials had to be physically present at the switch
location during the electronic surveillance, and previously it could take
up to several weeks to receive intercept data from a carrier.

      With the implementation of CALEA, provisioning is completed
remotely from a central location for all electronic surveillance in a
carrier’s network. This process has significantly reduced carrier and
law enforcement travel costs and time, and has facilitated electronic
surveillance. Under CALEA, law enforcement agencies can now make
a single connection to the carrier’s network, and can deal with carrier


                                                     - 42 -
staff whose positions are dedicated to provisioning electronic
surveillance. These changes mean that law enforcement agencies
have faster access to electronic surveillance data, often within a day.

Mitigating Factors

      We believe the following factors mitigate the effects of the
delayed implementation on wireline systems.

Growing Popularity of Internet Telephony

      Internet telephony and Internet telephony service providers are
a growing segment of the telephone industry. An April 2005 report
from research firm International Data Corporation (IDC) predicts that
U.S. residential VoIP customers will grow from 3 million in 2005 to
27 million by the end of 2009. An example of this trend is Comcast
Corporation, which is the nation’s largest cable company. Comcast
plans to offer its Internet-based phone service to its 28 million cable
and high-speed Internet customers by mid-2006. In addition, a carrier
representative we interviewed reiterated a widely held belief that the
Internet will swallow up the conventional telephone network, and that
Internet Telephony will essentially replace traditional telephone service
in the United States in the near future.

Limited Number of Wireline Intercepts

      According to the April 2005 Report of the Director of the
Administrative Office of the United States Courts on Applications for
Orders Authorizing or Approving the Interception of Wire, Oral, or
Electronic Communications, the most common location specified in
wiretap applications authorized in 2004 was “portable device, carried
by/on individual.” 71 According to the report, 88 percent of all wiretaps
authorized involved portable devices such as portable digital pagers
and cellular telephones. The report noted that since 2000 – the first
year that the “portable device, carried by/on individual” category was


       71
           The Omnibus Crime Control and Safe Street Act of 1968 required the
Administrative Office of the United States Courts (AO) to report to Congress the
number and nature of federal and state applications for orders authorizing or
approving the interception of wire, oral, or electronic communications. The statute
requires that specific information be provided to the AO, including the offense(s)
under investigation; the location of the intercept; the cost of the surveillance; and
the number of arrests, trials, and convictions that directly result from the
surveillance.



                                      - 43 -
used – the proportion of wiretaps involving fixed locations has declined
as the use of mobile communications devices has become more
prevalent. 72 The report also noted that only 5 percent of all intercept
devices were authorized for personal residences, and 2 percent were
authorized for business establishments such as offices, restaurants,
and hotels.

      In addition, our discussions with four wireline carriers in areas of
the country with high amounts of intercept activity revealed that from
2002 to 2004 a limited number of court orders for wiretaps requiring
CALEA features were requested:

      •    Wireline A. 1.2 percent of the court orders it received for
           intercepts required CALEA features.

      •    Wireline B. Less than 1 percent of the court orders it received
           for intercepts required CALEA features.

      •    Wireline D. 6.25 percent of the court orders it received for
           intercepts required CALEA features.

      •    Wireline E. 3.5 percent of the court orders it received for
           intercepts required CALEA features.

       According to the Federal, state, and local law enforcement
officials we interviewed and surveyed, their agencies do not request
intercepts requiring CALEA features for several reasons (i.e., the high
cost charged by carriers, carrier noncompliance, or the investigation
only required a traditional wiretap).

The Apparent Limited Effect on Criminal Investigations

       The FBI measures the investigative impact of CALEA and
identifies issues and concerns of law enforcement in a variety of ways.
Representatives from the FBI speak with law enforcement at various
events including the FBI’s Law Enforcement Technical Forum, the FBI’s
Law Enforcement Executive Forum, meetings of the International
Association of Chiefs of Police, and meetings of the Law Enforcement




      72
           The FBI acknowledged that over 80 percent of intercepts are conducted on
cellular or wireless switches.



                                    - 44 -
Executive Development Association. 73 During these events, FBI
officials said that law enforcement representatives raise with them
issues that affect their ability to conduct electronic surveillance, such
as carrier compliance and emerging technologies. Federal, state, and
local law enforcement representatives also convey their issues and
concerns through Threat Assessment Surveys distributed by the FBI.

       The FBI also measures the impact of CALEA on law enforcement
by reviewing help desk reports. The FBI maintains a help desk that
law enforcement officials can call when they have difficulty conducting
electronic surveillance or if they have questions. In addition, the FBI
website (www.askcalea.net) provides a help desk database that
describes difficulties encountered with CALEA solutions. Law
enforcement officials can submit problems to the help desk, such as
difficulties they encounter while conducting a CALEA intercept. Law
enforcement officials can review the help desk’s database to determine
if other law enforcement agencies have encountered the same
difficulty and identify what action was taken.

      FBI’s Threat Assessment Survey

      We reviewed the FBI's 2004 Threat Assessment Survey Report
and the individual threat assessment surveys used to prepare the
report. The 2004 Threat Assessment Survey was developed to better
understand and anticipate future threats to law enforcement. The
survey was conducted from November 2003 through September 2004
at the national and regional meetings of the National Technical
Investigator Association, and at various DEA and FBI training sessions.

      Our review of the surveys found that they are useful in helping
the FBI measure CALEA’s impact and for identifying issues and
concerns that affect law enforcement’s ability to conduct electronic
surveillance. However, the number of survey participants was limited,
and therefore may not adequately represent the full law enforcement
community.

      The FBI collected 120 surveys from federal, state, and local law
enforcement officers from 57 different federal, state, and local
agencies and departments. Our review of the surveys revealed that
77 of the 120 participants (64 percent) indicated that criminals have

      73
           The FBI formed the Law Enforcement Technical Forum and the Law
Enforcement Executive Forum to solicit the technical and programmatic exchange of
information with the law enforcement community on CALEA implementation and
electronic surveillance challenges.


                                    - 45 -
the ability to evade law enforcement's electronic surveillance efforts.
Of the 120 participants, 59 participants (49 percent) believed that
criminals evaded surveillance using wireless phones, and 50
participants (42 percent) believed the use of the Internet allowed
criminal evasion of electronic surveillance. The following chart
provides the results of our review:


                       TECHNOLOGY CURRENTLY USED TO EVADE
                            ELECTRONIC SURVEILLANCE


                          NOT SURE       5%

                      PUSH-TO-TALK      3%

                          INTERNET                                         42%

                  NEXTEL TO NEXTEL                             26%

               PAGERS/BLACKBERRY                          23%

                  WIRELESS PHONES                                                  49%


      TELEPHONE COMPANY FEATURES                         21%

                                   0%        10%   20%         30%   40%         50%     60%

 Source: OIG analysis of 120 FBI Threat Assessment Surveys

       We noted that 25 participants (21 percent) believed criminals
used telephone company features (call-forwarding, voice mail, 3-way
calling) to evade electronic surveillance. However, because the survey
responses were general in nature, we were unable to determine the
specific features, if any, that were problematic to law enforcement or
the extent of the problem. In our judgment, this is a shortcoming in
the FBI’s survey because it does not identify whether the problem
results from a non-CALEA compliant carrier, or the law enforcement
agency does not possess the resources to acquire the CALEA
features. 74 For example, two law enforcement officials informed us
that their agency cannot afford the expense of installing a T-1 line,
which is the delivery method to receive the CALEA features (this issue
is discussed further in Finding IV).


       74
          During our audit we noted other discrepancies regarding the collection and
tabulation of survey responses that resulted in the FBI reissuing a corrected 2004
Threat Assessment Survey Report.


                                     - 46 -
       The surveys also requested participants to prioritize current,
new, or emerging technologies having the greatest impact on their
agency’s ability to perform electronic surveillance. As shown in the
following chart, law enforcement officers indicated that pre-paid cell
phones, telephony over broadband, and voice or text over the Internet
would have the greatest impact on their department’s electronic
surveillance activities within the next two years.


           TECHNOLOGIES HAVING GREATEST IMPACT ON ELECTRONIC SURVEILLANCE
                             WITHIN THE NEXT TWO YEARS

                                NEXTEL TO NEXTEL                            28%

                                 TWO-WAY PAGING                       23%

                        VOICE/TEXT OVER INTERNET                                                53%

 DIGITAL ENHANCED SPECIALIZED MOBILE RADIO (ESMR)         10%

         TELEPHONY OVER BROADBAND (CABLE, DSL)                                             49%

                            PACKET DATA SERVICE                             30%

                            NEXTEL PUSH-TO-TALK                                     38%

                            PRE-PAID CELL PHONES                                            50%

           ANALOG SPECIALIZED MOBILE RADIO (SMR)     6%

                                   WIRELESS PDA                             28%

                                                0%   10%        20%     30%       40%     50%     60%

 Source: OIG analysis of 120 FBI Threat Assessment Surveys

       Our review of the FBI’s Threat Assessment Surveys revealed that
the law enforcement community is less concerned over the ability to
perform electronic surveillance on wireline equipment, and more
concerned over new and emerging technologies. In addition, we
believe the FBI should obtain a larger audience of survey participants
to include more state and local law enforcement representatives and
provide comprehensive examples of the electronic surveillance
problems law enforcement is encountering.




                                         - 47 -
     Case Examples

       During our audit, we requested specific examples that illustrate
existing intercept problems. The FBI provided us with a document
entitled FBI Investigative Technology Division CALEA Law Enforcement
Case Examples dated October 29, 2004. In addition, a DOJ official
provided a memorandum, dated March 30, 2005, describing instances
where law enforcement has encountered problems with emerging
technologies. According to the memorandum, these examples
underscore “the importance of addressing vulnerabilities before they
have matured into widespread problems that have an irreversible
significant detrimental impact on law enforcement and national
security interests.”

       The FBI’s document contained a total of 57 case examples
representing federal, state, and local law enforcement experiences
with CALEA wiretaps. Twenty-seven of the examples described
intercepts that were successful, 23 described intercepts that were
unsuccessful, and the remaining 8 provided general comments that did
not specifically address either a successful or unsuccessful intercept
(e.g. information from informants regarding the use of push-to-talk
(PTT) and VoIP). None of the examples, however, noted electronic
surveillance problems for wireline intercepts. The unsuccessful
intercepts were as follows:

     •    Sixteen of the case examples described unsuccessful PTT
          intercepts, with the most recent example occurring in August
          2004. 75 The carriers cited and the number of instances where
          law enforcement was unable to conduct electronic surveillance
          were as follows: [LAW ENFORCEMENT SENSITIVE
          INFORMATION REDACTED].

     •    Three of the case examples described unsuccessful VoIP
          intercepts. [LAW ENFORCEMENT SENSITIVE INFORMATION
          REDACTED].

     •    Two case examples cited pre-paid calling card or pre-paid cell
          phone for the cause of an unsuccessful intercept. [LAW
          ENFORCEMENT SENSITIVE INFORMATION REDACTED].




     75
          [LAW ENFORCEMENT SENSITIVE INFORMATION REDACTED].


                                - 48 -
      •   Two case examples cited carrier issues regarding lack of audio
          as the cause of an unsuccessful intercept. [LAW
          ENFORCEMENT SENSITIVE INFORMATION REDACTED].

       In our judgment, these examples are not necessarily indicative
of emerging technology that is negatively impacting law enforcement’s
ability to conduct electronic surveillance. According to an FBI official,
[LAW ENFORCEMENT SENSITIVE INFORMATION REDACTED].

Emerging Technologies

      Depending on the law enforcement agency, emerging technology
impacts their ability to conduct electronic surveillance to varying
degrees. A New York law enforcement official stated that the
technology is changing at such a high rate of speed that law
enforcement needs the FCC to step in. He also noted that “the carriers
are doing what the criminals couldn’t do – putting law enforcement out
of business,” by releasing technology without a solution and by
charging fees that make electronic surveillance cost prohibitive (this
issue is discussed further in Finding IV).

       According to law enforcement officials, [LAW ENFORCEMENT
SENSITIVE INFORMATION REDACTED]. A law enforcement official
stated that his agency has experienced [LAW ENFORCEMENT
SENSITIVE INFORMATION REDACTED] before the target has changed
phones. Therefore, he believes that law enforcement’s ability to
conduct a wiretap should be tied to the individual, rather than the
phone line, to make the process quicker for switching the line that the
wiretap is on. Law enforcement officials noted [LAW ENFORCEMENT
SENSITIVE INFORMATION REDACTED] through the carrier.
Additionally, targets are able to evade electronic surveillance by using
cell phones purchased in Mexico or by traveling into Mexico to place
calls, even if the target uses a U.S. carrier. A law enforcement official
noted that calls made on cell phones purchased in Mexico or calls
initiated in Mexico are not wiretapped because of security concerns
related to working with carriers’ international divisions.




                                - 49 -
      Of the 82 affirmative responses to the OIG survey, law
enforcement officials indicated that the following emerging
technologies negatively affect their agencies' ability to conduct
electronic surveillance:


                                            Technologies Impacting Law Enforcement

                      Camera Phones
                         Push-to-Talk
                               PDAs                                                       FBI
  Technology




                      Text Messaging                                                      DEA
                                                                                          Sheriff/County Police
                  Broadband (Cable)
                                                                                          Police Department
               Pre-Paid Calling Cards                                                     Attorneys
                Pre-Paid Cell Phones
                                VoIP

                                        0        10     20       30        40   50   60
                                                             Times Cited

 Source: Law enforcement responses to the OIG survey

      According to the FBI, Internet “hotspots” such as cyber cafés
that provide anonymity with multiple access points, third-party calls
using calling cards, and toll free numbers are a “technologically
unsolvable problem.” These services can only be addressed through
investigative techniques, rather than through the application of CALEA.
In addition, FBI officials said that commercially available electronic
encryption will also hinder law enforcement’s ability to collect
information from electronic intercepts. 76 According to the FBI, [LAW
ENFORCEMENT SENSITIVE INFORMATION REDACTED].




                 76
          Under CALEA, carriers are not responsible for decrypting, or ensuring the
government’s ability to decrypt any communication encrypted by a customer, unless
the encryption was provided by the carrier and the carrier possesses the information
necessary to decrypt the communication.


                                                       - 50 -
FBI’s Plans for Remaining CALEA Funding

      About $45 million in CALEA funds remain for the implementation
of CALEA-compliant solutions. As previously discussed, the FBI is
negotiating reimbursement agreements with two carriers for the cost
of deploying CALEA solutions on their pre-1995 equipment. The funds
remaining upon completion of negotiations with the two carriers will be
used to reimburse second-tier carriers (e.g., large independent carriers
and competitive local exchange carriers serving smaller metropolitan
areas such as Cincinnati Bell and Alltel). The FBI expects to exhaust
the remaining CALEA funds reimbursing second-tier carriers.

       We are concerned about how the FBI plans to use the remaining
$45 million. We recognize that CALEA permits the FBI to reimburse
carriers for all reasonable costs associated with bringing pre-1995
equipment, facilities, and services into compliance. Nevertheless,
because CALEA implementation was delayed, and because technology
has significantly changed from the time of CALEA’s enactment, we
believe the FBI should reexamine the future benefits of activating
CALEA software solutions on wireline systems before expending any
additional funding. The basis for our concern revolves around: (1) the
growing popularity in Internet telephony, (2) the limited number of
intercepts performed on wireline equipment, (3) the apparent limited
effect on criminal investigations, and (4) the discussion on emerging
technologies. Our conclusion in this area is not only limited to the
above discussion, but is also based on the costs of the equipment
needed to obtain CALEA-covered wiretaps, the wiretap fees charged by
carriers, and the delivery method (as discussed in Finding IV).

      Although this list is not all-inclusive, the FBI should consider the
following factors prior to expending the remaining $45 million in CALEA
funding:

      •   law enforcement’s priorities as they pertain to emerging
          technologies;

      •   the number of intercepts conducted under Title III and FISA;

      •   the number of CALEA-covered intercepts conducted in prior
          years and the number expected to be performed in the
          future;

      •   the ability of law enforcement in the coverage area to equip a
          wireroom and pay for the intercept;


                                - 51 -
       •    the length of time needed to negotiate with carriers, and for
            carriers to deploy and activate the software;

       •    the carriers’ schedule for replacing or significantly upgrading
            their pre-1995 equipment, facilities, or services; 77 and

       •    the delivery method the carrier will require law enforcement
            to accept.

Conclusion

      As technology advances at an ever-increasing pace, law
enforcement officials must be prepared to deal with emerging
technologies. For example, [LAW ENFORCEMENT SENSITIVE
INFORMATION REDACTED].

       When considering the changing dynamics of the
telecommunications industry, the limited number of CALEA-covered
wiretaps reported by four carriers in high-priority locations, and the
fact that almost 90 percent of authorized wiretaps are conducted on
portable devices, we believe the FBI should consider alternative uses
for the remaining CALEA funds.




       77
          According to CALEA, if the FBI has not agreed to pay the
telecommunications carrier for all reasonable costs directly associated with
modifications necessary to bring any equipment, facility, or service deployed on or
before January 1, 1995, into compliance with the assistance capability requirements
of Section 103, such equipment, facility, or service shall be considered to be in
compliance with the assistance capability requirements of Section 103 until the
equipment, facility, or service is replaced or significantly upgraded or otherwise
undergoes major modification.


                                     - 52 -
Recommendations

We recommend that the FBI:

  2. Expand the audience of state and local law enforcement
     representatives participating in its Law Enforcement Technical
     Forums and the FBI Threat Assessment Surveys. This would
     allow for a more comprehensive understanding of the electronic
     surveillance threats to law enforcement.

  3. Improve the methodology used to gather accurate and current
     data regarding the adverse impact on criminal investigations
     arising from carriers’ inability to provide CALEA-compliant
     wiretaps or access to call-identifying information. This can be
     accomplished by soliciting detailed information on adverse
     responses to the Threat Assessment Survey, and through the
     CALEA helpdesk.

  4. Reexamine the benefits of activating CALEA solutions on wireline
     systems prior to the expenditure of the remaining $45 million in
     CALEA funding.




                              - 53 -
IV. ISSUES REQUIRING RESOLUTION

       The development, deployment, and maintenance costs
       associated with implementing CALEA and who should bear those
       costs continue to be controversial issues. The 10 carrier officials
       we interviewed believed that these significant costs will hinder
       full CALEA-compliance. For law enforcement, electronic
       surveillance is expensive, and includes wiretap fees charged by
       carriers, equipment costs, and costs associated with the delivery
       method. In addition to these costs, law enforcement’s ability to
       conduct electronic surveillance is also hampered by poor
       customer service by carriers, and the FBI’s ability to provide
       assistance and training on electronic surveillance to state and
       local law enforcement agencies. As technology advances, carrier
       and law enforcement costs will increase, and their limited
       assistance could negatively affect law enforcement’s ability to
       conduct electronic surveillance.

Costs Incurred by Carriers

      The 10 carrier officials we interviewed indicated that they were
committed to complying with CALEA and that they had, or were
actively engaged in deploying, CALEA solutions on their networks.
However, these same officials advised us that significant costs will
hinder full CALEA-compliance. Specifically, carrier representatives
stated that the cost to develop, deploy, and maintain electronic
surveillance capabilities have been significant, and that these costs are
expected to increase as technology advances. The following are just
four examples of what the carriers told us: 78

       •    A VoIP provider contracted to pay approximately $100,000 to
            a trusted third party (TTP) to develop its CALEA solution. In
            addition, the TTP will charge a monthly fee of $14,000 to
            $15,000 and $2,000 for each intercept. These amounts do
            not include the cost of labor for writing code into the software
            to accommodate the CALEA solution. In addition, officials
            from this provider discussed with us “opportunity” costs, in
            that programmers working on CALEA could be developing new
            features for its customers. Furthermore, the officials were
            concerned that the government would mandate that every

       78
          We present this information because the cost of CALEA compliance
remains a controversial issue and a concern for carriers. This information was
provided by carrier representatives we interviewed and was not audited.


                                     - 54 -
         new feature would have to be CALEA-compliant prior to being
         offered to the public. Such a restriction would cost the
         company revenue and place them at a disadvantage in
         comparison to non-U.S. based providers, who do not have to
         comply with CALEA.

     •   A wireless carrier stated that it had spent about $14 million
         on standards-based voice and data CALEA solutions. These
         costs were primarily capital and ongoing labor costs, with the
         bulk of the money going towards developing Personal
         Communications Services (PCS) voice interception and
         second-generation packet-mode service. Furthermore,
         because all of the carrier’s equipment is post-1995, the
         carrier must bear all costs. This carrier also discussed
         “hidden costs.” For example, resources are pulled from
         revenue-generating projects to work on CALEA projects. In
         addition, interaction with vendors to develop CALEA solutions
         and providing technical assistance to law enforcement is very
         costly.

     •   Another wireless carrier estimated that it spent about
         $40 million to make its network CALEA-compliant. Again,
         virtually all of this carrier’s equipment was post-1995 and,
         therefore, its costs were not recoverable from the FBI.

       We also obtained the costs that some carriers incurred to deploy
their CALEA solutions on a “per switch” basis. Specifically, one
wireline carrier stated that the company spent nearly $24,000 per
switch to deploy its CALEA solution on 747 switches. Another wireline
carrier stated that its CALEA-compliance cost was over $33,000 per
switch on 222 switches. However, the reported carrier costs, both in
the aggregate and on a per switch basis, are not comparable because
carrier networks vary greatly in size and switch type.

       One carrier representative stated that his company believes law
enforcement is frustrated by the new communications technology, but
does not fully understand the total cost and complexity of obtaining
CALEA wiretaps in a wireline and wireless environment. The
representative also said that the costs and complexity involved will be
exponentially greater with packet mode technology. He further stated
that law enforcement wants the CALEA functionality but is largely
unaware of the expense and technical impediments to full




                               - 55 -
implementation. This official believed that the problems for law
enforcement must be solved before CALEA is implemented on a larger
scale.

Costs Incurred by Law Enforcement

      From a law enforcement perspective, conducting electronic
surveillance is expensive and includes wiretap fees charged by
carriers, equipment costs, and costs associated with the delivery
method.

Wiretap Fees Charged by Carriers

       Law enforcement's biggest complaint regarding CALEA is the
relatively high fees charged by carriers to conduct electronic
surveillance. A traditional wiretap costs law enforcement
approximately $250. However, a wiretap with CALEA features costs
law enforcement approximately $2,200 according to law enforcement
officials and carrier representatives we interviewed. A law
enforcement official noted that, “[w]ith CALEA, the carriers do less
work but it costs approximately 10 times as much to do a
CALEA-compliant tap versus a traditional tap.” Law enforcement
officials agree that the features provided by CALEA are valuable.
However, some law enforcement agencies cannot afford to conduct the
number of wiretaps they believe is necessary to support their
investigations. We found that other agencies have chosen to conduct
traditional wiretaps because of the high carrier fees associated with
the CALEA features. In addition, we found that carrier fees varied
widely.

      During our site visits to federal, state, and local law enforcement
agencies, we obtained carrier fee schedules and invoices. The carrier
invoices were not itemized, which is a source of contention between
law enforcement and the carriers. Law enforcement officials stated
that the carriers refuse to provide their agencies with itemized bills
that detail the charges for each intercept (i.e., initiation fee,
maintenance fee, “pinging” fee, and cost of reports). The agency can
verify that the wiretap was active on the dates indicated on the bills,
but not what the total cost listed on the bill is based on. Therefore, we
were unable to determine if the carriers are passing capital costs on to




                                - 56 -
law enforcement. 79 However, as previously noted, one carrier
informed us that most of the costs it billed to law enforcement are for
overtime and recovery of capitalized hardware and software costs.
These representatives stated that capital costs are the major costs
incurred by a carrier, and that these costs are entirely proper for
carriers to recover. These representatives also stated that capital
costs will continue to grow as technology accelerates.

       One law enforcement official noted that prosecutors are unable
to challenge the carriers’ costs during the course of the electronic
surveillance because to do so would be a civil matter and the wiretap
orders are sealed by the criminal court. The prosecutor would have to
wait until the criminal matter was completed. The law enforcement
official stated that at that point the electronic surveillance is no longer
needed and the prosecutors do not have time to pursue the issue.

      Using the wireless carrier fee schedules provided by law
enforcement, we calculated a total base cost per intercept to illustrate
the cost variances by carrier for the same type of electronic
surveillance and the cost variances charged to different law
enforcement agencies by the same carrier. 80 As depicted in the
following tables, we received fee schedules within the same state for
four carriers (Carriers A, B, G, and H).

        Since some carriers charge a flat fee while others charge an
initiation fee plus a daily maintenance fee, we based our calculations
for pen register fees on a 60-day period and Title III wiretap fees on a
30-day period since that is the timeframe covered in court orders. In
addition to the base calculation provided in the tables, additional fees
may be charged by the carriers including monthly maintenance fees,

       79
            According to DOJ’s Joint Petition, the FCC should clarify the costs that can
be included in intercept provisioning costs and determine who bears financial
responsibility for such costs. Although carriers are permitted under Title III to pass
on to law enforcement their provisioning costs, a growing number of law
enforcement agencies expressed concern over the significant provisioning costs in
carriers’ bills. These costs make surveillance more difficult, especially for smaller law
enforcement agencies. To permit carriers to include their CALEA implementation
costs in their provisioning costs would not only violate Title III, but will also make it
increasingly cost-prohibitive for law enforcement to conduct intercepts. Although
Title III provides for carriers to be compensated for costs associated with intercept
provisioning, nothing in either Title III or CALEA authorizes carriers to include CALEA
implementation costs in their provisioning costs.

       80
          Wireline fee schedules were not provided by law enforcement because the
majority of intercepts are conducted on wireless phone.


                                       - 57 -
per switch set-up fees, additional switch fees, uninterrupted
continuation fees, call-bridging fees, extension fees, and fees for
activity reports.

           BASE FEE FOR A 60-DAY PEN REGISTER (WIRELESS)
                            NY        FL        AZ        CA        NV
     CARRIER A            $1,775                         $1,775    $1,775
                                                         $2,600    $2,200
     CARRIER B                                 $1,775    $1,775      $600
                                                         $2,075
                                                         $2,600
     CARRIER C                       $1,400
     CARRIER D                                             $600    $1,200
     CARRIER E
     (Telephone)          $1,750     $1,750    $1,750    $1,750
     CARRIER E
     (Push-To-Talk)       $2,000     $2,000    $2,000    $2,000
     CARRIER F                                 $1,750    $1,750    $1,750
     CARRIER G              $350                           $250      $400
                                                           $350      $450
                                                         $3,100
     CARRIER H
     (New Order)          $1,135               $1,135    $1,025    $1,135
                                                         $1,135
     CARRIER H
     (Renewal)              $820                 $820      $820      $820
     CARRIER I              $350
     CARRIER J                                                        $250
       Source: Carrier fee schedules provided by individual law enforcement
               agencies




                                   - 58 -
              BASE FEE FOR A 30-DAY TITLE III (WIRELESS)
                           NY         FL        AZ        CA        NV
     CARRIER A            $1,775                        $1,775    $1,775
                                                        $2,600    $2,200
     CARRIER B                                $1,775    $1,775     $600
                                                        $2,600


     CARRIER C                      $1,600
     CARRIER D                                           $600     $1,200
     CARRIER E
     (Telephone)          $1,750    $1,750    $1,750    $1,750
     CARRIER E
     (Push-To-Talk)       $2,000    $2,000    $2,000    $2,000
     CARRIER F                                $1,000    $1,000    $1,000
     CARRIER G             $350                          $100      $350
                                                         $350      $400
                                                        $3,100
     CARRIER H
     (New Order)           $940                $940      $575      $940
                                                         $940
     CARRIER H
     (Renewal)             $675                $675      $675      $675
     CARRIER I             $350
     CARRIER J                                                      $250
       Source: Carrier fee schedules provided by individual law enforcement
               agencies

      The above fee calculations illustrate that carriers’ fees range
from $250 to $3,100 to conduct pen registers and Title III wiretaps.
Carrier fees are also inconsistent among law enforcement agencies and
states. For instance, Carrier B charges a Nevada law enforcement
agency $600 for a Title III wiretap while the same carrier charges a
California law enforcement agency $1,775 and another California law
enforcement agency $2,600.

       The cost to conduct electronic surveillance for one case can
quickly rise. For example, if law enforcement needs to conduct
electronic surveillance beyond the 30- and 60-day timeframes, a new
court order requesting an extension must be obtained and, in most
cases, the law enforcement agencies are charged the same fees again
by the carriers. In addition if another target is identified during the
monitoring of the initial target, another court order is obtained to
initiate an additional wiretap. A law enforcement official stated that a


                                   - 59 -
typical case for his agency usually involves five to six targets. If a
target uses more than one phone, the cost to law enforcement rises
proportionately.

       From the 82 responses to our survey from law enforcement
officials indicating that their agency conducts electronic surveillance,
31 agencies (38 percent) indicated that the number of intercepts
conducted is hindered by the costs charged by carriers.

      In its March 2004 Joint Petition, DOJ requested that the FCC:

      1. confirm that carriers bear sole financial responsibility for
         CALEA implementation costs for post-January 1, 1995,
         communications equipment, facilities and services;

      2. permit carriers to recover their CALEA implementation costs
         from their customers; and

      3. clarify the cost methodology and financial responsibility
         associated with intercept provisioning.

      In its NPRM, the FCC sought comment on:

      •   Cost recovery options that could reduce CALEA-related
          burdens otherwise imposed on carriers and their customers,
          including options that more equitably spread costs among
          the general public. For example, the FCC questioned
          whether CALEA costs should be recovered directly from
          consumers by means of an FCC-mandated, flat monthly
          charge; and

      •   Whether the FCC should distinguish carrier recovery of
          CALEA incurred capital costs generally from recovery of
          specific intercept-related costs. In addition, the FCC sought
          comment on the costs that can be included in intercept
          provisioning costs and the entities that should bear financial
          responsibility for those costs.




                                - 60 -
Equipment Costs

       In order to conduct CALEA wiretaps, law enforcement agencies
must maintain or have access to a wireroom. A wireroom consists of a
computerized system that intercepts, decodes, records, and plays back
telephone communications. The installation of these facilities is both
time-consuming if not already in place (it must be ordered weeks or
months in advance) and expensive. Depending upon the number of
wiretaps conducted and available funding, law enforcement agencies
may elect to maintain their own wireroom, maintain a wireroom in
conjunction with another agency, or request the temporary use of a
wireroom maintained by another agency. Although law enforcement
officials noted that their wirerooms are also available for use by other
law enforcement agencies in their general vicinity, the smaller law
enforcement agencies are limited in conducting electronic surveillance
due to the fees charged by carriers.

       Of the 82 responses to our survey from law enforcement officials
indicating that their agency conducts electronic surveillance, 48
agencies (59 percent) maintain their own wireroom. Law enforcement
officials representing the 82 agencies indicated that the number of
intercepts conducted by their agencies is hindered by the cost to
purchase equipment (16 of 82 responses) and the cost of equipment
maintenance (11 of 82 responses).

      According to law enforcement officials we interviewed and those
who responded to our survey, law enforcement agencies have spent
between hundreds of thousands to several million dollars to equip their
wirerooms. The equipment costs depend upon the desired capacity of
simultaneous wiretaps and the need to accommodate the carriers’
various delivery methods (as discussed in the following section). A
typical wireroom, as pictured below, consists of the following
equipment:




                               - 61 -
  -   Monitor and playback
      stations (PCs)

  -   Servers (the number of
      servers required is
      dictated by the carrier’s
      delivery method)

  -   An audio recorder
      (known as a jukebox)
      which saves the data on
      a magnetic drive

  -   Routers (the number of
      routers required is
      dictated by the carrier’s
      delivery method)

  -   A system administration
      computer




                                  Source: SyTech brochure (permission granted)

      As an example, the equipment listed below was located in one of
the wirerooms that we visited. This particular wireroom has the
capacity to conduct eight regular wiretaps or four [LAW ENFORCEMENT
SENSITIVE INFORMATION REDACTED] wiretaps simultaneously.

      •   8 computer workstations;
      •   3 servers (one to conduct regular cell phone intercepts, one
          to conduct [LAW ENFORCEMENT SENSITIVE INFORMATION
          REDACTED] intercepts, and one to conduct pager and
          Internet intercepts);
      •   1 jukebox, which saves the data on a magnetic drive;
      •   1 separate router for [LAW ENFORCEMENT SENSITIVE
          INFORMATION REDACTED] intercepts (all other carriers are
          on a Virtual Private Network (VPN)); and
      •   1 computer monitor to switch between the 3 servers.

      In addition to the initial purchase of equipment, law enforcement
agencies also pay approximately $30,000 per year in maintenance fees
to their equipment vendor. Law enforcement agencies said they spend
additional funds for hardware and software upgrades to keep up with


                                  - 62 -
improvements and emerging technology.

      Equipment costs for collecting the large amount of data will
continue to be a major impediment for law enforcement. As
technology changes and electronic surveillance becomes more
complex, law enforcement will need to carefully consider how they will
receive large volumes of data, especially with broadband intercepts.
The collection equipment required by law enforcement will be more
complex and costly, and law enforcement will also need to develop the
technical expertise to operate the equipment.

Delivery Methods

       During our site visits, many law enforcement officials noted that
CALEA addresses what carriers need to provide to law enforcement
agencies without addressing how data is delivered. For example,
CALEA does not address whether carriers can use digital or audio
phone lines to deliver the audio portions of intercepts. As a result, the
delivery method of intercepted data varies by carrier. Due to the
various delivery methods, law enforcement agencies must purchase
additional equipment to receive the intercepted data from a carrier.
The four delivery methods are dial-out, VPN, frame relay, and T-1
lines.

      Dial-out. A dial-out solution takes advantage of the PSTN
already in place between the carrier equipment performing an
intercept and a law enforcement collection site. A dial-out solution
only requires a regular telephone line.

      VPN. For VPN, carriers use a “secure tunnel” VPN to conduct
electronic surveillance over the Internet. The VPN secure tunnel
method uses law enforcement’s existing connectivity to the Internet to
connect to a specific point in the carrier’s network. Firewalls and
encryption keys are used to authenticate the law enforcement agency
before any intercepted call-identifying information or content is
delivered from the carrier’s network. This method keeps the
information secure when traversing the Internet, and does not require
the law enforcement agency’s connection to the Internet to be
dedicated to a specific carrier or to receiving CALEA information. The
best features of a VPN-type connection are that the law enforcement
agency can use the same connection to the Internet for multiple
applications such as web browsing, e-mail, and CALEA connectivity.




                                - 63 -
      Frame Relay. A frame relay connection consists of three parts:
(1) the connection from the law enforcement agency to the carrier’s
frame relay, which is a private, specific-use circuit that connects a
single law enforcement agency location to the carrier’s network. This
represents the maximum rate at which a law enforcement agency can
accept packets from a carrier; (2) the frame relay, which is a network
of routers that allow communication from point-to-point without
having a dedicated circuit end-to-end; and (3) the connection from the
frame relay, which is a private, specific-use circuit that connects
multiple law enforcement agencies to the carrier’s network. The value
of the frame relay connection is its ability to handle large amounts of
data, up to the bandwidth of the connection facility, but still not have
to pay for that bandwidth point-to-point.

      T-1 Line. A T-1 line is a higher capacity circuit using a fiber optic
or copper line. A T-1 line can carry 24 digitized voice channels and
about 192,000 bytes per second – roughly 60 times more data than a
normal residential modem. It is also much more reliable than an
analog modem.

      One law enforcement official we interviewed stated that he
would like to see DOJ mandate the dial-out solution as the delivery
method because it is less expensive. A carrier official stated that with
dial-out, the line can be connected in two or three days and only costs
$60 per line. However, carriers also noted that not all of the CALEA
features are available when dial-out is used because the “pipe” is not
large enough for the data stream. Although dial-out is a viable option
for receiving call-identifying information and call-content for circuit-
mode calls, it may not be a viable option for packet-mode calls. This
is because the low connection speed of the dial-out delivery method
may not be able to handle the delivery of intercepted packets for law
enforcement agencies that handle multiple simultaneous surveillances.

       While dial-out and VPN are increasing in popularity, and favored
among law enforcement agencies, some carriers only deliver data via a
T-1 line. For some law enforcement agencies, T-1 line delivery for a
wireline CALEA intercept is impractical. A T-1 line costs law
enforcement agencies approximately $1,300 for installation, and can
take up to two months to install. One law enforcement official told us
that his agency pays carriers approximately $20,000 per month to




                                 - 64 -
maintain its T-1 connections. He explained that the agency pays $575
to $1,800 per month for each circuit. 81

       A law enforcement official in California stated that his office was
informed by two in-state wireline carriers that they are CALEA-
compliant but law enforcement would need to build a T-1 line to each
of the carriers’ switches. The law enforcement official explained that
this concept is unreasonable considering his agency’s jurisdiction has
about 95 switches from one carrier and about 130 switches from the
other. Therefore, it would cost his agency about $292,500 to install
T-1 lines to each of the switches. 82 This scenario would not be cost
beneficial to his agency because a T-1 line is only used for wireline
intercepts, and approximately 70 percent of this agency’s wiretaps are
performed on wireless phones. The law enforcement official stated
that there are numerous agencies in California with authority to
conduct intercepts and each agency would be required to install a T-1
line to each of the carriers’ switches to conduct a CALEA intercept.
Another law enforcement official in California estimated that 99
percent of their wiretaps are performed on wireless phones. 83
Furthermore, a law enforcement official in Florida also experienced the
same situation with one of the carriers noted above. Due to the
prohibitive cost of wireline carrier’s CALEA solution, the California and
Florida law enforcement agencies conduct traditional wiretaps that
could not take advantage of CALEA features.

Law Enforcement Assistance Concerns

      In addition to monetary issues that affect carriers and law
enforcement, we identified assistance concerns that will also affect the
successful implementation of CALEA.


       81
           Another option is to lease access to the carrier’s T-1 lines through the law
enforcement agency’s equipment vendor. Equipment vendors gain permission from
the carrier to place a collection box on the carrier’s server through which the vendor
receives the intercepted data and subsequently passes the data onto the requesting
law enforcement agency. A law enforcement official stated that his agency leases
access to the carrier’s T-1 line through their vendor at a rate of $750 per month.

       82
           Calculation is based on the assumption it would cost $1,300 per switch for
installation.
       83
          The difference between the two agencies’ percentage of wiretaps
performed on wireless phones was attributed to the types of cases each agency
conducts; in particular, more wirelines are wiretapped in homicide cases than in drug
cases.


                                      - 65 -
Limited Carrier Customer Service

      Several law enforcement officials stated that they received poor
customer service from the carriers, and believe some carrier
employees lack training on initiating and maintaining a CALEA wiretap.
In particular, carriers were criticized for bringing down intercepts by
upgrading their switches in the middle of the night without notifying
law enforcement. In addition, west coast law enforcement officials
stated that carriers do not provide customer service after 5:00 p.m.
EST. One law enforcement official said that many of the carriers’
representatives “have no clue” what law enforcement is talking about
when they call with a problem and that he does not think they care or
are encouraged to care about law enforcement’s problems. Another
law enforcement official offered examples when the carrier’s switches
were able to conduct the intercepts but the carrier’s technician did not
know how to activate the switches. In addition, law enforcement cited
problems with carriers being unable to see the data being sent to law
enforcement's monitors until hours later. Although law enforcement
receives real-time information, the carriers’ service representatives
receive the same data hours later, which hinders the carriers’ service
representatives from providing timely assistance.

       Of the 82 affirmative responses to our survey, law enforcement
officials indicated the following problems with carriers:


                             Carrier Problems Experienced by Law Enforcement


                  Lack Technical Expertise

            Unresponsive to Help Requests                                          FBI
  Problem




                                                                                   DEA
                          Data Not Timely                                          Sheriff/County Police
                                                                                   Police Department
                Data in Unreadable Format                                          Attorneys

                        Unable to Conduct

                                             0    5   10      15    20   25   30
                                                          Times Cited

 Source: Law enforcement responses to the OIG survey




                                                 - 66 -
      Meanwhile a carrier representative told us that most law
enforcement agencies blame the carrier if something goes wrong with
the intercept. The representative stated that when a law enforcement
agency calls with a collection problem, the carrier will deliver the
intercept data to its own collection equipment to determine if any
problems exist with the delivery of the intercept. When the carrier
investigates complaints, about 50 percent of the time it refers the law
enforcement agency to the equipment vendor because the problems
can be traced to a lack of technical expertise of the law enforcement
agency in operating the collection equipment rather than the carrier’s
lack of customer service.

FBI Support of State and Local Law Enforcement

       State and local law enforcement officials indicated that they feel
disconnected and unsupported by the FBI on the issue of electronic
surveillance. These officials believe that the FBI should provide basic
training facilities for law enforcement agents and technical personnel
to receive hands-on training on how to conduct CALEA intercepts.
During our site visits, we met with state and local wireroom technical
agents who were trained as law enforcement officers, but had no prior
electronic surveillance experience. However, they were tasked with
setting up a wireroom for their agencies, which included dealing with
equipment vendors and learning how to conduct electronic
surveillance. We believe that state and local agents’ learning curves
could be reduced dramatically if the FBI provided training. However,
the FBI stated they may be limited by Attorney General Order 1945-95
(see footnote number 60) in the level of assistance and training they
can provide.

       Law enforcement officials who attended the FBI-sponsored Law
Enforcement Technical Forums noted that the number of the forums
has declined over the last few years. Additionally, we were told that
forums have become one-sided with the FBI simply presenting
information, instead of an exchange of ideas between the FBI and law
enforcement. Law enforcement officials also noted that the FBI should
provide an opportunity and venue for vendors to showcase their
equipment and analytical programs. Law enforcement officials further
mentioned they would like a forum to meet with representatives from
the telecommunications carriers in order to voice their concerns. We
discussed with the FBI the possibility of the vendors and carriers
attending the Law Enforcement Technical Forums. However, FBI
officials disagreed with this suggestion, citing security concerns with
vendor and carrier personnel.


                                - 67 -
       Our audit also found that some of the state and local law
enforcement officials we interviewed were unaware of the resources
available to them through the FBI, such as the FBI’s CALEA website or
its help desk. If law enforcement agencies are unaware of the CALEA
website then they are unable to request membership in the Law
Enforcement Technical Forum. Members receive invitations to the Law
Enforcement Technical Forums where law enforcement representatives
can discuss their issues and concerns as well as participate in the
Threat Assessment Surveys.

      Of the 82 affirmative responses to our survey, 42 (51 percent)
law enforcement officials (mostly from the FBI) indicated that their
agency had contacted the FBI’s CALEA Implementation Unit (CIU) or
Engineering Research Facility (ERF) for assistance. 84 All of the
agencies that had contact with the CIU or ERF were satisfied with the
assistance provided. The 42 officials noted that the FBI provided ad
hoc solutions, software, hardware, and training to their respective
agency, as shown in the table below:


                                              Assistance Received from FBI


                       Ad Hoc Solutions
  Type of Assistance




                                                                                  FBI
                              Software                                            DEA
                                                                                  Sheriff/County Police
                             Hardware                                             Police Department
                                                                                  Attorneys

                              Training


                                          0   10         20         30       40
                                                     Times Cited

 Source: Law enforcement responses to the OIG survey




                        84
           After a series of reorganizations, responsibility for CALEA implementation
now rests within the FBI’s Investigative Technology Division (ITD). Within the ITD,
the CIU and ERF are tasked with developing overarching CALEA implementation
strategies and developing ad hoc solutions.


                                                   - 68 -
Conclusion

      Law enforcement officials uniformly believe that electronic
surveillance is a vital investigative tool and that the CALEA features
are extremely beneficial. However, law enforcement agencies are
hindered in their ability to conduct the desired number of wiretaps by
the cost-prohibitive delivery path offered by some carriers as well as
the intercept fees charged by carriers and the costs to set up and
maintain a wireroom. While a carrier may be considered CALEA-
compliant, it is of no use to law enforcement if the agency cannot
afford the delivery path to receive the intercepted data or simply
cannot afford the intercept fees.

       In addition, we found that state and local law enforcement
agencies often do not have the necessary resources to conduct
effective electronic surveillance. As a result, state and local law
enforcement officials we interviewed indicated they often feel
disconnected and unsupported by the FBI, and would benefit greatly
from a closer working relationship with the FBI on these issues.

        Law enforcement officials said they have experienced poor
customer service from some carriers, further complicating their ability
to conduct electronic surveillance. For instance, carriers were
criticized for bringing down intercepts by upgrading their switches in
the middle of the night without notifying law enforcement. In addition,
our survey indicated that law enforcement was not provided the
intercept data in a timely manner and that the some carriers were
unresponsive to requests for assistance.

Recommendations

We recommend that the FBI:

  5. Provide training for state and local law enforcement agents and
     technical personnel on how to conduct CALEA intercepts. In
     conjunction with this recommendation, the FBI should pursue
     legal clarification of Attorney General Order 1945-95 from the
     DOJ.

  6. Improve liaison between law enforcement officials and carrier
     and manufacturer representatives by providing a forum to
     address electronic surveillance issues. This would enhance
     carrier customer service and law enforcement officials’ technical
     knowledge.


                               - 69 -
               STATEMENT ON INTERNAL CONTROLS

      In planning and performing the audit of the Implementation of
the Communications Assistance for Law Enforcement Act by the
Federal Bureau of Investigation, we considered aspects of the FBI’s
internal controls for the purpose of determining our auditing
procedures. This evaluation was not made for the purpose of
providing assurance on the FBI’s internal controls as a whole.

       As discussed in the Findings and Recommendations section of
this report, we believe the FBI can strengthen its internal controls by
reexamining the benefits of activating CALEA solutions on wireline
systems prior to the expenditure of the remaining $45 million in CALEA
funding.

       Because we are not expressing an opinion on the FBI’s internal
controls as a whole, this statement is intended solely for the
information and use of the FBI in managing the CALEA program. This
restriction is not intended to limit the distribution of this report, which
is a matter of public record.




                                 - 70 -
 STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS

      This audit assessed the implementation of CALEA. In connection
with the audit, as required by the standards, we reviewed
management processes and records to obtain reasonable assurance
concerning the FBI’s compliance with laws and regulations that, if not
complied with, in our judgment, could have a material effect on FBI
operations. Compliance with laws and regulations applicable to the
FBI’s management of CALEA is the responsibility of the FBI’s
management.

      Our audit included examining evidence about laws and
regulations. Specifically, we conducted our review against relevant
portions of the Communications Assistance for Law Enforcement Act,
47 U.S.C. § 1001 et. seq.

      Our audit identified no areas where the FBI was not in
compliance with the Communications Assistance for Law Enforcement
Act, 47 U.S.C. § 1001 et. seq.




                              - 71 -
        SCHEDULE OF DOLLAR-RELATED FINDINGS


                                                   AMOUNT             PAGE


Funds Put to Better Use

Amount Remaining in the TCCF                       $45 million             51




        FUNDS PUT TO BETTER USE are future funds that could be used more
efficiently if management took actions to implement and complete audit
recommendations.




                                  - 72 -
                                                         Appendix I

               Objectives, Scope, and Methodology

      Our objectives were to: (1) review CALEA implementation costs
and progress; (2) review the impediments to CALEA implementation,
including the effects of emerging technologies; and (3) determine how
the implementation of CALEA, or lack thereof, has impacted federal,
state, and local law enforcement in their ability to conduct electronic
surveillance. We conducted our audit in accordance with the
Government Auditing Standards and included such tests as were
considered necessary to accomplish our objectives. Our audit covered
the implementation of CALEA since its inception.

       As part of our audit, we obtained an understanding of CALEA and
its history by reviewing the Communications Assistance for Law
Enforcement Act (P.L. 103-414; 47 USC § 1001 et. seq.) and the
major judicial and legislative actions that preceded CALEA including
Berger v. New York, 388 S.Ct. 1873 (1967), Katz v. United States, 88
S.Ct. 507 (1967), and the Electronics Communication Privacy Act.
Additionally, we reviewed the FCC actions related to CALEA including
their Notice of Proposed Rulemaking and Declaratory Ruling (NPRM)
and select comments to the NPRM from interested parties. To assess
the FBI’s strategy for implementing CALEA, we reviewed the FBI’s
Strategic Plan 2004-2009, the CIU’s Program Plan FY 2004-FY 2008
and documentation pertaining to the Right-to-Use software
negotiations.

       We analyzed data provided in the FBI’s Flexible Deployment
Initiatives to assess the FBI’s methodology in estimating CALEA
compliance. In addition, we reviewed the FBI Investigative
Technology Division CALEA Law Enforcement Case Examples, the
Criminal Division’s examples of intercept problems, and the FBI's 2004
Threat Assessment Report, with the corresponding individual survey
responses, to gain an understanding of issues encountered by law
enforcement while conducting electronic surveillance.

      We conducted interviews with various officials from the FBI’s
Investigative Technology Division, including the Deputy Assistant
Director; the Section Chief, Electronic Surveillance Technology
Section; the Unit Chief, CALEA Implementation Unit; and the FBI and
DEA Supervisory Special Agents for CALEA Implementation. We also
conducted interviews with various officials from the DEA, including the
Assistant Administrator, Operational Support Division; the Deputy


                               - 73 -
Assistant Administrator, Office of Investigative Technology; the Chief,
Telecommunication Intercept Support Section; and the
Telecommunication Attorney. In addition, we interviewed a Senior
Counsel to the Assistant Attorney General for the Criminal Division of
the Department of Justice and representatives from the following
organizations:

      • The Center for Democracy and Technology;
      • The FCC;
      • Steptoe & Johnson, LLP;
      • Fiducianet, Inc.;
      • Bell South;
      • Verizon;
      • Qwest;
      • Verizon Wireless;
      • SBC;
      • Sprint;
      • Cingular;
      • Vonage;
      • America Online; and
      • Comcast.

       We interviewed federal, state, and local law enforcement from
five states with switches that were identified as high-priority by the
FBI, and who were provided coverage by a different carrier in each
state. To focus our review on switches with a higher priority, we used
the FBI’s Flexible Deployment III database to identify switches with a
priority score of 80 or higher. The database identified 512 switches
with a priority score of 80 or higher and the switches are located in 18
different states as follows:




                                - 74 -
                              Number of High-
              State                                    Main Carrier
                              Priority Switches
   1   Alaska                          2           ACS Wireless
   2   Arizona                        40           Qwest
   3   California                    116           SBC/Verizon
   4   D.C.                           12           Verizon
   5   Florida                        51           Bell South
   6   Hawaii                          4           Verizon
   7   Illinois                       28           SBC
   8   Indiana                         1           Cingular
   9   Louisiana                       3           Bell South
  10   Maryland                       46           Verizon
  11   Michigan                       26           SBC
  12   Nevada                         11           Sprint
  13   New Jersey                      2           Voice Stream Wireless
  14   New York                       95           Verizon
  15   Ohio                           11           SBC
  16   Pennsylvania                   18           Verizon
  17   Rhode Island                    5           Verizon
  18   Texas                          41           SBC
       TOTAL                         512

      In order to select states that had a significant number of
high-priority switches, and to ensure that we reached the major
carriers, we selected the following five states:

                                    Number of
                                                      Targeted
                      State        High-Priority
                                                       Carrier
                                     Switches
          1    California              116          SBC
          2    New York                 95          Verizon
          3    Florida                  51          Bell South
          4    Arizona                  40          Qwest
          5    Nevada                   11          Sprint
               TOTAL                   313

       We reviewed the listing of switches within each state and visited
the cities that the majority of the switches covered. We conducted
interviews with law enforcement officials from the following agencies:




                                   - 75 -
•   New York
      White Plains
      • New York State Attorney General's Office
      • Westchester County District Attorney's Office
      • U.S. Attorney's Office
      Flushing
      • New York Police Department
      • Suffolk County District Attorney's Office

•   Florida
       Tampa
       • Tampa Police Department
       • Hillsborough County Sheriff's Office
       • State Attorney's Office
       • Florida Department of Law Enforcement
       • FBI
       Miami
       • Broward County Sheriff's Office
       • Miami-Dade Police Department
       • Florida Department of Law Enforcement

•   Arizona
       Phoenix
       • State Attorney General's Office
       • Maricopa County Attorney's Office
       • Phoenix Police Department High Intensity Drug
         Trafficking Areas (HIDTA)
       • U.S. Attorney's Office
       Tucson
       • Pima County Attorney's Office (HIDTA)
       • Tucson Police Department
       • Pima County Sheriff's Department

•   California
      San Diego
      • DEA
      • San Diego District Attorney's Office
      • FBI
      Los Angeles
      • Los Angeles District Attorney's Office
      • DEA
      • Los Angeles Clearinghouse (HIDTA)
      Fresno
      • Central Valley (HIDTA)


                          - 76 -
      •   Nevada
            Las Vegas
            • Las Vegas Metro Police Department
            • State Attorney General's Office
            • FBI

       Based on our interviews with law enforcement from the five
states listed above, we prepared a written survey to mail to a sample
of federal, state, and local law enforcement officials. We obtained the
universe of federal, state, and local law enforcement officials from the
National Law Enforcement Administrators Directory. In selecting our
sample, we did not include law enforcement officials from the states
visited or the six states that do not have a wiretap law (Alabama,
Arkansas, Kentucky, Michigan, Montana, and Vermont). Our universe
of 15,231 federal, state, and local law enforcement agencies included
the following categories:


                     LAW ENFORCEMENT UNIVERSE

  12000
                                                                          10,437
  10000

   8000

   6000

   4000
                                          2,276           2,459
   2000
              44           15
     0
             FBI          DEA            Attorneys   Sheriff & County     Police
                                                          Police        Departments




                                - 77 -
             We selected the following sample which totals 1,396 (9.17
        percent of the universe):


                                     SAMPLE BY CATEGORY

          1000                                                                         922
           900
           800
           700
           600
           500
           400
           300                                                      214
                                                    201
           200
           100       44             15
            0
                 FBI (100%)   DEA (100%)          Attorneys       Sheriff &           Police
                                                  (8.83%)       County Police      Departments
                                                                  (8.75%)            (8.83%)



              Of the 1,396 surveys mailed, we received 723 responses
        (51.79%). An analysis of the responses received is illustrated in the
        following table.

                                    RESPONSE RATES
                                                                                      AFFIRMATIVE
                                         AFFIRMATIVE       NEGATIVE    RESPONSE        RESPONSE
   AGENCY        SAMPLE   RESPONSES      RESPONSES        RESPONSES      RATE            RATE
FBI                44          36            36                0          81.82%         81.82%
DEA                15          9             9                 0          60.00%         60.00%
ATTORNEYS          201         89             2                87         44.28%         1.00%
SHERIFF/CO PD      214        118            11               107         55.14%         5.14%
POLICE DEPT        922        471            24               447         51.08%         2.60%
TOTAL             1396        723            82               641         51.79%         5.87%


              We received responses from 82 agencies from 38 states that
        conduct electronic surveillance. The following table illustrates the
        affirmative responses by state and agency:




                                          - 78 -
                      AFFIRMATIVE RESPONSES
                       BY STATE AND AGENCY
                                             SHERIFF/   POLICE
     STATE    FBI       DEA     ATTORNEYS   CO POLICE    DEPT    TOTAL
1    AK        1                                                   1
2    AL        2                                                   2
3    AR        1                                                   1
4    CO                  1                                1        2
5    D.C.      1         1                                         2
6    GA        1         1                      1                  3
7    HI        1                                                   1
8    IA                                         1         1        2
9    IL        1         1                      1         3        6
10   IN                                         1                  1
11   KS                                                   1        1
12   KY        1                                                   1
13   LA        1                                          1        2
14   MA        1                                                   1
15   MD        1                                                   1
16   MI        1         1                                         2
17   MN        1                                          3        4
18   MO        2         1                                1        4
19   MS        1                                                   1
20   NC        1                                                   1
21   NE        1                                                   1
22   NJ                  1          1                              2
23   NM        1                                                   1
24   OH        1                                2         5        8
25   OK        1                                                   1
26   OR        1                                                   1
27   PA        1         1                                3        5
28   PR        1                                                   1
29   RI                                                   1        1
30   SC        1                                          1        2
31   TN        2                                          3        5
32   TX        3         1                                         4
33   UT        1                                1                  2
34   VA        2                                                   2
35   WA        1                                                   1
36   WI        1                    1           2                  4
37   WV                                         1                  1
38   WY                                         1                  1
     TOTAL     36        9          2          11         24      82
       %     43.90%    10.98%     2.44%      13.41%     29.27%




                                 - 79 -
                                                        Appendix II

          Description of Technology-Based Problems
            Encountered by Law Enforcement

Cellular Port Capacity – Limited capacity of cellular systems to
accommodate a large number of intercepts simultaneously.

Audio Dial Digit Capture – Cellular provider unable to capture dialed
digits contemporaneous with audio.

Long Distance – Cellular provider could not intercept long distance
calls (or provide call setup information) to or from a targeted phone.

Speed Dialing/Voice Dialing/Call Waiting – Provider unable to
deliver the actual number dialed when these features are used.

Call Forwarding – Provider unable to deliver the actual number
dialed when these features are used.

Direct Inward Dial – Provider unable to isolate target’s
communications or provide call set-up information to the exclusion of
all other customers.

Voice Mail – Provider unable to provide access to the subject’s audio
when forwarded to voice mail or retrieve messages.

Digital Centrex – Provider unable to isolate all communications
associated with the target to the exclusion of all others.

Other – Including other calling features such as call back, provider
unable to: provide trap and trace information; isolate the digital
transmissions associated with a target to the exclusion of all other
communications; comprehensively intercept communications, and
provide call set-up information.




                               - 80 -
                                                        Appendix III

                        CALEA Legal Provisions

      This appendix provides a summary breakdown of the CALEA
statute by section.

       47 USCA §1001 (or Sec. 102) – This section describes eight
definitions that apply to CALEA. Two of the definitions have been the
subject of much dispute: information services (#6) and
telecommunications carrier (#8).

        47 USCA §1002 (or Sec. 103) – This section sets up the
requirement that telecommunications carriers ensure that their
equipment, facilities, or services are able to: 1) expeditiously isolate
the content of targeted communications transmitted within the
carrier's service area; (2) expeditiously identify information regarding
the originating and destination numbers of targeted communications,
but, in the case of pen registers or trap and trace devices, not the
physical location of the targets, except as can be determined by the
phone number; (3) provide intercepted communications and call-
identifying information to law enforcement in a format such that they
may be transmitted over lines or facilities leased by law enforcement
to a location away from the carrier's premises; and (4) carry out
intercepts unobtrusively, so targets of electronic surveillance are not
made aware of the interception, and in a manner that does not
compromise the privacy and security of other communications. These
requirements are often referred to as CALEA's "assistance capability
requirements." These requirements however do not apply to
information services or to equipment, facilities, or services used for the
sole purpose of interconnecting telecommunications carriers. This
section also prevents law enforcement from requiring that
telecommunications carriers adopt specific designs of equipment,
facilities, services, or features; and prevents law enforcement from
prohibiting the telecommunications industry to adopt any equipment,
facilities, services, or features it wants to.

      47 USCA §1003 (or Sec. 104) – This section required the
Attorney General to publish a notice in the Federal Register by
October 25, 1995, describing the number of communication intercepts,
pen registers, and trap and trace devices, that the government
estimated it may conduct and use simultaneously by October 25,
1998, and a notice describing the maximum capacity needed to
accommodate all of the communication intercepts, pen registers, and


                                - 81 -
trap and trace devices the government could conduct and use
simultaneously after October 25, 1994. This section also required
telecommunications carriers, by October 25, 1998 at the latest, to
ensure that its systems were capable of simultaneously
accommodating the number of intercepts, pen registers, and trap and
trace devices estimated by the government, and capable of expanding
to the maximum capacity needed by the government.

      47 USCA §1004 (or Sec. 105) – This section requires that
telecommunications carriers ensure that only their employees can
activate intercepts, and not employees of the government agency
seeking the electronic surveillance.

       47 USCA §1005 (or Sec. 106) – This section requires
telecommunications carriers to consult with telecommunications
manufacturers and support service providers to ensure that current
and planned equipment, facilities, and services comply with the
assistance capability requirements described in Sec. 103. In addition,
the section requires manufacturers and support service providers to
offer the features or modifications needed for the carriers to comply
with the assistance capability requirements in a reasonable amount of
time and at a reasonable charge.

       47 USCA §1006 (or Sec. 107) – This section establishes a
"safe harbor" provision which allows telecommunications carriers to be
found in compliance with the assistance capability requirements if they
are in compliance with "publicly available technical requirements or
standards adopted by an industry association or standard-setting
organization," or with standards developed by the FCC. The FCC can
develop its own standards through its rule-making process if the
industry associations or standard-setting organizations fail to issue
their own standards or if another party petitions the FCC that the
industry-developed standards are deficient. This section also allows
telecommunications carriers to petition the FCC for extensions of up to
two years maximum for complying with the assistance capability
requirements if the FCC, after consultation with the Attorney General,
determines that compliance with the assistance capability
requirements is not reasonably achievable through the use of available
technology.

      47 USCA §1007 (or Sec. 108) – This section describes the
findings a court must make to order a non-compliant carrier to meet
the requirements of CALEA. Specifically, the court must find that:
(1) law enforcement has no reasonably available alternative for


                               - 82 -
implementing the order through other technologies or through another
carrier or service provider, and (2) compliance with CALEA is
reasonably achievable through the application of available technology
to the equipment, facility, or service at issue or would have been
reasonably achievable if timely action had been taken. This section
also references the CALEA enforcement powers described in 18 USC §
2522.

      47 USCA §1008 (or Sec. 109) – This section describes when
telecommunications carriers can receive reimbursement for
modifications made to equipment, facilities, and services as a direct
result of complying with CALEA. The Attorney General may agree to
pay for all reasonable costs associated with bringing pre-1995
equipment, facilities, and services into compliance. For post-1995
items, the FCC will determine, upon petition, whether compliance with
the assistance capability requirements is reasonably achievable. If the
FCC finds that compliance is not reasonably achievable, the Attorney
General may, upon petition of the carrier, agree to pay the carrier to
make the modifications in order to make compliance reasonably
achievable. If the Attorney General does not agree to pay these costs,
the carrier will be deemed in compliance with the capability
requirements. This section also requires the Attorney General to
develop regulations for ensuring timely and cost-efficient payments to
carriers.

     47 USCA §1009 (or Sec. 110) – This section authorized an
appropriation of $500 million to carry out CALEA for FYs 1995, 1996,
1997, and 1998. Such sums are authorized to remain available until
expended.

      47 USCA §1010 (or Sec. 112) – This section established the
requirement that the Attorney General submit a report to Congress by
November 30th of each year describing the amounts paid to
telecommunications carriers under Sections 1003 and 1008 during the
preceding fiscal year. This section also requires the Department of
Justice, Office of the Inspector General to submit a report to Congress
every two years that addresses certain issues.




                               - 83 -
                                                         Appendix IV

               Federal Communications Commission
                    Actions Related to CALEA

October 2, 1997
Notice of Proposed Rulemaking
      This notice of proposed rulemaking proposes and seeks comment
on rules that the FCC should adopt to implement CALEA, and
requested interested third parties to submit proposed rules to
implement CALEA.

April 20, 1998
Public Notice
       The purpose of this Public Notice was to solicit comments on six
petitions:

      • On March 26, 1998, the Center for Democracy and
          Technology files a petition for rulemaking, requesting the FCC
          intervene in the implementation of CALEA. The Center for
          Democracy and Technology contends that the interim industry
          standard goes too far in enhancing location tracking
          capabilities and fails to protect the privacy of packet-switched
          communications, and that additional surveillance
          enhancements being sought by the FBI are not required
          under CALEA and would further render the industry standard
          deficient. The Center for Democracy and Technology also
          states that compliance with the industry standard is not
          reasonably achievable and requests that the FCC indefinitely
          delay implementation of CALEA while a more narrowly
          focused standard consistent with the intent of CALEA is
          developed.

      •   On March 27, 1998, FBI and DOJ jointly file a petition for
          expedited rulemaking, asking the FCC to correct deficiencies
          in the industry standard by establishing additional technical
          requirements and standards that meet the requirements of
          CALEA. DOJ and FBI claim that the interim standard adopted
          by the telecommunications industry is deficient because:
          (1) it does not ensure that law enforcement will be able to
          receive all of the communications content and call-identifying
          information that carriers are obligated to deliver under
          CALEA; and (2) it fails to ensure that information will be


                                 - 84 -
    delivered in a timely manner. DOJ and FBI set forth, as a
    proposed rule, the features they believe should be added to
    the interim standard to correct its deficiencies.

•   On April 2, 1998, TIA files a petition for rulemaking, asking
    the FCC to resolve the dispute as to whether the industry
    standard is over-inclusive or under-inclusive and to provide
    guidance to telecommunications equipment manufacturers.
    TIA requests that the FCC: (1) immediately announce
    suspension of enforcement of CALEA until the FCC issues its
    final determination; (2) establish, at the beginning of the
    rulemaking, a reasonable compliance schedule of at least 24
    months to implement the FCC’s final decision; (3) undertake
    an expedited schedule for addressing the issues; and
    (4) remand any further technical standardization work to the
    TIA subcommittee that issued the interim industry standard.

•   On March 30, 1998, AT&T Wireless Services, Lucent
    Technologies, and Ericsson file a petition seeking an extension
    of CALEA’s October 25, 1998, compliance date until at least
    October 24, 2000. The parties contend that an extension is
    necessary because CALEA-compliant hardware and software
    would not be available within the compliance period. The
    parties further state that developing an industry solution in
    the face of the unstable industry standard would expose the
    vendors to potentially enormous expense of money and
    engineering resources because any modification to the
    existing industry standard could require significant changes in
    Lucent’s or Ericsson’s individual CALEA solution.

•   On a related matter, on July 16, 1997, the Cellular
    Telecommunications Industry Association (CTIA) submits a
    petition for rulemaking requesting the FCC establish
    standards to implement the assistance capability
    requirements of CALEA. CTIA contends that the industry
    standard-setting process is at an impasse between industry
    and law enforcement over capabilities that should be included
    in a standard.




                          - 85 -
      •   On March 27, 1998, the FBI and DOJ file a joint motion
          requesting the FCC to dismiss CTIA’s petition on the grounds
          that the adoption of the interim industry standard now
          renders the CTIA petition moot and that the joint petition filed
          by the FBI and DOJ supersedes it in terms of relevancy and
          accuracy.

September 10, 1998
Memorandum Opinion and Order
      The FCC grants a blanket extension for compliance with CALEA
to June 30, 2000, based on the determination that compliance with the
assistance capability requirements is not reasonable for
telecommunications carriers because of the lack of equipment for
meeting the requirements.

October 22, 1998
Further Notice of Proposed Rulemaking
      The FCC addresses deficiencies in industry-developed technical
requirements for wireline, cellular, and broadband Personal
Communications Services (PCS) carriers to comply with CALEA’s
assistance capability requirements. The FCC is petitioned to establish
the capability requirement by rule because of the differences between
the industry’s interim standard and law enforcement’s punchlist. The
FBI’s objections to the industry-developed standards center on a list of
technical capabilities that it contends are necessary to meet CALEA’s
requirements, but that were not included in the industry interim
standard. In this Further Notice of Proposed Rulemaking, the FCC
tentatively concludes that six punchlist items are technical
requirements that fall within the scope of terms defined under CALEA’s
assistance capability requirements.

January 29, 1999
Report and Order
       On October 10, 1997, the FCC releases an NPRM focusing on the
specific responsibilities imposed upon the FCC to implement certain
sections of CALEA. Since that time, the FCC has addressed two very
significant CALEA implementation issues by granting a blanket
extension of CALEA’s October 25, 1998, compliance deadline for all
telecommunications carriers until June 30, 2000, and by initiating a
Further NPRM to resolve the dispute regarding the industry’s interim
standard. In this order, the FCC establishes the systems security and
integrity regulations that telecommunications carriers must follow to
comply with CALEA. The FCC concludes that telecommunications


                                 - 86 -
carriers must ensure that “any interception of communications or
access to call-identifying information affected within its switching
premises can be activated only in accordance with a court order or
other lawful authorization and with the affirmative intervention of an
individual officer or employee of the carrier.”

February 26, 1999
Order
      The FCC approves requests for confidential treatment of specific
cost estimates filed by five telecommunications equipment
manufacturers on December 14, 1998, in response to the Further
NPRM. Manufacturers, Alcatel, Lucent, Motorola, Nortel Networks, and
Siemens, previously had filed specific cost data with a request that the
data be treated as confidential material.

       In that Notice, the FCC strongly encourages commenters to
provide it with information as detailed and specific as possible
regarding the costs of adding a feature to a telecommunications
carrier’s network and what, if any, impact such costs will have on
residential ratepayers. Commenters are to consider the costs to
manufacturers in developing the equipment or software needed to
implement the technical requirement, as well as the cost to carriers to
install and deploy such equipment. Commenters are to be specific as
to which entities would incur the cost of adding particular features;
e.g., manufacturers, local exchange carriers, interexchange carriers, or
commercial mobile radio service providers. Commenters are also to
be specific as to what costs would be incurred for hardware, as
opposed to software upgrades to carriers’ networks, and whether some
of these upgrades would have other uses in the networks. If costs are
likely to be passed on to residential ratepayers, those costs are to be
identified, as well as specific mechanisms that could be used to
minimize such costs.

May 7, 1999
Public Notice
     The FCC requests comment on aggregated revenue estimates
prepared by the FCC from confidential carrier submissions for
compliance with CALEA:




                               - 87 -
                                               Estimated 85
                                                 Wireless              Wireline
                       Total Revenue 86         Revenues              Revenues
     Capability          ($millions)           ($millions)           ($millions)
J-STD-025             $916                  $348                  $569
Subject-initiated
conference calls      $37                   $15                   $22
Party hold, join,
drop messages         $64                   $42                   $22
Subject-initiated
dialing and
signaling             $35                   $27                   $8
In-band and out-
of-band signaling     $57                   $30                   $27
Timing Information
                      $20                   $13                   $8
Surveillance status
messages              $37                   $24                   $13
Continuity check
tones                 $3                    $3                    $0
Feature status
messages              $40                   $19                   $21
Dialed digit
extraction            $121                  $60                   $60
Total Punchlist       $414                  $234                  $180

July 16, 1999
Order on Reconsideration
      In the January 29, 1999, Report and Order, the FCC sets forth
carrier recordkeeping requirements concerning interceptions, and
establishes record retention periods of 10 years for call-identifying
information and unauthorized interceptions, including the content of
such interceptions, and a carrier-determined “reasonable” period for
the call content of authorized interceptions.




       85
           Sums in the table may not add to totals due to rounding. Also, the total
punchlist figures include $500,000 in estimated wireless revenues that cannot be
attributed to any individual punchlist capability.

       86
          Revenues are the prices the manufacturers plan to charge multiplied by
the quantities they anticipate selling, and may include profits. Some of the
manufacturers supplied price and quantity data, thus enabling revenues to be
calculated, while others supplied revenue data directly. None of the manufacturers
supplied profit data.


                                     - 88 -
       After the release of the Order and prior to publication of the
rules in the Federal Register, the FCC receives letters from CTIA and
AirTouch stating that the new rules erroneously require carriers to
retain records of call-identifying information and unauthorized
interceptions, including the content of such interceptions, and also
erroneously required carriers to retain records of content of authorized
interceptions.

       Subsequently, the FBI sends the FCC a letter supporting the
position taken by CTIA and AirTouch on this issue, stating that those
requirements are not mandated by CALEA, and that, in some respects,
compliance with the requirements could cause a carrier to violate
federal electronic surveillance laws since those laws do not require or
entitle carriers to acquire and retain such information, but merely
direct them, according to lawful court orders and other authorizations,
to provide the technical assistance necessary to aid law enforcement in
making intercepts.

      Therefore, the FCC rules that carriers should not retain the
content or call-identifying information of any intercepts and that
carriers only need retain a certification of the intercept for a
reasonable period of time, rather than for 10 years.

August 26, 1999
Second Report and Order
       The FCC addresses the definition of “telecommunications carrier”
set forth in Section 102 of CALEA that determined which entities and
services are subject to the assistance capability and other
requirements of CALEA. After considering the definition set forth in
CALEA and the relevant legislative history, the FCC discusses how the
definition applies to various types of service providers. Further, the
FCC provides guidance regarding the factors it will consider in making
determinations under Section 109 of CALEA. The guidance looks at
whether compliance with CALEA’s assistance capability requirements is
reasonably achievable for particular carriers, and the showings it
expects entities to make when filing petitions under Section 109.




                               - 89 -
August 26, 1999
Third Report and Order
      The FCC adopts technical requirements for wireline, cellular, and
broadband Personal Communications Services (PCS) carriers to comply
with CALEA’s assistance capability requirements. Specifically, the FCC
requires that all capabilities of J-STD-025 (interim standard) and six of
the nine punchlist capabilities requested by DOJ and the FBI be
implemented by wireline, cellular, and broadband PCS carriers. While
the FCC also requires that a packet-mode capability be implemented
by such carriers, it does not adopt technical requirements for packet-
mode communications, but permits packet-mode data to be delivered
to law enforcement under the interim standard pending further study
of packet-mode communications by the telecommunications industry.

June 30, 2000
Public Notice
       The FCC requests public comments on petitions from carriers
seeking deadline extensions for complying with CALEA. According to
the Public Notice, most of the petitioners satisfy the requirements set
out in the CALEA Public Notices for a preliminary determination that
their circumstances warrant an extension of the compliance deadline.
Accordingly, those petitioners are deemed to have an extension of the
deadline for complying with CALEA Section 103 until March 31, 2001.

November 20, 2000
Public Notice
      The FCC requests public comments on petitions from additional
carriers, who were not covered by the June 30, 2000, Public Notice,
seeking deadline extensions for complying with CALEA. According to
the Public Notice, the petitioners satisfy the requirements set out in
the CALEA Public Notices for a preliminary determination that their
circumstances warrant an extension of the compliance deadline.
Accordingly, the petitioners are deemed to have an extension of the
deadline for complying with CALEA Section 103 until March 31, 2001.




                                - 90 -
February 22, 2001
Public Notice
      The FCC requests public comments on petitions from more
carriers seeking deadline extensions for complying with CALEA.
According to this Public Notice, on November 20, 2000, preliminary
extensions for complying with CALEA are granted to about 1,000
carriers until March 31, 2001.

       In this Public Notice, the FCC finds that additional carriers have
satisfied the requirements warranting an extension of the compliance
deadline. The FCC concludes that a carrier’s participation in the FBI’s
Flexible Deployment Initiatives enables the FCC to satisfy its statutory
obligation to consult with the FBI, and assists the FCC in determining
whether an extension is warranted and the length of any extensions of
the compliance deadline. Therefore, the March 31, 2001 deadline is
further extended until June 30, 2001.

March 15, 2001
Public Notice
      Pursuant to a recommendation from the FBI and a letter in
support filed by the CITA, the FCC extends the preliminary
determination period for wireless carriers seeking extensions of the
deadline for complying with CALEA from March 31, 2001, to
September 30, 2001.

April 9, 2001
Second Order on Reconsideration
      This Order resolves two petitions for reconsideration of the
January 29, 1999, Report and Order and the August 26, 1999, Second
Report and Order. The FCC declines to make most of the proposed
changes, but does adopt minor changes to its CALEA rules regarding
recordkeeping and points of contact.

May 31, 2001
Public Notice
       The FCC requests public comments on more petitions from
wireline carriers seeking deadline extensions for complying with
CALEA. The FCC has previously granted extensions from
March 31, 2001, to June 30, 2001, for these wireline carriers and the
carriers requesting extensions in the Public Notices from
November 20, 2000, and February 22, 2001.




                                - 91 -
June 22, 2001
Public Notice
       The FCC requests public comments on wireline carriers’s
petitions seeking extensions for complying with CALEA. The FCC has
previously granted extensions from June 30, 2001, to
September 30, 2001, for the wireline carriers requesting extensions in
the Public Notices from November 20, 2001, February 22, 2001, and
March 15, 2001.

August 14, 2001
Order
      Approximately 700 wireline carriers are granted extensions of
the deadline for complying with the CALEA assistance capability
requirements. The FCC finds that compliance with the assistance
capability requirements is not reasonably achievable.

       In January 2000, the FBI establishes a Flexible Deployment
Initiative to assist telecommunications carriers in meeting certain
requirements of CALEA. In its Flexible Deployment Assistance Guide,
the FBI requests that carriers voluntarily submit certain information,
and explains under what circumstances, based on a review of that
information, the FBI might support a carrier’s petition for an extension
filed with the FCC.

       A carrier’s participation in the FBI’s Flexible Deployment
Initiative enables the FCC to satisfy its statutory obligation to consult
with the FBI, and assists the FCC, both in determining whether an
extension of the compliance deadline and the length of any extension
are warranted. Under the initiative’s procedures, the FBI, among
other things, independently reviews each carrier’s extension request in
light of the CALEA priorities of law enforcement agencies. If, after
reviewing the information, the carrier and the FBI are able to arrive at
a mutually agreeable CALEA deployment schedule, the FBI issues a
letter of support stating whether the FBI supports an extension
request and, if so, the length of such extension. Each carrier covered
by this order participates in the FBI’s Flexible Deployment Initiative
and receives a letter of support.




                                - 92 -
September 18, 2001
Order
       The FCC temporarily suspends the September 30, 2001,
compliance date for wireline, cellular, and broadband PCS carriers to
implement two punchlist electronic surveillance capabilities mandated
by the Third Report and Order dated August 26, 1999. In that Order,
the FCC required that wireline, cellular, and broadband PCS carriers
implement all electronic surveillance capabilities of the industry interim
standard, J-STD-025 – including two contested features of the interim
standard, i.e., a packet-mode communications capability and a
location information requirement – and six of nine additional
capabilities requested by the FBI, known as the punchlist capabilities.

       The FCC notes that the U.S. Court of Appeals for the District of
Columbia Circuit has vacated and remanded four of the six punchlist
capabilities because the FCC failed to explain its decision-making
process in the Order. In addition, it states that there is broad
agreement among industry and law enforcement to suspend the
September 30, 2001, compliance deadline for two unchallenged
punchlist capabilities, pending final action by the FCC on what
punchlist capabilities will be required. The FCC agrees with the
majority of commenters that retaining the deadline for two of the
punchlist capabilities prior to determining the disposition of the four
punchlist capabilities vacated by the court could result in major
inefficiencies for carriers. The FCC states that it will establish a new
compliance date for all required punchlist capabilities of no later than
June 30, 2002.

       The FCC also states that it found no need to extend the
September 30, 2001, compliance deadline for packet-mode
communications in a blanket manner. The FCC finds that
implementation of this capability is unrelated to the implementation of
the punchlist capabilities, and that only a small percentage of
telecommunications carriers use packet-mode technology.
Nonetheless, the FCC decides, due to the imminence of the
September 30, 2001 deadline, to give carriers a brief period of time to
upgrade their systems to incorporate the packet-mode capability or to
avail themselves of established petition procedures for individual relief
under Section 107 of CALEA.




                                - 93 -
September 27, 2001
Order
      This Order provides an extension of the deadline date, or the
preliminary extension period, as applicable, to December 31, 2001, for
the carriers listed in the August 14, 2001, Order to comply with the
assistance capability requirements based on the FCC’s determination
that compliance was not reasonably achievable through application of
technology available.

September 28, 2001
Public Notice
      This Public Notice provides an explanation of the petitioning
process for carriers seeking an extension of the CALEA compliance
deadline with respect to packet-mode communications by the
November 19, 2001, deadline.

February 28, 2002
Order
      This Order provides an extension of the deadline date, or the
preliminary extension period, as applicable, to March 31, 2002, for the
carriers listed in the Appendices of the Order to comply with the
assistance capability requirements. The FCC determines that
compliance was not reasonably achievable through application of
available technology.

April 5, 2002
Order on Remand
      The FCC responds to a decision issued by the U.S. Court of
Appeals for the D.C. Circuit that vacated four punchlist electronic
surveillance capabilities mandated by the Third Report and Order. The
FCC determines that the four punchlist capabilities were authorized by
CALEA and must be provided by wireline, cellular, and broadband PCS
telecommunications carriers, along with the two non-disputed
punchlist capabilities by June 30, 2002.




                               - 94 -
February 12, 2004
Memorandum Opinion and Order
      The FCC rules, based on a petition of Pulver.com, that
Pulver.com’s Free World Dialup (FWD) (a broadband Internet service
allowing worldwide users to communicate with one another through
video or text), is an information service under CALEA, rather than a
telecommunications carrier. Through FWD, Pulver offers users of
broadband Internet access services the opportunity to join other such
users in becoming members of the FWD community in order to
communicate directly with one another over the Internet.

August 4, 2004
Notice of Proposed Rulemaking and Declaratory Ruling
       In response to DOJ’s Joint Petition, the FCC tentatively concludes
that: (1) Congress intended the scope of CALEA’s definition of
“telecommunications carrier” to be more inclusive than that of the
Communications Act; (2) facilities-based providers of any type of
broadband Internet access service, whether provided on a wholesale
or retail basis, are subject to CALEA; (3) “managed” VoIP services are
subject to CALEA; (4) the phrase in CALEA stating “a replacement for
a substantial portion of the local telephone exchange service” calls for
assessing the replacement of any portion of an individual subscriber’s
functionality previously provided via “plain old telephone service;” and
(5) call-identifying information in packet networks is “reasonably
available” under CALEA if the information is accessible without
“significantly modifying a network.” The FCC requests comments on:
(1) the feasibility of carriers relying on a trusted third party to manage
their CALEA obligations and to provide law enforcement agencies the
electronic surveillance information they require in an acceptable
format; and (2) whether standards for packet technologies are
deficient and should not serve as safe harbors for complying with
Section 103 capability requirements.

       The FCC also proposes mechanisms to ensure that
telecommunications carriers comply with CALEA by restricting the
availability of compliance extensions under CALEA Section 107 and
clarifying the scope of CALEA Section 109, which addressed the cost
payments to carriers to comply with CALEA capability requirements.

      The FCC also discusses whether, in addition to the enforcement
remedies made through the courts that are available to law
enforcement agencies under CALEA Section 108, the FCC may take
separate enforcement action against carriers that fail to comply with
CALEA. The FCC tentatively concludes that carriers are responsible for


                                - 95 -
CALEA development and implementation costs for
post-January 1, 1995, equipment and facilities; seeks comment on
cost-recovery issues for wireline, wireless and other carriers; and
refers to the Federal-State Separations Joint Board cost-recovery
issues for carriers subject to Title III of the Communications Act. In
the Declaratory Ruling, the FCC clarifies that commercial wireless
“push-to-talk” service continues to be subject to CALEA, regardless of
the technologies that Commercial Mobile Radio Service providers
choose to apply in offering them.

August 5, 2005
First Report and Order and Further Notice of Proposed
Rulemaking
      In response to the DOJ’s March 2004 Joint Petition, the FCC
concludes that CALEA applies to facilities-based broadband Internet
access providers and providers of interconnected VoIP service. The
FCC will release another Order that addresses the assistance
capabilities required of the providers covered by this Order,
compliance extensions and exemptions, cost recovery, identification of
future services and entities subject to CALEA, and enforcement. The
FCC states that it is taking a two-step approach to focus debate on the
implementation rather than the applicability of CALEA to providers of
broadband Internet access services and VoIP services. By clarifying
the applicability of CALEA to these providers now, the FCC can enable
them to begin planning to incorporate CALEA compliance into their
operations. This will also ensure that the appropriate parties become
involved in ongoing discussions among the FCC, law enforcement, and
telecommunications industry representatives to develop standards for
CALEA capabilities and compliance.

       In this Further Notice, the FCC seeks comment on two aspects of
the conclusions it reached in the Order. First, with respect to
interconnected VoIP, the FCC seeks comment on whether it should
extend CALEA obligations to providers of other types of VoIP services.
Second, some commenters argued that certain classes of facilities-
based broadband Internet access providers – notably small and rural
providers and providers of broadband networks for educational and
research institutions – should be exempt from CALEA. The FCC does
not reach conclusion in this Order on these issues because it believes
that additional information is necessary. In this Further Notice, the
FCC seeks comment on the appropriateness of requiring something
less than full CALEA compliance for certain classes or categories of
providers, as well as the best way to impose different compliance
standards.


                               - 96 -
                                                         Appendix V

                      PRIOR OIG REPORTS

      In March 1998, the OIG reported that the FBI and the
telecommunications industry disagreed over what capabilities had to
be provided for a carrier to be CALEA-compliant and eligible for
reimbursement (see OIG Report No. 98-13). At that time, the carriers
had not modified any equipment pursuant to CALEA, and the FBI had
not made any payments to the carriers.

       In March 2000, the OIG reported that the FBI had begun
negotiations with carrier and manufacturer representatives to
determine the most appropriate way to arrange for carriers to meet
the assistance capability requirements (see OIG Report No. 00-10).
The OIG reported that the FBI had entered into RTU license
agreements with a manufacturer (Nortel) and certain carriers to permit
all carriers who were using specified Nortel equipment, the use of the
CALEA software solutions developed by Nortel. The FBI negotiated a
price of $101.8 million for carrier purchase of these RTU software
licenses, with payments made to Nortel on behalf of all carriers who
used the Nortel equipment specified in the agreement.

       In March 2002, the OIG reported that the FBI had paid or
obligated about $400 million for carrier purchases of the RTU software
licenses to: Lucent Technologies - $170 million, Nortel - $102 million,
Motorola - $55 million, Siemens AG - $40 million, and AG
Communications - $30 million (see OIG Report No. 02-14). The OIG
also reported that the FBI had not entered into any agreements to
reimburse carriers for activation of the software developed under the
RTU agreements. At that time, the FBI estimated that for each
additional $100 million in funding, capability solutions could be
deployed in at least 25 percent of the locations prioritized by the FBI.
The FBI had previously identified carrier equipment locations with high
electronic surveillance activity and determined these to be priority
locations for the deployment of the electronic surveillance standards.

     In April 2004, the OIG reported that after more than nine years
and nearly $450 million in payments or obligations, deployment of
CALEA technical solutions for electronic surveillance remained delayed.
The FBI did not collect and maintain data on carrier equipment that
was CALEA-compliant. Nevertheless, FBI personnel estimated that
CALEA-compliant software had been activated on approximately 50


                               - 97 -
percent of pre-January 1, 1995, and 90 percent of post-January 1,
1995, wireless equipment. In addition, according to FBI estimates,
CALEA-compliant software had been activated on only 10 to 20
percent of wireline equipment.

      FBI personnel advised us that law enforcement agencies were
unable to properly conduct electronic surveillance on equipment for
which the CALEA-compliant software had not been activated.
However, the FBI was unable to demonstrate the extent to which
lawful electronic surveillance had been adversely impacted by the lack
of CALEA implementation. The OIG concluded that it was critical that
the FBI collect data on carrier compliance and the impact of
non-compliance on enforcement to determine the extent to which
electronic surveillance was being compromised.

      The OIG also reported that although the FBI had made about
$450 million in payments and obligations to equipment manufacturers
for RTU licenses, except for a one-time payment of $2.2 million, the
FBI had not yet made any payments from CALEA funds to
telecommunications carriers for activation of CALEA-compliant
software. 87 Furthermore, cost estimates from the FBI suggested that
the current funding level of $500 million for CALEA was insufficient. In
December 2003, the FBI estimated that about $204 million in
additional funds might be required; however, because cost estimates
for CALEA implementation varied widely, and technological change
continued to occur at a rapid pace the OIG was skeptical of the
accuracy of the FBI’s estimates or whether CALEA’s implementation
cost could be determined with any specificity.




      87
          The FBI entered into a $6.2 million agreement with Qwest to ensure that
its network in Salt Lake City was CALEA-compliant for the 2002 Winter Olympics. Of
this amount, $4 million came from FBI Counterterrorism funds and $2.2 million came
from CALEA funding.


                                    - 98 -
                                                         Appendix VI

          Unsuccessful Proposed CALEA Amendments

March 1998
H.R. 3321
        This measure, in its original form, would have drastically altered
CALEA by expanding the reimbursement pool of eligible equipment,
facilities, and services by changing the January 1, 1995, cut-off date to
October 1, 2000, and by defining “deployed” as “available anywhere in
the telecommunications industry.” The legislation would have also
extended reimbursement eligibility indefinitely for some equipment,
facilities, and services by defining the term “significantly upgraded or
otherwise undergoes major modification” so narrowly that many
carriers would not perform modifications that qualify for years to
come.

April 1998
Proposed Amendment to the House Judiciary Committee
      In April 1998, an amendment was proposed to the House
Judiciary Committee to change certain aspects of CALEA. The
amendment, very similar in language to H.R. 3321, was withdrawn
following dialogue with the Chair of the House Judiciary Committee’s
Subcommittee on Crime. According to the FBI, the dialogue led to the
committee agreeing that they needed to do more than change CALEA
dates. The committee agreed to a “comprehensive reform of CALEA.”

June 1998
H.R. 3303
      In June 1998, the Chairman of the House Judiciary Committee
introduced an amendment to change the two dates specified in CALEA.
The amendment was passed by the Full House of Representatives. As
part of the Department of Justice’s Appropriations Authorization Bill,
H.R. 3303 would have extended the October 25, 1998, capability
compliance deadline to October 1, 2000. It would also have extended
the January 1, 1995, financial demarcation date to October 1, 2000.

July 1999
H.R. 916
      In July 1999, the House of Representatives passed H.R. 916.
The bill would have drastically altered many of the provisions of CALEA
under the guise that it was introduced to make technical amendments
to Section 10 of Title 9 of the U.S. Code and “for other purposes.”



                                - 99 -
H.R. 916 would have amended CALEA by adding separate definitions of
the terms “installed” and “deployed” that incorporate the phrase
“commercially available anywhere” with no consideration to whether a
specific piece of equipment is in use and providing service. H.R. 916
also added a definition of the term “significantly upgraded or otherwise
undergoes a major modification” to apply to a carrier’s entire network
and not to specific pieces of equipment such as switches. H.R. 916
eliminated CALEA’s Section 107 (a)(3) in its entirety. Section
107(a)(3) is the only provision within CALEA that mandates industry
comply with the obligations of CALEA “in the absence of technical
standards.” Absent this provision, industry has no incentive to develop
technical standards. H.R. 916 would have moved the reimbursement
eligibility date from January 1, 1995, forward to June 30, 2000.

April 2004
VoIP Regulatory Freedom Act of 2004 (S. 2281)
       The overarching aim of S. 2281 was to significantly reduce the
regulatory burden that may otherwise have been imposed on voice
communications employing this technology. The bill preempted the
states from regulating the service. Importantly, S. 2281 addressed
law enforcement access to VoIP applications. However, the bill only
mandated law enforcement’s access to information be “not less than
that required of information service providers.” The bill also stated
that information service providers are explicitly exempt from the
requirements of CALEA, and therefore do not have any affirmative
obligation to design into their services the capabilities law enforcement
needs to conduct electronic surveillance. According to the FBI, with no
inherent electronic surveillance capability, all levels of law enforcement
would have been placed in the position of expending incalculable
resources, or foregoing the use of electronic surveillance, in any
investigation involving VoIP services.




                               - 100 -
                                                     Appendix VII

               Summary of Comments to the
              Notice of Proposed Rulemaking

Department of Justice

     •   The FCC should conclude that CALEA is applicable to
         providers of broadband Internet access service and certain
         types of VoIP because it serves the public interest and is
         consistent with Congress’s intent.

     •   Most commenters do not favor any special legal status for
         TTP solution vendors. Telecommunications vendors must
         remain fully involved in designing CALEA solutions for their
         telecommunications carrier customers. TTPs should not be
         used to determine whether call-identifying information is
         reasonably available. TTP solutions are not comparable to
         safe-harbor solutions. TTPs should not be used to shift
         financial responsibilities from carriers to law enforcement.
         Special security and privacy safeguards are needed for TTPs.

     •   The FCC was correct in concluding that Section 107(c)
         extensions are not available to cover equipment, facilities,
         or services installed or deployed after October 25, 1998.

     •   There is a broad consensus among commenting parties that
         the FCC has the authority to impose CALEA compliance
         deadlines.

     •   The FCC has the authority to adopt and enforce CALEA rules
         under Section 229 of the Communications Act.

     •   The comments filed in this proceeding demonstrate that
         specific rules regarding carrier responsibility for CALEA
         development and implementation costs for post-January 1,
         1995, equipment and facilities are needed to ensure
         compliance.

     •   The FCC should consider all viable proposals for carrier
         recovery of CALEA development and implementation costs,
         but should not adopt any proposal that would permit
         carriers to recover such costs from law enforcement.



                             - 101 -
    •     Without adequate evidence of the scope of CALEA costs, the
          FCC should not allow carriers to continue to use cost as an
          excuse for non-compliance with CALEA.

    •     The information provided by commenters shows that CALEA
          compliance costs are manageable.

    •     Carriers should not be allowed to use lack of government
          funding as an excuse for non-compliance with CALEA.

    •     The comments filed in this proceeding make clear that the
          FCC must distinguish between CALEA implementation costs
          and CALEA intercept costs.

Verizon

    •     The FCC should affirm its tentative conclusion that whether
          CALEA applies to a particular service is independent of how
          such a service is classified for regulatory purposes under
          Title I or Title II of the Communications Act. Any approach
          that attempted to read the two statutes in parallel would
          contradict the plain language of CALEA by ignoring the
          “substantial replacement” provision of its definition of
          “telecommunications carrier” and would undermine the
          statute’s purposes.

    •     The FCC should affirm its tentative conclusion that VoIP
          services fall within the substantial replacement provision of
          CALEA because they can be used to make voice phone calls
          that have traditionally been provided using local telephone
          exchange service.

    •     The FCC should not adopt its proposed “managed v. non-
          managed” test for determining which specific VoIP services
          are subject to CALEA. Instead, it should adopt a test by
          which any VoIP provider that uses equipment such as
          application servers, media gateways, or networks falls
          within CALEA, regardless of whether the service may be
          labeled as “non-managed” or “peer to peer.”

    •     The FCC should make clear that any CALEA obligations fall
          equally on all competing providers of broadband access
          services.



                              - 102 -
     •   The FCC should reaffirm the admonition in CALEA’s
         legislative history that CALEA was not intended to provide
         “one stop shopping” for law enforcement and that, to the
         extent broadband access service providers are subject to
         CALEA, in many cases the underlying network provider will
         not be the entity responsible for providing law enforcement
         with the relevant call-identifying information or content.

     •   The FCC should affirm its tentative conclusion not to require
         any “pre-approval” process. The FCC should also reject
         DOJ’s proposed procedures and requirements for seeking
         CALEA rulings in advance of deploying new services, as well
         as its suggestion that carriers that do not employ such
         procedures will face more vigorous enforcement.

     •   The FCC should resolve technical issues relating to call-
         identifying information in the standards process instead of
         this proceeding and it should not require any carrier to use a
         “trusted third party” approach to CALEA compliance.

     •   The FCC should not create any additional enforcement
         procedures because they are both unnecessary and contrary
         to CALEA.

     •   The FCC should not adopt DOJ’s suggestion that CALEA
         precludes any recovery of so-called “capital costs” for post-
         1995 equipment.

Sprint

     •   Sprint supports law enforcement CALEA objectives.

     •   Sprint also agrees with DOJ that the FCC should not address
         in this general rulemaking proceeding the sufficiency of any
         industry CALEA packet-mode standards.

     •   The FCC does not possess the authority to adopt a new
         CALEA enforcement regime in addition to one that Congress
         has already established.

     •   Section 107(b) authorizes the FCC to grant extensions for
         packet-mode services.




                             - 103 -
      •   The adoption of “one size fits all” Section 109(b) rules may
          not achieve the desired objective.

      •   Carriers can recover their CALEA “capital costs” from law
          enforcement agencies as a matter of law.

      •   There is no basis to adopt different rules for small carriers.

Bell South

      •   The industry should continue to take the lead in developing
          CALEA standards as intended by Congress.

      •   The scope of a provider’s CALEA obligations varies with the
          type of service at issue.

      •   The FCC must adopt reasonable compliance deadlines that
          take into account the time necessary to develop standards,
          design products, and deploy CALEA solutions in carrier
          networks.

      •   The FCC’s proposed framework for considering Section
          109(b) petitions is far too stringent.

      •   CALEA enforcement lies exclusively with the federal courts.

      •   Requiring providers to bear the sole responsibility for CALEA
          implementation costs is inconsistent with CALEA.

      •   The FCC should allow, but not require, providers to use
          trusted third parties to satisfy their CALEA obligations.

SBC

      •   The FCC should seek extensive input from industry experts
          before addressing complex technical issues, such as the
          definitions of call-identifying information and call content.

      •   The FCC must give the communications industry a
          reasonable amount of time to develop and implement
          standards.




                               - 104 -
     •      The FCC must not limit the extension process to equipment,
            facilities, and services installed or deployed prior to
            October 25, 1998.

     •      The FCC should reject law enforcement’s self-serving and
            legally suspect arguments regarding cost recovery.

Vonage

     •      The FCC should seek more specificity concerning problems
            faced by law enforcement.

     •      If CALEA is found to apply, the FCC must give effect to all of
            the statute’s provisions including cost recovery and a
            reasonable compliance timeframe.

     •      Application of CALEA to VoIP providers based on a
            “managed/non-managed” distinction will leave doors wide
            open for bad actors, eliminating law enforcement benefit of
            CALEA application to VoIP and creating incentives for them
            to move to “non-managed” technologies.


Earthlink

     •      The FCC’s tentative conclusion that the information services
            component of broadband Internet access services are
            subject to CALEA is in violation of the statute.

     •      The FCC may not write the “information services” exclusion
            out of CALEA.

     •      The FCC’s reading of the “substantial replacement” provision
            in CALEA is not supported by the plain language of the
            statute.

     •      If the FCC’s tentative conclusion is adopted in its current
            form, it will be successfully challenged in court, causing
            continued industry uncertainty and preventing law
            enforcement from getting the access it has requested.




                                 - 105 -
Verisign

     •     The principal issue in this proceeding revolves around the
           question of who bears the costs for the imposed capability
           requirements.

     •     Almost every commenting party strongly supported the use
           of trusted third party service bureaus to meet the capability
           requirements.

     •     Although the time to act is now, the FCC can take additional
           actions to further reduce the burdens and costs.

     •     The FCC should treat additional significant law enforcement
           support capabilities in a subsequent phase of this
           proceeding.




                               - 106 -
                                                    Appendix VIII

                      FBI Ad Hoc Solutions

      When technologies are not covered by CALEA, or when a covered
technology is not CALEA-compliant, the FBI works to develop an “ad
hoc solution” to allow law enforcement to conduct the electronic
surveillance it needs. The FBI provided us with some examples:

     •   System DCS-3000. The FBI has spent nearly $10 million on
         this system. The FBI developed the system as an interim
         solution to intercept personal communications services
         delivered via emerging digital technologies used by wireless
         carriers in advance of any CALEA solutions being deployed.
         Law enforcement continues to utilize this technology as
         carriers continue to introduce new features and services.

     •   [LAW ENFORCEMENT SENSITIVE INFORMATION REDACTED].

     •   [LAW ENFORCEMENT SENSITIVE INFORMATION REDACTED].

     •   [LAW ENFORCEMENT SENSITIVE INFORMATION REDACTED].

     •   [LAW ENFORCEMENT SENSITIVE INFORMATION REDACTED].

     •   [LAW ENFORCEMENT SENSITIVE INFORMATION REDACTED].

     •   [LAW ENFORCEMENT SENSITIVE INFORMATION REDACTED].

     •   Red Hook. The FBI has spent over $1.5 million to develop a
         system to collect voice and data calls and then process and
         display the intercepted information in the absence of a CALEA
         solution.




                              - 107 -
                                                         Appendix IX

                        CALEA Punchlist Items

Content of Subject-Initiated Conference Calls (Conference
Calling). Capability that enables law enforcement to access the
content of conference calls supported by the subject’s service
(including the call content of parties on hold).

Party Hold, Party Join, Party Drop (Multi-Party Call). Messages
would be sent to law enforcement that identify the active parties of a
call. Specifically, on a conference call, these messages would indicate
whether a party is on hold, has joined, has joined or has been dropped
from the call.

Access to Subject-Initiated Dialing and Signaling
(Dialing/Signaling Information). Access to all dialing and
signaling information available from the subject would inform law
enforcement of a subject’s use of features. (Examples include the use
of flash-hook and other feature keys).

In-Band and Out-of-Band Signaling (Ring/Busy Signal). A
message would be sent to law enforcement when a subject’s service
sends a tone or other network message to the subject or associate.
This can include notification that a line is ringing or busy.

Timing to Associate Call Data to Content (Timing Information).
Information necessary to correlate call identifying information with the
call content of a communications interception.

Post-Cut-Through Dialed Digits (Dialed Digit Extraction).
Extraction and delivery on a call data channel of call-routing digits
dialed by a subject after the initial call setup is completed.

Cell Site Location. Although cell site location was not part of the
punchlist, many law enforcement representatives we spoke with found
this feature extremely useful. Cell site location allows law enforcement
to track the movement of a target by monitoring the locations of the
cell towers accessed during the target’s cell phone calls.




                               - 108 -
                           Appendix X

OIG Survey to Law Enforcement




        - 109 -
- 110 -
- 111 -
                               Appendix XI

FBI RESPONSE TO THE DRAFT AUDIT REPORT




               - 112 -
Responses to Recommendations

      The following paragraphs provide initial responses to each of the
recommendations contained within the OIG Draft Report.

   1.      Testing

   OIG Recommendation: Coordinate with the DOJ and the telecommunications
   industry to determine the legality and feasibility of FBI-sponsored development and
   testing of manufacturers’ CALEA solutions prior to their dissemination to carriers.

The FBI will coordinate with DOJ to determine the legality of FBI-sponsored testing of
CALEA solutions. The FBI believes it is well suited to test technical solutions from a
law enforcement perspective. In fact, the FBI regularly tests solutions with
manufacturers (including third-party solution providers) to ensure developed solutions
meet the needs of law enforcement and provide all applicable call-identifying information
and call content. The FBI established a testing program in conjunction with the
reimbursement of the industry for nationwide Right-to-Use (RTU) software licenses and
continues to dedicate those resources to the testing of industry-developed solutions. With
respect to testing associated with the reimbursement of technical solutions, the FBI’s
testing program worked with carrier partners of sufficient size to be representative of
networks adopting broad usage of those technical solutions.

As stated in the Draft Report, the FBI has concerns regarding carriers’ suggestion that it
oversee testing (from perspectives other than law enforcement’s). Testing for all
permutations of the effects of manufacturers' solutions within all providers’ networks
would impose an enormous burden on any organization. Further, the FBI neither
believes it is well suited to conduct this type of testing, nor that the industry would agree
to have the results of such FBI testing validate the efficacy of any manufacturer’s
solution and provide any level of indemnification regarding those solutions.

Finally, as also stated in the Draft Report, the FBI believes it is important to consider how
testing is conducted for other services and features made available by equipment
manufacturers. The FBI understands the industry makes use of a number of different
testing models and will consult with DOJ regarding the appropriateness of using any of
these industry models for future testing.


   2.      Expand State and Local Law Enforcement Participation

   OIG Recommendation: Expand the audience of state and local law enforcement
   representatives participating in its Law Enforcement Technical Forums and the FBI
   Threat Assessment Surveys. This would allow for a more comprehensive
   understanding of the electronic surveillance threats to law enforcement.




                                        - 113 -
The FBI generally agrees that more expansive participation by all levels of the law
enforcement community would assist in the implementation of CALEA with respect to
the development of a more comprehensive understanding of the electronic surveillance
threats to law enforcement. The FBI remains dedicated to the continued involvement of
law enforcement in the implementation of CALEA and has allocated significant
resources since the enactment of CALEA to ensure the participation of the law
enforcement community.

The FBI agrees with this recommendation and will, in the coming months, reach out to
more law enforcement agencies using the same source material cited in the OIG Draft
Report (i.e., National Law Enforcement Administrators Directory); its Internet website,
www.AskCALEA.net; and other sources.


   3.      Methodology Assessing Impact of Non-Compliance with CALEA

   OIG Recommendation: Improve the methodology used to gather accurate and
   current data regarding the adverse impact on criminal investigations arising from
   carriers’ inability to provide CALEA-compliant wiretaps or access to call-identifying
   information. This can be accomplished by soliciting detailed information on adverse
   responses to the Threat Assessment Survey, and through the CALEA helpdesk.

The FBI believes the FBI’s Threat Assessment Survey and CALEA Helpdesk are
effective data collection tools that have been used in the past to gather data and will
continue to be used for that purpose. The FBI regularly examines its survey forms and
questions to ensure the most effective collection of data and is currently revising the
Threat Assessment Survey to allow for the collection of specific data regarding the
adverse impact from carriers’ non-compliance with CALEA. In response to this
recommendation, the FBI will re-assess its current Threat Assessment Survey in
recognition of the need to collect more detailed information for adverse responses. The
FBI will also correlate Threat Assessment Survey and Helpdesk information to provide a
more comprehensive view of the technological impacts affecting law enforcement.

However, as the Draft Report acknowledged, there are a number of factors that limit the
FBI’s ability to collect valuable information from law enforcement regarding impacts on
investigations. However, despite these limiting factors, the FBI will continue its efforts
to improve the methods it uses to collect this valuable information.


   4.      Remaining TCCF Funding

   OIG Recommendation: Reexamine the benefits of activating CALEA solutions on
   wireline systems prior to the expenditure of the remaining $45 million in CALEA
   funding.




                                       - 114 -
The FBI agrees with this recommendation and will continue to periodically (e.g., bi-
annually) assess its prioritization of funds associated the CALEA (i.e., the
Telecommunications Carrier Compliance Fund [TCCF]) and strive to make the best use
of available funds. The FBI has already utilized approximately 90 percent ($450 million
of the available $499.5 million) of the funds appropriated to reimburse the
telecommunications industry for technical solutions (i.e., RTU software licenses, dial-out
delivery mechanisms, and deployment of solutions for two large carriers). The FBI’s
considerations with respect to the funds already expended and plans for future
expenditures include:
      • The recognition that the effectiveness of RTU software licenses, dial-out
            solutions, and deployment agreements are cumulative. The FBI will assess
            the benefit of pursuing reimbursement agreements to deploy technical
            solutions with wireline carriers which would maximize the effectiveness of
            the funds already expended.
      • The FBI will assess the benefit to Federal, State, and local law enforcement of
            lowering wireline delivery costs while simultaneously decreasing the amount
            of time needed to provision an intercept by deploying the dial-out solution.
            As stated in the Draft Report, delivery methods of the industry greatly
            influence the costs of electronic surveillance to law enforcement.
            Reimbursing the deployment of dial-out solutions will greatly reduce those
            costs.
      • The total amount of TCCF funds expended on two large wireline carriers for
            deployment of technical solutions (i.e., software activation) was $4.5 million.
            If the FBI pursues these solutions it expects to negotiate similar agreements
            with the remaining two large carriers and estimates that entering into software
            activation agreements with these carriers would make about 90 percent of the
            wireline switches CALEA-compliant.
      • CALEA itself limits reimbursement to equipment, facilities, and services
            deployed on or before January 1, 1995. For equipment, facilities, and services
            deployed after January 1, 1995, a carrier must petition the FCC for a
            determination of whether compliance with the assistance capability
            requirements is reasonably achievable. To date, no such determination has
            been made by the FCC.

In the event petitions are filed before the FCC and determinations are made so that
reimbursement may be made to telecommunications carrier for any additional, reasonable
costs of making compliance with CALEA’s assistance capability requirements, the FBI
will assess the effectiveness of utilizing available funds for those purposes.


   5.      Training of State and Local Law Enforcement

   OIG Recommendation: Provide training for state and local law enforcement agents
   and technical personnel on how to conduct CALEA intercepts. In conjunction with
   this recommendation, the FBI should pursue legal clarification of Attorney General
   Order 1945-95 from the DOJ.


                                       - 115 -
The FBI agrees with this recommendation. The FBI’s Operational [Investigative]
Technology Division (OTD) routinely provides training to federal, state, and local law
enforcement agents and technical personnel – it has a Unit specifically dedicated to the
training of the FBI’s technical agents as well as those of state and local law enforcement.
Training includes CALEA intercepts and ad-hoc solutions developed by the FBI. The
FBI conducted numerous training sessions in 2005, educating members of the federal,
state, and local law enforcement community. Additionally, OTD makes available the
results of its testing program to members of the law enforcement community and
periodically makes available to the law enforcement community information on: new and
converging technologies; the rapid introduction of new products and services; the
expanding numbers of service providers; and global third party application providers - to
facilitate better understanding of emerging technologies and their impact on law
enforcement.

In prior years the FBI provided training to its Law Enforcement Technical Forum (LETF)
membership through meetings. This training was funded with FBI resources dedicated to
the implementation of CALEA. However, due to a lack of funding the FBI can no longer
afford to provide as much training as in the past. The FBI believes training of federal,
state, and local law enforcement can be more effectively addressed through a
Congressionally mandated and funded Lawful Access Policy Office – an office with the
specific responsibility to address electronic surveillance matters on behalf of the entire
law enforcement community. In the absence of such a mandate and associated funding,
the FBI will continue its policy of providing overarching support to the training and
intercept needs of law enforcement to the extent its resources allow.

The FBI will, in conjunction with this recommendation, pursue legal clarification of
Attorney General Order 1945-95 from the DOJ to permit the FBI to loan electronic
surveillance equipment to state and local law enforcement agencies while ensuring
appropriate safeguards exist to minimize the risk of disclosing sensitive intercept
techniques.

   6.      Law Enforcement / Industry Liaison

   OIG Recommendation: Improve liaison between law enforcement officials and
   carrier and manufacturer representatives by providing a forum to address electronic
   surveillance issues. This would enhance carrier customer service and law
   enforcement officials’ technical knowledge.

       The FBI agrees with this recommendation in that the FBI can facilitate liaison
between law enforcement officials and carrier and manufacturer representatives by
providing a forum to address electronic surveillance issues. However, as stated in the
Draft Report, over the last decade, various forums have been held regarding the CALEA
required capabilities such as telecommunications industry-sponsored legal summits, the
FBI-sponsored Service Specific Document Summits, and conferences and summits held
by various organizations (industry and privacy groups). These meetings have historically



                                       - 116 -
allowed participants to express their views – often contentious and contradictory to each
other. However, more recently there appears to be a willingness in some segments of
industry to work more cooperatively with law enforcement. The FBI will re-examine its
duties and capabilities within the scope of CALEA to assist in improving law
enforcement’s liaison with the industry.




                                      - 117 -
                                                         Appendix XII

      OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
      SUMMARY OF ACTIONS NECESSARY TO CLOSE REPORT

       We provided a draft audit report to the FBI for review and
comment. The response from the FBI is incorporated as Appendix XI
of this final report. As part of its response to the draft report, the FBI
suggested edits that we considered, and where appropriate,
incorporated into the final report. The following contains our analysis
of the FBI’s response to the 6 recommendations.

Recommendation Number:

   1. Resolved. This recommendation will remain resolved while the
      FBI coordinates with DOJ to determine the legality of FBI-
      sponsored testing of CALEA solutions. This recommendation can
      be closed when the FBI coordinates with DOJ and the
      telecommunications industry (as appropriate) to determine the
      legality and feasibility of FBI-sponsored development and testing
      of manufacturers’ CALEA solutions prior to their dissemination to
      carriers.

   2. Resolved. According to the FBI, in the coming months it will
      reach out to more law enforcement agencies using the National
      Law Enforcement Administrators Directory, its Internet website,
      and other sources. This recommendation can be closed when
      the FBI provides documentation of having reached out to more
      law enforcement agencies.

   3. Resolved. In response to this recommendation, the FBI will
      assess its current Threat Assessment Survey in recognition of
      the need to collect more detailed information for adverse
      responses. The FBI will also correlate Threat Assessment Survey
      and Helpdesk information to provide a more comprehensive view
      of the technological impacts affecting law enforcement. This
      recommendation can be closed when the FBI provides us its
      revised survey, its procedures for correlating Threat Assessment
      Survey and Helpdesk information to obtain a more
      comprehensive view of the technological impacts affecting law
      enforcement, and more comprehensive information on adverse
      responses.



                                - 118 -
4. Resolved. The FBI agreed to reexamine the benefits of
   spending the funds remaining in the Telecommunications Carrier
   Compliance Fund (TCCF). This recommendation can be closed
   when we receive the FBI’s analysis of the costs and benefits of
   future TCCF expenditures.

5. Resolved. The FBI agreed with the recommendation. In prior
   years, the FBI provided training to it Law Enforcement Technical
   Forum membership through meetings. This training was funded
   with FBI resources dedicated to the implementation of CALEA.
   However, the FBI stated that due to a lack of funding it can no
   longer afford to provide as much training as in the past. The FBI
   said it believes training of federal, state, and local law
   enforcement can be more effectively addressed through a
   Congressionally mandated and funded Lawful Access Policy
   Office – an office with the specific responsibility to address
   electronic surveillance matters on behalf of the entire law
   enforcement community. In the absence of such a mandate and
   associated funding, the FBI said it will continue its policy of
   providing overarching support to the training and intercept
   needs of law enforcement to the extent its resources allow. This
   recommendation will remain resolved while the FBI seeks
   adequate authority and appropriate funding to provide training
   for state and local law enforcement agents and technical
   personnel on how to conduct CALEA intercepts. In addition, the
   FBI will, in conjunction with the recommendation, pursue legal
   clarification of Attorney General Order 1945-95 from the DOJ to
   permit the FBI to loan electronic surveillance equipment to state
   and local law enforcement agencies while ensuring appropriate
   safeguards exist to minimize exist to minimize the risk of
   disclosing sensitive intercept techniques. This recommendation
   can be closed when the FBI either provides training for state and
   local law enforcement agents and technical personnel on
   conducting CALEA intercepts, or provides an alternative
   corrective action that will help state and local law enforcement
   agents and technical personnel in performing CALEA intercepts.




                           - 119 -
6. Resolved. The FBI agreed with this recommendation, and will
   examine its duties and capabilities within the scope of CALEA to
   assist in improving law enforcement’s liaison with the
   telecommunications industry. This recommendation can be
   closed when the FBI develops and implements a plan for
   improving law enforcement’s liaison with the telecommunications
   industry.




                           - 120 -
